<html>
<title> - DEPARTMENT OF DEFENSE PLANS AND PROGRAMS RELATING TO COUNTERTERRORISM, COUNTERNARCOTICS, AND BUILDING PARTNERSHIP CAPACITY</title>
<body><pre>[Senate Hearing 112-182]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-182
 
DEPARTMENT OF DEFENSE PLANS AND PROGRAMS RELATING TO COUNTERTERRORISM, 
          COUNTERNARCOTICS, AND BUILDING PARTNERSHIP CAPACITY

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 12, 2011

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________
?

                  U.S. GOVERNMENT PRINTING OFFICE
71-959                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b0c1b042b081e181f030e071b4508040645">[email&#160;protected]</a>  
  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 KAY R. HAGAN, North Carolina, Chairman

JACK REED, Rhode Island              ROB PORTMAN, Ohio
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
JOE MANCHIN III, West Virginia       SCOTT P. BROWN, Massachusetts
JEANNE SHAHEEN, New Hampshire        LINDSEY GRAHAM, South Carolina
KIRSTEN E. GILLIBRAND, New York      JOHN CORNYN, Texas

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

Department of Defense Plans and Programs Relating to Counterterrorism, 
          Counternarcotics, and Building Partnership Capacity

                             april 12, 2011

                                                                   Page

Reid, Garry, Deputy Assistant Secretary of Defense for Special 
  Operations and Combatting Terrorism............................     4
Schear, James A., Ph.D., Deputy Assistant Secretary of Defense 
  for Partnership Strategy and Stability Operations..............    12
Wechsler, William F., Deputy Assistant Secretary of Defense for 
  Counternarcotics and Global Threats............................    19

                                 (iii)


DEPARTMENT OF DEFENSE PLANS AND PROGRAMS RELATING TO COUNTERTERRORISM, 
          COUNTERNARCOTICS, AND BUILDING PARTNERSHIP CAPACITY

                              ----------                              


                        TUESDAY, APRIL 12, 2011

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Kay R. 
Hagan (chairman of the subcommittee) presiding.
    Committee members present: Senators Hagan, Brown, and 
Portman.
    Committee staff member present: Mary J. Kyle, legislative 
clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Jessica L. Kingston, research assistant; Michael J. Kuiken, 
professional staff member; and Michael J. Noblet, professional 
staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; John W. Heath, Jr., minority 
investigative counsel; and Michael J. Sistak, research 
assistant.
    Staff assistants present: Kathleen A. Kulenkampff and 
Hannah I. Lloyd.
    Committee members' assistants present: Tyler Stephens, 
assistant to Senator Chambliss; Charles Prosch, assistant to 
Senator Brown; Gordon Gray, assistant to Senator Portman; Dave 
Hanke, Grace Smitham, and Russ Thomasson, assistants to Senator 
Cornyn.

      OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRMAN

    Senator Hagan. The Subcommittee on Emerging Threats and 
Capabilities will now come to order. I appreciate my colleague 
the Ranking Member Senator Portman for also joining us, and our 
witnesses here today.
    This afternoon, the Emerging Threats and Capabilities 
Subcommittee is actually holding its first hearing of the 112th 
Congress and, as its name indicates, this subcommittee focuses 
on new and non-traditional threats to our security and on the 
capabilities we need to address those threats. This includes 
threats ranging from terrorism to the proliferation of weapons 
of mass destruction (WMD) to improvised explosive devices 
(IED). We also oversee the development and use of the spectrum 
of responses to these threats, from the most basic research to 
the most advanced technologies, and the policies and programs 
to counter these threats.
    Today we will examine the plans and programs of the 
Department of Defense (DOD) to counter a number of irregular 
threats that fall under the oversight of the Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict (ASD-SOLIC), and Interdependent Capabilities, a very 
long mouthful, better known as ASD-SOLIC.
    Our witnesses this afternoon have responsibility for a wide 
range of issues and the subcommittee looks forward to hearing 
your views on current and emerging threats, as well as DOD's 
plans and programs designed to respond to them. In particular, 
these include counterterrorism, building political partnership 
capacity, counternarcotics, stability operations, information 
operations, and security assistance programs.
    Mr. Garry Reid is the Deputy Assistant Secretary of Defense 
for Special Operations and Combatting Terrorism and is 
currently the acting Assistant Secretary for SOLIC. In this 
position Mr. Reid has responsibility for DOD's plans and 
programs for combatting terrorism, counterinsurgency, and other 
aspects of irregular warfare.
    Among these programs is the section 1206 train and equip 
program for building the counterterrorism and stability 
operations capabilities of partner foreign nations, which DOD 
and the Department of State (DOS) jointly manage under an 
innovative dual-key arrangement. Mr. Reid also oversees the 
development and employment of special operations capabilities 
as they relate to foreign internal defense, military 
information support, and other indirect approaches to 
countering transnational threats.
    The United States and our allies continue to be threatened 
by al Qaeda and other violent extremist organizations. As we 
have seen in recent years, this threat emanates not only from 
the border region between Afghanistan and Pakistan, but also 
from al Qaeda franchises in Yemen, Somalia, and northwest 
Africa. These groups have made clear their desire to strike 
western and U.S. targets. We must remain mindful of the 
potential for these groups to execute attacks with significant 
and destabilizing effects, often with limited planning and at a 
very low cost. The 2009 Christmas Day airliner bombing attempt 
over Detroit is a chilling reminder of that fact.
    The subcommittee looks forward to hearing of DOD's efforts 
to counter these violent extremist groups, both indirectly 
through training, advising, informational and other means, and 
when necessary directly, through offensive military operations.
    Dr. James Schear is the Deputy Assistant Secretary for 
Defense for Partnership Strategy and Stability Operations. Dr. 
Schear has responsibility for DOD's role in global 
stabilization and reconstruction operations, foreign disaster 
relief, humanitarian assistance, and international 
peacekeeping. He also oversees DOD efforts to work with partner 
nations to improve security and governments in areas of current 
or potential conflict. These activities are an important part 
of our efforts to reduce threats to our security and that of 
our partners.
    The activities overseen by Dr. Schear inherently involve 
other U.S. Government agencies and international partners, and 
I hope, Dr. Schear, that you will discuss DOD efforts as part 
of the broader U.S. whole-of-government approach to improve the 
stability and security of vulnerable populations and regions, 
thereby reducing the ability of violent extremist groups to 
take root, spread their message, recruit, and plan attacks 
against the United States and our allies.
    I hope, Dr. Schear, that you will also speak to U.S. 
contributions to United Nations (U.N.) peacekeeping operations, 
such as the U.N. peacekeeping operations in the Democratic 
Republic of the Congo (DRC) in the form of military observers 
and staff officers.
    Mr. William Wechsler is the Deputy Assistant Secretary of 
Defense for Counternarcotics and Global Threats. Among other 
things, Mr. Wechsler leads the development of DOD policies and 
plans to disrupt the flow of illegal narcotics, counter the 
threat from piracy, and interrupt the financing of violent 
extremist groups. In terms of that counternarcotics mission, 
one of the key authorities to provide assistance to domestic 
and foreign law enforcement agencies will expire at the end of 
this fiscal year. We look forward to hearing whether DOD 
intends to request an extension of this authority and whether 
any modifications are needed.
    In recent years, it has become increasingly clear that 
disrupting the flow of money, the lifeblood of violent 
extremist organizations and Transnational Criminal 
Organizations (TCO), could have a substantial impact on their 
ability to recruit, sustain, and conduct operations. 
Confronting the formal and informal networks that move illicit 
goods requires a global effort involving interagency and 
international partners. We look forward to hearing from Mr. 
Wechsler regarding DOD's efforts to identify and counter these 
networks and what more needs to be done as we move forward.
    I am proud to note that many of the DOD efforts we will 
discuss this afternoon are being carried out around the world 
by U.S. Special Operations Forces (SOF), many of whom I have to 
say call North Carolina home. As always, we owe them and their 
families a debt of gratitude for their sacrifice and service to 
our country.
    I'd like to now turn to my colleague and ranking member of 
this subcommittee, Senator Portman, for his opening remarks. 
Senator Portman.

                STATEMENT OF SENATOR ROB PORTMAN

    Senator Portman. Thank you, Madam Chair. I appreciate being 
here with you for our first hearing and I look forward to 
working with you and other members of the subcommittee on these 
critical issues.
    You just outlined some very difficult and complex 
challenges we face, our military faces, our Nation faces, and I 
join you in thanking these gentlemen for joining us and for 
your service and for the service of so many men and women who 
are today serving under you and serving in our military.
    The determined and increasingly adaptive foes we have out 
there continue to threaten our stability and safety of the 
world, of certainly American citizens, here at home and abroad. 
Again as Senator Hagan has outlined, we have huge challenges 
ahead of us.
    At the same time, we have a huge fiscal challenge here in 
Washington. So as the world becomes more complex and more 
difficult, we're also facing a looming fiscal crisis that all 
of us know needs to be addressed. If it's not, it will only 
further complicate our ability to navigate some of these 
challenging issues that are raised today.
    So part of what I think we'll look for in this subcommittee 
will be to ensure that the threats that are out there are being 
addressed, that the priorities of DOD are matched appropriately 
with those threats, and to ensure that taxpayer dollars are 
being used in the most efficient and cost-effective way 
possible.
    We've seen over the past couple of weeks and months that 
it's difficult to predict what's going on around the world. If 
anything, we've learned that it's mostly unpredictable. I don't 
think any of us here would have expected the Arab spring to 
have ushered in such big changes, going all the way from the 
eastern Mediterranean to North Africa and down the Arabian 
peninsula, over the past few months. These have enormous and I 
think lasting implications for our security interests in the 
area.
    Sustained U.S. engagement in my view will be required, 
particularly during this period of great transition, and 
terrorist organizations such as al Qaeda will be trying to take 
advantage of this as well. We need to ensure that they're 
unable to establish new bases of operation.
    Closer to home, since we're also talking about 
counternarcotics today, we have these TCOs that continue to 
expand their reach, multi-billion dollar networks, often 
expanding it ruthlessly, and affecting our citizens more and 
more. While the threat posed by these organizations is great, I 
think we have seen some successes. I would think the success in 
Colombia, for instance, in partnering with the United States 
has led to greater security, stability, and partnership with 
the Colombian people. So I think we know we can make a 
difference and we must.
    Madam Chair, I'll be brief in my statement to get to the 
witnesses because we have some terrific knowledge here to be 
passed along to the committee and for the record. Again, I look 
forward to hearing what DOD views as the greatest threats 
facing our Nation, to ensure that we are aligned properly to 
address those threats, what you're doing to counter them, and 
what you think in terms of our current resourcing and statutory 
authorities, are they sufficient to meet those threats.
    So again, thank you all for being here today.
    Thank you, Madam Chair.
    Senator Hagan. Thank you, Senator Portman.
    I know that our three witnesses have all submitted written 
testimony, so I would like to now call on you to share with us 
your comments today, and then we'll have some questions. Mr. 
Reid, if you can begin.

STATEMENT OF GARRY REID, DEPUTY ASSISTANT SECRETARY OF DEFENSE 
        FOR SPECIAL OPERATIONS AND COMBATTING TERRORISM

    Mr. Reid. Thank you, Chairman Hagan. I started my Special 
Forces career about 34 years ago on the rolling sand hills of 
your beautiful State, which we referred to as ``Pine Land,'' 
and it's a pleasure to be back here with you today; and with 
you, Senator Portman, as well. To the whole group here, thank 
you for inviting all of us here today to testify and for the 
opportunity to share with you the plans, policies, and programs 
we pursue to address these important security threats you both 
identified.
    In terms of the entire office, the responsibilities of the 
ASD-SOLIC, and Interdependent Capabilities span a wide range of 
issue areas, from counterterrorism and direct action to 
security assistance, humanitarian assistance, support to 
multinational peacekeeping operations, and countering narcotics 
trafficking. Each of us will speak to our own perspectives on 
the current and emerging threats from the vantage point of our 
respective portfolios, noting that these issues complement one 
another as we collectively work together to support our U.S. 
military forces and our national security policy to address 
these threats.
    As I'm sure you know, the Office of the ASD-SOLIC was 
established to provide senior civilian supervision of special 
operations activities and low intensity conflict, including 
oversight of special operations policy and resources. We are 
the principal civilian advisers to the Secretary of Defense on 
these matters and provide senior management for special 
operations and low intensity conflict within DOD.
    As a policy office, the responsibilities of the ASD-SOLIC 
are unique in that they include service secretary-like roles, 
such as providing overall supervision of the preparation and 
justification of special operations program and budget, while 
also including providing civilian oversight and supervisory 
responsibilities, such as developing policy and reviewing plans 
for the conduct of sensitive special operations and 
coordinating those activities within the interagency and 
overseeing their execution.
    As the Deputy Assistant Secretary of Defense for Special 
Operations and Combatting Terrorism, I serve as the principal 
adviser to the ASD-SOLIC for DOD policies, plans, authorities, 
and resources related to special operations, irregular warfare, 
with special emphasis on counterterrorism, counterinsurgency, 
unconventional warfare (UW), sensitive special operations, and 
other activities as directed by the Secretary of Defense.
    In addition, I serve as the principal crisis manager for 
the Office of the ASD-SOLIC in response to international or 
domestic activities related to special operations and 
combatting terrorism. I was also recently assigned 
responsibility for overseeing DOD information operations and 
we're integrating those activities into our SOLIC-wide 
portfolio.
    Within this broad set of responsibilities, one core mission 
of my office is to provide oversight of the U.S. Special 
Operations Command (SOCOM), which has grown significantly since 
2001. Created by Congress in 1986, SOCOM is charged with 
responsibility to organize, train, and equip SOFs. These forces 
are a uniquely specialized component of our U.S. Armed Forces, 
trained to conduct operations, including counterterrorism, UW, 
direct action, special reconnaissance, foreign internal 
defense, civil affairs, military information support 
operations, and counterproliferation of WMD, in areas under 
enemy control or politically sensitive environments.
    My office works closely with Admiral Eric Olson, the 
commander of SOCOM and his staff, to ensure these forces have 
the equipment and resources they need to perform their 
demanding missions.
    Several key initiatives we are pursuing in fiscal year 2012 
and building towards 2013 and beyond will enhance SOCOM's 
flexibility and effectiveness. These include: modifying and 
expanding our heavy lift helicopter fleet, the MH-47 Golf; 
recapitalizing our medium-lift fleet, the MH-60, and the Kilo 
and Lima platform variants; increasing the total production of 
our tilt-rotor CV-22 Ospreys, which have proven themselves in 
both Iraq and Afghanistan.
    We have also been working with the command to recapitalize 
SOCOM's Vietnam-era C-130 gunship fleet with newer C-130 Juliet 
models and to advance the nonstandard aviation program to 
deliver a variety of smaller aircraft that provide intra-
theater lift capability. Through these and many other 
initiatives, we are ensuring our special operators have the 
tools they need to prevail in current and future conflicts.
    As Secretary Gates has mentioned on many occasions, 
America's dominance in traditional warfighting has created 
powerful incentives for our adversaries to use alternative 
methods to counter U.S. influence and interests. For the 
foreseeable future, the most likely contingencies the United 
States will face involve what we term irregular warfare.
    Since 2006, our office has been central to the support of 
this strategic shift in DOD to improve capabilities and expand 
DOD capacity for irregular warfare. For example, we have issued 
guidance and implemented policy on irregular warfare 
capabilities. We sponsored and I led the DOD 2010 Quadrennial 
Defense Review team on irregular warfare. We've strengthened 
our conventional force capabilities for key enablers such as 
security force assistance, expanded our manned and unmanned 
aircraft systems for intelligence, reconnaissance, and 
surveillance, and improved our counter-IED capabilities.
    We've also worked to enhance language and cultural focus 
within the general purpose forces, focused on building up 
regional expertise for Afghanistan and Pakistan in particular, 
as well as working across the Department to increase 
counterinsurgency, stability operations, and counterterrorism 
competency in our conventional forces.
    Another core mission that has grown demanding in the last 
several years is our role in providing oversight of DOD's 
global operations against al Qaeda and its affiliates, 
including in Iraq and Afghanistan. I represent the Secretary of 
Defense on various working groups in the interagency and 
maintain active liaison with those agencies that have 
responsibility for national security policy as it relates to 
special operations and combatting terrorism.
    In line with the President's and the Secretary's 
priorities, a significant degree of our attention is providing 
oversight for sensitive operations. I oversee development of 
these operations and others for policies for CT, including 
combatting terrorism technology and capability development, and 
I assist, as you mentioned, Madam Chairman, with the 
administration and implementation of our section 1206 global 
train and equip authorities and our section 1208 support to 
special operations authorities, both of which are important 
tools in the CT fight and for which we appreciate this 
committee's continued support.
    These are among the force development and policy activities 
that are brought to bear in executing the President's and the 
Secretary's priorities, including prevailing in today's 
conflicts in Afghanistan and defeating al Qaeda and affiliated 
groups around the world.
    My office has provided extensive support on the 
counterterrorism and special operations and overall operational 
aspects of three administration-wide reviews of strategy 
towards Afghanistan and Pakistan. Our current assessment is 
that strategy is working and we believe we've constrained al 
Qaeda significantly in the Afghanistan-Pakistan border area and 
degraded their capability to plan and conduct operations 
externally.
    We've devoted considerable resources to bringing our U.S. 
and partner nations counterinsurgency capabilities to bear, and 
especially by working to rapidly field capabilities to support 
them, such as unmanned aerial vehicles (UAV), counter-IED, and 
increased rotary wing capabilities.
    Our efforts against al Qaeda in Afghanistan and Pakistan 
have forced them to diversify into other regions.
    This network they have established is a broad syndicate of 
affiliate organizations in places such as the Arabian 
Peninsula, East Africa, and elsewhere, and these are of great 
concern to us as well.
    In the Arabian Peninsula, al Qaeda poses the most immediate 
terrorist threat to U.S. interests in the homeland outside 
Afghanistan-Pakistan. Accordingly, we are working closely with 
our Yemeni security partners to disrupt, dismantle, and defeat 
al Qaeda in the Arabian Peninsula, deny them sanctuary, degrade 
their capability to plan, organize, and train for attacks 
against the U.S. Homeland and our interests.
    In East Africa, we're supporting our regional partners to 
counter the terrorist threat posed by Al-Shabaab, an Islamic 
terrorist group with nationalist roots but global aspirations 
and visible alignments with al Qaeda core. Our approach 
recognizes that a U.S. military presence in this region would 
be counterproductive and we work very closely through the 
Somali Transitional Federal Government (TFG) and the African 
Union Mission in Somalia (AMISOM) to counter Al-Shabaab, to 
provide the TFG, the Somali Government, with the time and space 
it needs to develop its own institutions, and to support the 
AMISOM mission of a peacekeeping and disengagement force in 
Somalia.
    Elsewhere in Africa, such as in Mali and other trans-
Saharan countries, we're working closely with security partners 
in these areas to counter the growing threat posed by al Qaeda 
in the Islamic Maghreb.
    Just a last look around the world, in Southeast Asia, the 
Philippines has been and remains an important and capable 
military partner of the United States and they have worked 
aggressively with us to counter the threat from al Qaeda and 
its affiliates in the region. Over the last 9 years our 
military efforts have successfully contained the threat posed 
by terrorist groups in the Philippines and prevented al Qaeda 
from strengthening their foothold in Southeast Asia.
    Through their ability to execute high-end lethal strikes, 
as well as their competence in preventing festering problems 
from turning into far-reaching and expensive crises, our U.S. 
SOF have proven their immeasurable value for securing our 
national interests. The wars we have been engaged in over the 
last decade have amply demonstrated how much more valuable 
those critical skills and competencies will be in the future.
    We appreciate this committee's continued support for our 
work to support these extraordinary men and women who undertake 
some of the Nation's most demanding missions. Thank you again, 
Madam Chairman and Senator Portman, for your inviting us here 
today, and I look forward to your questions.
    [The prepared statement of Mr. Reid follows:]

                 Prepared Statement by Hon. Garry Reid

    Chairman Hagan, Senator Portman, and members of the subcommittee, 
thank you for inviting us to testify at this hearing today and for the 
opportunity to share with you the core plans, policies, and programs we 
pursue to address global security threats. The missions of the 
Assistant Secretary of Defense for Special Operations, Low Intensity 
Conflict and Interdependent Capabilities ASD(SOLIC&IC) span a wide 
range of issue areas, from counterterrorism and direct action to 
security assistance and humanitarian assistance; from support to 
multinational peacekeeping operations to countering narcotics 
trafficking. We will each speak to our perspectives on current and 
emerging threats from the vantage point of our respective portfolios, 
noting that these issue areas complement one another as we collectively 
work to support U.S. military forces and address these threats.

                             I. OUR MISSION

    Special Operations Forces (SOF) are a uniquely specialized 
component of our U.S. Armed Forces trained to conduct operations, 
including counterterrorism, unconventional warfare, direct action, 
special reconnaissance, foreign internal defense, civil affairs, 
military information support operations, and counterproliferation of 
Weapons of Mass Destruction, in areas under enemy control or in 
politically sensitive environments. Over the last half century, these 
forces have repeatedly proven their ability to act with speed, agility, 
and precision, making them an invaluable asset for national strategic 
missions of an extremely sensitive nature. Trained particularly to work 
by, with, and through local partners, at the same time SOF have 
historically executed the lion's share of indirect and unconventional 
U.S. military missions, such as training and advising foreign 
militaries or providing support to civilian authorities abroad.
    Since September 11, the critical need for these core capabilities 
has increased exponentially. Furthermore, as the wars in Iraq and 
Afghanistan have demonstrated, these skill sets can no longer be 
thought of as capabilities reserved for SOF but must also be inculcated 
in our conventional forces as well. Key trends shaping the future 
security environment, such as the growth and power of non-state actors, 
increasing instability in already fragile states, and lowered barriers 
for entry to develop and acquire advanced technologies, suggest that 
the skill sets that SOF bring to bear will likely continue to increase 
in importance for the foreseeable future.
    As mandated by section 138 of title 10, U.S.C., the Office of the 
Assistant Secretary of Defense for Special Operations and Low Intensity 
Conflict ASD(SOLIC) was established to provide senior civilian 
supervision of special operations activities and low intensity 
conflict, including oversight of special operations policy and 
resources. We are the principal civilian advisors to the Secretary of 
Defense on special operations and low intensity conflict matters, and 
after the Deputy Secretary of Defense, provide senior management for 
special operations and low intensity conflict within the Department of 
Defense. As a policy office, the responsibilities of ASD(SOLIC) are 
unique in that they include Service Secretary-like roles, such as 
providing overall supervision of the preparation and justification of 
SOF programs and budget, while also including civilian oversight and 
supervisory responsibilities, such as developing policy and reviewing 
plans for the conduct of sensitive special operations, coordinating 
those activities within the interagency, and overseeing their 
execution.
    As Deputy Assistant Secretary of Defense for Special Operations and 
Combating Terrorism, I serve as the principal advisor to the 
ASD(SOLIC&IC) for DOD policies, plans, authorities, and resources 
related to special operations and irregular warfare, with special 
emphasis on counterterrorism, counterinsurgency, unconventional 
warfare, sensitive special operations, and other activities as 
specified by the Secretary of Defense. In addition, I serve as the 
principal crisis manager for the Office of the ASD(SOLIC&IC) in 
response to international and/or domestic activities related to special 
operations and combating terrorism. I was also recently assigned 
responsibility for overseeing Department of Defense Information 
Operations.

Special Operations Policy
    Within this broad set of responsibilities, one core mission of my 
office is to provide oversight of the Special Operations Command, which 
has grown significantly since 2001. Created by Congress in 1986, SOCOM 
is charged with responsibilities to organize, train, and equip SOF, 
including those that comprise the U.S. Army Special Operations Command, 
the Air Force Special Operations Command, Naval Special Warfare 
Command, and the Marine Corps Forces Special Operations Command. Each 
component ensures SOF are highly trained, properly equipped, and 
capable of rapid global deployment. In 2001, the Department of Defense 
gave SOCOM the mission to synchronize planning of the department's 
global campaign against violent extremists. On average more than 12,000 
SOF and support personnel are deployed around the world, with a 
significant majority assigned to the CENTCOM area of responsibility. 
Since 2006, we've increased the baseline budget for SOCOM by about 50 
percent and in fiscal year 2012, SOCOM will grow by 2,209 military and 
civilian authorizations. We created five additional Special Forces 
Battalions and Civil Affairs and Psychological Operations/Military 
Information Support Operations units in order to provide additional 
support for SOF and the regular Army.
    Several key initiatives we are pursuing in fiscal year 2012 will 
enhance SOCOM's flexibility and effectiveness. This year, the last of 
the originally planned 61 MH-47Gs began modification, and procurement 
of eight additional MH-47Gs is underway. As part of the 
recapitalization of MH-60 K/L platforms, SOCOM will also field the 
first of 72 planned MH-60M helicopters. We would like to bring the 
total production of the tilt-rotor CV-22, which provides long-range, 
high-speed infiltration, extraction, and resupply to Special Operations 
teams in hostile, denied, and politically sensitive areas, to 43 
aircraft. We have also been working with the command to recapitalize 
SOCOM's Vietnam-era AC-130 gunship fleet with AC-130J models. My office 
continues to play a critical role in advancing the Non-Standard 
Aviation Program and delivering a variety of smaller aircraft to 
provide intra-theater airlift capacity. A new Aviation Foreign Internal 
Defense program starts in fiscal year 2012 to train, advise, and assist 
partner nations in a variety of special operations missions and 
capabilities. SOF Warrior line items consist of Small Arms and Weapons 
for SOF warfighters; SOF Visual Augmentation, Lasers and Sensor Systems 
to provide day and night visual augmentation systems for SOF troops; 
SOF Tactical Vehicles; and SOF Soldier Protection and Survival Systems 
that provide specialized equipment to improve survivability and 
mobility of SOF. To address shortfalls resulting from fielding new 
capabilities, a growing force structure, and aging infrastructure that 
was inherited without a future recapitalization budget, we are also 
making a significant investment in Military Construction (MILCON), 
raising the MILCON funding minimum from 4 to 6 percent to support this 
priority in future budgets.

IW Capabilities
    America's dominance in traditional warfighting has created powerful 
incentives for adversaries to use alternative methods to counter U.S. 
influence and interests. For the foreseeable future, the most likely 
contingencies the United States will face will involve irregular 
warfare. Since 2006, my office has also been principally involved in 
supporting the strategic shift within the Department to improve 
capabilities and expand DOD capacity for irregular warfare.
    The 2010 QDR aimed to rebalance U.S. military capabilities to 
emphasize flexibility of the force and investment in key enablers. My 
office has helped to implement this strategic shift by issuing 
directives and policy instructions, for example, on Irregular Warfare 
(IW), and by providing guidance on a range of issues from Security 
Force Assistance to counterinsurgency skills and training. We've also 
focused on implementing key QDR initiatives, such as strengthening and 
institutionalizing conventional force capabilities for Security Force 
Assistance; strengthening and expanding capabilities for training 
partner aviation forces; increasing the availability of Rotary Wing 
assets; expanding and modernizing the AC-130 fleet; expanding Manned 
and Unmanned Aircraft Systems (UAS) for intelligence, surveillance and 
reconnaissance; and improving Counter-IED capabilities. We've also 
worked to enhance linguistic and cultural abilities, focusing on 
building regional expertise for Afghanistan and Pakistan in particular, 
as well as worked across the Department to increase counterinsurgency, 
Stability Operations and counterterrorism competency and capacity in 
our conventional forces.

Oversight of Combating Terrorism
    Another core mission that has grown more demanding in the last 
several years is our role in assisting the ASD(SOLIC&IC) in providing 
oversight of the Department's global operations against al Qaeda and 
its affiliates, including in Afghanistan and Iraq. I represent the 
Secretary of Defense on various working groups in the interagency arena 
and maintain an active liaison with those agencies that have 
responsibility for national security policy as it relates to special 
operations and combating terrorism. In line with the President's and 
Secretary's priorities, as well as the unprecedented scale and scope of 
operations in which U.S. forces are involved, a significant degree of 
our attention is devoted to providing the oversight required for 
sensitive operations.
    I also oversee development of special operations policies for 
counterterrorism, including combating terrorism technology and 
capabilities development, and assist with the administration of Section 
1206 and 1208 authorities. One of our most important tools in the 
counterterrorism fight has been Section 1206 authority. This authority 
gives the Department the ability--with the concurrence of the Secretary 
of State--to quickly respond to build our partners' capabilities to 
confront urgent and emerging terrorism threats and support those 
fighting alongside us in Coalition operations. Section 1208 authorities 
allow SOF to provide support (including training, funding, and 
equipment) to foreign forces, irregular forces, groups and individuals 
supporting or facilitating military operations to combat terrorism. 
Since its enactment in 2005, Section 1208 has been a critical authority 
for the war against al Qaeda and for counterterrorism and related 
counterinsurgency operations in Iraq and Afghanistan. We appreciate the 
committee's continued support for both Section 1206 and 1208.

Information Operations
    Over the past year, DOD has performed an intensive review of the 
oversight and management of Information Operations (IO) and several 
capabilities which support IO, including Military Information Support 
Operations (MISO, formerly Psychological Operations). As a result of 
the Secretary's directed study of the Department's expenditures and 
management for IO, several changes have been made, including the 
consolidation of oversight and management of IO and MISO together 
within SOLIC. The Department also performed an exhaustive policy review 
of all MISO programs and activities to ensure these activities adhered 
to policy, were directly linked to military objectives, and were 
coordinated with the State Department at both the DOD and COCOM levels. 
As has been reflected in several reports this administration has 
submitted to Congress over the past year, Combatant Command IO programs 
and activities have matured over the past year enabling IO to be 
utilized a component of every recent military operation, to include 
Odyssey Dawn.

Counter Terrorism Technical Support Office
    The Combating Terrorism Technical Support Office (CTTSO) operates 
as an interagency program office under the ASD(SOLIC&IC) to field rapid 
combating terrorism solutions. Working closely with over 100 Government 
Agencies, State, and local government, law enforcement organizations, 
and national first responders, CTTSO leverages technical expertise, 
operational objectives, and interagency sponsor funding. This 
collective approach to resource and information sharing positions the 
CTTSO to gather front line requirements that service multiple users--a 
distinct advantage in the combating terrorism community.

                           II. ON THE GROUND

    These force development and policy activities are brought to bear 
in executing the President's and the Secretary's priorities, including 
prevailing in today's conflict in Afghanistan and defeating al Qaeda 
and affiliated groups around the world.

Support to the Afghanistan-Pakistan Strategy
    My office provided extensive support on the counterterrorism, 
special operations, and overall operational aspects of three major 
administration-wide reviews of strategy toward Afghanistan and 
Pakistan. Upon taking office, President Obama committed tens of 
thousands of additional U.S. forces to Afghanistan, and an additional 
30,000 surge forces in December 2009, to support our core goal in the 
region: to disrupt, dismantle, and defeat al Qaeda, to deny it safe 
haven in the region, and to prevent it from again threatening the 
United States and our allies. In Afghanistan, the Taliban are still 
largely aligned with al Qaeda, and al Qaeda leadership still enjoys a 
sanctuary in adjacent Pakistan. Working with our interagency partners 
through a range of counterterrorism efforts, we believe we have 
constrained al Qaeda and their affiliated groups in the border region 
of Afghanistan and Pakistan and have significantly degraded their 
ability to plan and conduct operations throughout the theater.
    Our office has also been extensively involved in the Secretary's 
effort to bring counterinsurgency capabilities to bear on the current 
Afghanistan-Pakistan strategy. For example, the Department has made 
considerable efforts to improve Security Force Assistance capabilities, 
including adding 500 personnel to train-the-trainer units, in order to 
enable the effective transition of security responsibilities to host 
nation forces. We continue to work aggressively to implement the 
Secretary's goal of fielding capabilities that support the 
counterinsurgency and irregular conflicts we are currently in, such as 
through Unmanned Aerial Vehicles programs, counter-Improvised Explosive 
Device capabilities, and increasing funding for rotary wing lift. We've 
also assisted the Joint Staff with the Afghanistan/Pakistan Hands 
program, an initiative that supports the Afghanistan-Pakistan strategy 
by identifying, selecting, and training a cadre of counterinsurgency 
and regional experts to deploy to the region on a rotating basis, build 
strategic relationships with local partners, and enhance the capacity 
of local security institutions.

Global SOF Engagement
    The al Qaeda core sanctuary in Pakistan is enabled and assisted by 
a broad network of affiliates, including facilitators, financiers, and 
training sites. The rise of these affiliate organizations in the 
Arabian Peninsula, East Africa, and elsewhere are of great concern to 
us.
    Al Qaeda in the Arabian Peninsula (AQAP) poses the most immediate 
terrorist threat to U.S. interests and the Homeland outside the 
Afghanistan-Pakistan region. Accordingly, we work closely with Yemeni 
security forces to disrupt, dismantle, and defeat AQAP in Yemen, deny 
them sanctuary, and degrade their ability to plan, organize and train 
for attacks against the U.S. Homeland and our interests. To counter 
this threat, the United States adopted a balanced approach that 
addresses both the short- to mid-term requirement to build Yemeni 
counterterrorist (CT) capacity and capability and the long-term 
requirement to address Yemen's fundamental needs across the security, 
economic development, political, and social spectrums.
    The current unrest and political upheaval in Yemen have obviously 
forced us to look closely at our approach. We believe that the current 
protracted political issues are having an adverse impact on the 
security situation in Yemen. We're monitoring the situation closely. As 
with every country, we regularly evaluate our assistance and CT 
cooperation to ensure it is being used appropriately and is as 
effective as possible. Our shared interest with the Yemeni Government 
in fighting terrorism, particularly defeating AQAP, goes beyond 
specific individuals. As such, our focus over the course of the last 
several years of daily contact with the Yemeni CT apparatus has been to 
professionalize their CT institutions, not to bolster individual 
personalities.
    In Somalia, we support our partners to counter the terrorist threat 
posed by al-Shabaab, an Islamic terrorist group with nationalist roots 
but global aspirations. The group shows increasing signs of affiliation 
with al Qaeda and has made significant public overtures to Osama bin 
Laden and al Qaeda senior leadership. Al-Shabaab has also reached out 
to Somali diaspora groups around the world, asking many Somalis with 
western passports, like American Omar Hammami to join the jihad in 
Somalia. Al-Shabaab's terrorist attacks against Uganda last July showed 
their desire to export terror across the region and threaten any 
country that dares to attack them.
    Countering al-Shabaab is not an easy task. Our interagency partners 
have proven particularly effective in tracking Somali individuals of 
concern and preventing them from staging attacks. Our policy recognizes 
that a U.S. military presence would be counter-productive so we work 
with and through the Transitional Federal Government (TFG) and the 
African Union Mission in Somalia (AMISOM) to counter al-Shabaab and 
give the TFG the time and space it needs to develop viable institutions 
and security forces. The Department of State provides substantial 
financial support to AMISOM and this year, DOD began providing U.S. 
military trainers for Ugandan and Burundian predeployment training. In 
addition, SOF forces regularly conduct military-to-military exercises 
and training with Kenya, Uganda, and other regional partners. We have 
also provided substantial Section 1206 CT assistance to East African 
states. We continue to monitor al-Shabaab closely and employ our 
various tools to counter this threat.
    The Philippines is an important and capable military partner of the 
United States and has worked aggressively with us to counter the threat 
from al Qaeda in the region. Over the last 9 years, our military's 
efforts have successfully contained the threat posed by terrorist 
groups in the Philippines and prevented al Qaeda from establishing a 
foothold in South East Asia. Initiated in 2001, Operation Enduring 
Freedom-Philippines (OEF-P) is spearheaded by the Joint Special 
Operations Task Force-Philippines which works side by side with the 
Armed Forces of the Philippines to reduce the effectiveness of Jemaah 
Islamiyah (JI) and the Abu Sayyaf Group (ASG) and deny these 
organizations the use of Philippine territory as a safe haven. OEF-P 
operations have been successful at hindering ASG/JI abilities to 
conduct terrorist operations and eliminating numerous key terrorist 
leaders. These activities also benefit the Philippines by facilitating 
a safe environment for numerous civic action projects, such as Dental 
Civil Action Programs and Medical Civil Action Programs, to provide 
Philippine people in remote areas much needed health care assistance.

                              III. CLOSING

    Through their ability to execute high-end lethal strikes, as well 
as their competence in preventing festering problems from turning into 
far-reaching and expensive crises, SOF have proven their immeasurable 
value for securing our national interests. The wars we have been 
engaged in over the last decade have amply demonstrated how much more 
critical those skills and competencies will be in the future. We 
appreciate the committee's continued support for our work to support 
these extraordinary men and women who undertake some of the Nation's 
most demanding missions.

    Senator Hagan. Thank you, Mr. Reid. You certainly have a 
lot to oversee for the special operations-combatting terrorism.
    Dr. Schear, if you can give us your opening statement, 
please.

STATEMENT OF JAMES A. SCHEAR, Ph.D., DEPUTY ASSISTANT SECRETARY 
  OF DEFENSE FOR PARTNERSHIP STRATEGY AND STABILITY OPERATIONS

    Dr. Schear. Thank you so much. Madam Chair, Senator 
Portman, thank you very much for the opportunity to join my 
colleagues here today to testify about SOLIC's roles and 
responsibilities in countering transnational threats to peace 
and stability. I'd also like to underscore my appreciation for 
the unwavering support this committee provides to our dedicated 
service personnel in their performance of their diverse and 
often dangerous missions.
    Madam Chair, with your permission I'll submit my full 
statement for the record.
    Senator Hagan. Thank you.
    Dr. Schear. Thank you.
    As the chief steward of SOLIC's Office of Partnership 
Strategy and Stability Operations, ``PSO'' for short, I oversee 
a wide-ranging portfolio that spans both preventive, 
responsive, and partner-focused activities aimed at bolstering 
security and advancing U.S. interests in regions threatened by 
extremist violence and natural disasters. My written statement 
covers much of this ground in detail and I'd be happy to 
explicate any aspect of it that you wish, including U.N. 
peacekeeping, but in my brief prepared remarks I thought it 
might be most useful for me to highlight PSO's coalition 
support activities, our work on foreign disaster relief, our 
Afghan-focused ministry of defense advisers program, and last 
but not least, our proposal for a new global security 
contingency fund, which is being advocated by Secretaries 
Clinton and Gates.
    In the area of coalition support, my team oversees and 
implements specialized authorities and appropriations that 
allow willing and able international partners to deploy and 
operate with us, strengthening both our forces and our 
international legitimacy. In Afghanistan, for example, over 26 
nations receive lift and sustainment support as they serve 
alongside the U.S. military. The importance of this assistance 
cannot be overstated. The prospect of operating with 26 fewer 
partners would dramatically change the complexion of our 
Afghan-focused efforts.
    With this support, our Services also benefit from deeper 
ties with 26 foreign militaries that are now more capable. Most 
recently, we have also provided some logistics and support 
using our global lift and sustain authority to eligible 
partners operating with us under the rubric of Operation 
Unified Protector, which is the North Atlantic Treaty 
Organization (NATO) Libya-focused operation.
    Our ability to forge effective coalitions is essential to 
spreading the burdens of global security, but it does involve 
some heavy lifting. For example, at one point we discovered 
internally that we really had no well-developed system for 
accepting a potential coalition partner's offer, based upon a 
clear understanding of the likely costs and benefits of that 
partner's participation. So our office created a review process 
to ensure proper consideration of such offers so that we could 
get the maximum return on our investment while also avoiding 
excessive commitments to partners whose capabilities did not 
match our combatant commander's needs.
    We also have primary responsibility for oversight of our 
military's humanitarian assistance and disaster relief 
missions. DOD is not the lead U.S. Government agency for 
foreign disaster relief. We operate in support of the U.S. 
Agency for International Development (USAID), typically in 
high-end disasters that overwhelm the response capability of 
civilian relief providers.
    What this means is that when, say, an earthquake hits Haiti 
or a tsunami and earthquake hit Japan my team makes sure that 
our military capabilities are used appropriately and with 
proper authorization. Because we work on disasters in every 
region, we strive to ensure that the right people from our 
interagency community are involved, that our combatant 
commanders are appropriately linked with USAID, that they know 
what sort of support is permissible, and that they have 
sufficient funding and authorities to carry out their mission.
    To give you a better idea of our work, I'll proffer up a 
few examples. When a typhoon hit the Philippines last October, 
U.S. Pacific Command's (PACOM) helicopters were vital in 
transporting civilian assessment teams to survey hard-to-reach 
areas. More recently, in Japan we supported Secretary Gates and 
Admiral Willard in expediting approval for the use of our 
overseas humanitarian disaster and civic assistance account to 
fund our relief operations, and we fast-tracked arrangements to 
deploy U.S.-based urban search and rescue teams in support of 
our Japanese allies.
    Finally in the wake of the popular uprising in Libya we 
have assisted a range of DOS-led activities supporting the 
repatriation of foreign migrant workers fleeing the Qadhafi 
regime's brutal crackdown.
    Madam Chair, I would be remiss if I failed to underscore 
our partner-focused contributions to the Afghan campaign. Both 
my colleagues and I invest much time and effort to ensure that 
U.S.-trained and equipped indigenous forces can operate 
effectively and responsibly as we transition out, graceful 
transition out of Afghanistan.
    A key element of that effort is to strengthen Afghan 
security ministries in a way that sustains our tactical-level 
investment. For this reason, SOLIC launched the ministry of 
advisory defense program--ministry of defense advisor (MODA) 
program. Its mission is to generate high-quality, well-trained 
civilian experts who can establish lasting links to their 
partner ministries. MODA has been so successful that within 2 
months after our first deployment of 17 advisers to Kabul, 
General Petraeus quickly challenged us to recruit, train, and 
deploy 100 more before the end of this year.
    MODA's value added can be measured in very tangible, 
straightforward ways. As Napoleon once observed, an army 
marches on its stomach. When the Afghans last year were 
wrestling with the issue of how best to reorganize and upgrade 
their slaughterhouse, we dispatched an adviser from our Defense 
Commissary Agency to assist our Afghan partners in that effort. 
With his extensive background and skills, our field commanders 
report that he's had an enormously positive impact.
    Madam Chair, I've discussed briefly the work that we do in 
support of ongoing operations. Our other main focus is on 
providing capabilities to prevent the onset of recurrence of 
conflict. We do this through our focus on stability operations 
across DOD, as well as on targeted programs and policies 
focused on partner capacity-building. Secretary Gates has 
rightfully made partner capacity-building a high priority for 
our Department. Doing so adroitly requires, however, that we 
successfully navigate what the Secretary has dubbed a patchwork 
of specialized authorities and funding sources, which has 
evolved for the most part in a very different security 
environment than the one we face today.
    My team is a kind of navigation aid for our combatant 
commanders and our regional offices in this effort. We've 
developed and maintain an online information repository about 
security cooperation tools that is used DOD-wide.
    We're also working to better meet the challenges imposed 
upon us by today's exceptionally volatile security environment, 
which leads me to my final point, regarding our proposal for a 
global security contingency fund. One of the key challenges we 
face is how to react to threats and opportunities that emerge 
within a given budget cycle and to recalibrate assistance as or 
when situations change on the ground. We are challenged not 
only by a multi-year planning, programming, and funding cycle, 
but also by interagency structures that are not as agile as 
they should be in the face of transnational threats that span 
the portfolios of multiple agencies.
    To address this challenge, Secretary Clinton and Secretary 
Gates have launched a proposal for a pilot program called the 
global security contingency fund. If enacted by Congress, the 
two Departments would have a 3-year timeframe to demonstrate a 
new business model and provide a much-needed tool for 
responding to emergent challenges and opportunities.
    Under this fund, the DOS and DOD would literally work side 
by side to provide security assistance to foreign partners, 
including the military, interior, border, maritime, and 
counterterrorism security forces of those countries and their 
governing institutions. This new fund could also provide 
assistance for justice sector, rule of law, and stabilization 
programs when the capacity of civilian agencies is challenged 
by conflict or instability.
    A key feature of the fund is that it would be operated by a 
small staff of DOS, DOD, and USAID employees working in the 
same office. That staff would be supplemented by experts from 
other U.S. Government agencies as appropriate. The fund would 
be used to meet requirements that both secretaries identify as 
critical and it would allow both Departments to provide 
targeted funding for that purpose.
    Perhaps most critical, the fund would give the U.S. 
Government a tool to be more responsive to challenging real-
world situations. The United States is constantly striving to 
become more agile and smarter in how we create stronger 
partners in our common interests of building a more robust, 
sustainable security environment. We hope you will support this 
fund and look forward to continuing to work with you on its 
development and to addressing the security challenges we face 
today.
    Again, my thanks for this opportunity to testify.
    [The prepared statement of Dr. Schear follows:]

                Prepared Statement by Hon. James Schear

    Chairman Hagan, Senator Portman, and members of the subcommittee, 
thank you for the invitation to testify today about the global programs 
and capabilities Partnership Strategy and Stability Operations (PSO) 
brings to the Department of Defense (DOD) and the U.S. Government.
    I'll begin by giving you a brief overview of our policy 
responsibilities, including both those that focus on supporting U.S. 
military operations as well as those designed to mitigate or prevent 
conflict that might otherwise draw in U.S. forces. I'll then turn to 
one of the key capabilities we would like to have, the joint proposal 
by the Secretaries of Defense and State for a Global Security 
Contingency Fund, and another opportunity to enhance our capabilities.

                        I. SUPPORT TO OPERATIONS

    Like my colleagues, a key priority for my office is supporting 
ongoing military operations. Our work supports both kinetic and non-
kinetic operations, including coalition support for U.S. operations, 
humanitarian assistance, disaster relief and noncombatant evacuation 
operations, international peacekeeping operations, explosive ordnance 
disposal (EOD), and ministerial development in Afghanistan.
    In the area of coalition support to U.S. operations, my office 
oversees and implements specialized authorities and appropriations to 
allow willing and capable international partners to deploy and operate 
with us, strengthening both our forces and our international 
legitimacy. For example, over 26 nations received lift and sustainment 
support as they served alongside the U.S. military in Afghanistan. 
Needless to say, the prospect of operating with 26 fewer partners would 
change the complexion of the Afghanistan effort. It also has meant that 
the U.S. military has deeper ties with 26 militaries that are now much 
more capable. Most recently, we are also providing logistical support 
using Global Lift and Sustain authority to eligible partners operating 
with us under the rubric of Operation Unified Protector, NATO's Libya-
focused operation.
    The ability to build coalitions is essential to spreading the 
burden of global security. Our expertise not only ensures that funds 
are optimized to assist the needs of our partners, it also allows us to 
rationalize the provision of that assistance. For example, at one 
point, we had no agreed-upon system for saying ``yes'' or ``no'' to 
partners offering to join the coalition. So, we sometimes had officials 
accepting a partner's offer without understanding the costs and 
benefits of a given partner's participation. Our office created a 
system to ensure proper review of such offers so that we could get the 
maximum return on our investment in coalition partners while also 
avoiding excessive commitments to partners whose capabilities did not 
match the combatant commander's needs.
    We have primary responsibility for the oversight of our military's 
humanitarian assistance and disaster relief missions. U.S. Agency for 
International Development (USAID) leads the government's response, so 
we are always in a supporting role. What that means in real terms is 
that when an earthquake hits Haiti or a tsunami hits Japan, my office 
makes sure that military assets are used appropriately and with proper 
authorization. We make sure that the U.S. military is prepared to be a 
``responder of last resort'' when foreign disasters overwhelm the 
capacity of the host nation and international first-responders to 
manage. Because we work on disasters in every region, we are able to 
ensure that the right people from DOD are involved in the interagency 
process, that our combatant commanders are appropriately linked with 
USAID, they know what sort of support is permissible, and they have 
sufficient funding and authority to carry out their mission. While 
every disaster is different, our knowledge of what military assets have 
been helpful in various scenarios can be critical to quickly providing 
effective assistance.
    To give you a better idea of our work in this critical area, let me 
give you some examples. When a typhoon hit the Philippines last 
October, we were able to transport USAID's assessment team in PACOM 
helicopters to survey hard-to-reach areas. This was critical to 
determining what the total US government response should be and what 
unique military assets should be provided. In Japan, we quickly worked 
with Admiral Willard's team to get Secretary Gates' approval to use 
Overseas Humanitarian, Disaster, and Civic Aid (OHDACA) funds for 
assistance operations, including getting both Fairfax and Los Angeles 
civilian urban search and rescue teams' heavy equipment on the ground 
within 72 hours. In Libya, in order to address stabilization concerns 
associated with democratizing governments in Egypt and Tunisia, we have 
assisted with the airlift of third country nationals.
    In addition to supporting ongoing operations, we also do the 
steady-state work with partners so that their militaries are better 
prepared to support their governments' disaster response needs. Not 
only does this create real and lasting capabilities in partners, it 
also is an area where we can build relationships in some countries 
where other types of military engagement are not welcome. My team also 
is integrated into crisis action planning meetings to ensure lessons 
from previous disasters are learned and applied across the government.
    The same team that does this work also plans for and ensures the 
proper execution of military evacuations of Americans overseas. At the 
request of the Department of State, DOD assists in the evacuation of 
American citizens, allies, and third-country partners from unstable and 
unsafe environments. Working with Crisis Operations at State, the Joint 
Staff, and regional desks, PSO maintains resident expertise DOD 
leadership requires, and PSO provides the crucial link between the two 
Departments.
    My office also provides policy advice on DOD support to U.N. and 
multinational peacekeeping operations, oversees the execution of 
peacekeeping support, and works with interagency partners to coordinate 
overall U.S. Government support for peacekeeping. For example, we work 
closely with the State Department as the joint manager of their Global 
Peace Operations Initiative to train and equip more foreign 
peacekeepers. Our Geographic Combatant Commanders are the implementers 
for 50 percent of the program. We work with the State Department on 
providing U.S. officers to key positions at U.N. headquarters and in 
U.N. missions. We also provide critical expertise on realistic mandate 
goals so that U.N. missions can succeed.
    Another critical area of support to ongoing operations is our 
oversight and coordination of EOD policy and capacity across DOD. In 
addition, we provide policy and subject-matter expertise in support of 
DOD efforts to support civilian authorities preventing and disrupting 
attacks using explosives in the homeland. Recently, we worked with the 
Federal Bureau of Investigation (FBI) and Army (and General Counsel) to 
provide EOD expertise and to loan specialized equipment to FBI agents 
investigating a suspect in connection with a failed bomb attempt at a 
Martin Luther King, Jr. parade in Spokane, WA. This support to local 
authorities allowed Federal agents to safely secure the suspect in an 
otherwise unpredictable and extremely dangerous situation.
    Last, I want to point out a tool that we developed and fielded to 
Afghanistan. Like both of my colleagues here today, we are constantly 
trying to adapt to the urgent needs of our commanders in the field. In 
our case, we help address the need to build functioning Afghan security 
institutions so that the security forces we train can be sustained and 
remain effective. It became clear in Iraq and Afghanistan that we 
needed better tools to train these nascent security institutions. For 
that reason, we created the Ministry of Defense Advisors (MoDA) 
program. It is a way of generating high-quality, effective civilian 
advisors who establish lasting links to partner ministries. Some of the 
key features of the program are the 7 weeks of pre-deployment training, 
the ability to stay in Afghanistan from 1 to 2 years, the ability to 
provide backfill personnel to home organizations when someone is 
deployed as an advisor, and the enduring ministry-to-ministry 
partnerships that are created because the program draws primarily from 
senior civil servants. Prior to MoDA, untrained military personnel or 
contractors did all of the U.S. Government's advisory work at the 
Afghan Ministries of Defense and Interior. MoDA is the first program to 
provide realistic and useful training for ministerial advisors. It has 
been so successful that after the first 17 advisors served in Kabul for 
a couple of months, Lieutenant General Caldwell, head of the NATO 
Training Mission-Afghanistan, asked to send some of his military 
advisors to the training and General Petreaus requested at least 100 
advisors before the end of the year.
    In all of our support to current operations there is a recurring 
theme of unique expertise and interagency collaboration. We support our 
warfighters with real tools, with expertise on how to use those tools, 
and by ensuring interagency agreement and alignment so that they and 
the U.S. Government can be most effective.

                       II. SUPPORT TO PREVENTION

    So far, I've discussed the work we do in support of ongoing 
operations. Our other main focus is on providing capabilities to 
prevent or recover from conflict. We do this both through our focus on 
stability operations capabilities across the Department and targeted 
programs and policies to build partner capacity.
    When it comes to Stability Operations, we are future oriented. It 
isn't just Operation Iraqi Freedom redux--it's broad ``stabilization'' 
in the sense of supporting civilian-led programs, targeting assistance 
that stimulates local economies, marginalizing violent extremists, 
preventing future conflict, and laying a foundation for longer term 
governance and capacity building. A critical enabler to this effort is 
the civilian-military working relationship across the interagency. 
While every office works on interagency collaboration, we focus on its 
necessity for successful stability operations from the strategic to the 
tactical level. We are focused on moving beyond coordination meetings, 
to coordinated interagency pre-deployment training and ensuring that 
our doctrine and concepts prepare our military personnel to be 
effective in interagency and multi-partner environments. For us, 
stability operations are both a part of preventing escalating conflict 
and a part of post-conflict recovery. In many cases, it also is 
critical to building a successful exit strategy for current conflicts. 
PSO's stability operations experts worked closely with and advised 
Department of State counterparts who built the U.S. Government 
Civilian-Military Campaign Plan for Afghanistan, which will usher in 
transition in its broadest sense, from military to civilian governance 
across all sectors.
    PSO also is incubating the DOD capability to sustain our train and 
equip investments through ministerial level capacity-building programs, 
specifically the relatively new Defense Institution Reform Initiative 
(DIRI) and the MoDA program I mentioned earlier. DIRI supports the 
development of partner defense ministries through regular engagements 
with partner defense ministries that are aimed at identifying their 
capability gaps and then working to fill them. DIRI provides teams of 
subject matter experts to work with a partner nation on a periodic, 
sustained basis. For example, we will meet with a partner to identify 
the needs and establish a work plan. In one country we might be helping 
them with their first realistic strategic defense plan and in another 
it may be an effort to help them create a personnel system that tracks 
the specialties and training of personnel so they can be used to best 
effect. In all of these cases, both the goal of the work plan and the 
process of achieving it create new capabilities in partners which often 
have a multiplying effect on their overall military capacity.
    By contrast, MoDA supplies dedicated and experienced DOD civilians 
who can forge long-term professional relationships with their 
international defense-ministry counterparts in similar specialties. 
Again, MoDA sends senior defense civilians who are trained to be 
advisors. For example, when the Afghans were struggling with how best 
to feed their troops and how to run and organize a slaughter house, we 
were able to send out an advisor from the Defense Commissary Agency. 
With his extensive background and skills together with the advisor 
training, he was effective immediately in country.
    We're a ``solution provider'' in other ways. Secretary Gates 
rightfully makes developing the capabilities of our partners a high 
priority for the Department. As he stated in our most recent 
Quadrennial Defense Review, ``U.S. security is inextricably tied to the 
effectiveness of our efforts to help partners and allies build their 
own security capacity.'' That said, DOD is attempting to execute the 
security cooperation mission with what the Secretary terms a 
``patchwork'' of specialized legislative authorities and funding 
sources that evolved in a very different security environment. For the 
security cooperation planner at a geographic Combatant Command who will 
serve for 1 to 2 years and then go back to more traditional military 
work, it is very challenging to understand the tools and funding 
available to work with our partners. Even once they have a good sense 
of the tools and funding, actually accessing those tools and funding 
for a given partner can take years.
    My office assists the combatant commanders and our regional office 
colleagues to navigate this patchwork. We also work on improving our 
planning efforts and strategies so that they include realistic 
requirements or clearly identified gaps in our ability to build 
dependable and effective partner militaries. To give you an example, 
under different leadership, this office identified a critical gap in 
our counter terrorism strategies and pursued what is now called the 
``1206'' legislation. As you know, 1206 has been a vital tool in our 
counter terrorism and building partnership efforts. After working with 
Congress to establish the tool and its operations, it is now overseen 
by Deputy Assistant Secretary of Defense Reid, in coordination with the 
Bureau of Political-Military Affairs at the Department of State, as 
part of our broader counter terrorism work. Today, we are working with 
the Joint Staff to create network-based information tools to track 
security cooperation activities in countries from the bottom-up. We 
have already implemented an online information repository about 
security cooperation tools that is used DOD-wide. We also are working 
to create an office to better evaluate the impact of our security 
cooperation tools. We are trying to fill new gaps that have emerged by 
creating new tools or improving existing tools.

                           III. OPPORTUNITIES

    This leads me to my final points, the opportunities we have today 
to enhance our capabilities. Let me mention one relatively simple fix 
and then discuss a more overarching tool we'd like to create.
    The simple fix I'd like to bring to your attention regards 
Humanitarian Mine Action. The goal of the DOD Humanitarian Mine Action 
program is to relieve human suffering and the adverse effects of 
landmines and explosive remnants of war on noncombatants while 
advancing the combatant commanders' security cooperation strategies and 
U.S. national security objectives. Through the Humanitarian Mine Action 
Training Program, DOD executes ``train-the-trainer'' programs of 
instruction designed to develop international partners' capabilities 
for a wide range of HMA activities including demining training. Over 
the past decade, we have seen a number of casualties and deaths linked 
to the improper storage of munitions. This is particularly distressing 
when it occurs in densely populated areas as we saw recently in 
Tanzania and Albania. Rather than use our programs solely to help clean 
up the ordnance once it has exploded and harmed innocent civilians, we 
would like to modestly include training on how to safely stockpile 
conventional munitions so we can work to prevent those disasters. To do 
this, no new funding is required as we can accomplish this mission 
within existing OHDACA funding.
    One of the key challenges we face is reacting to threats and 
opportunities that emerge within the budget cycle and recalibrating 
assistance as situations change on the ground. We are challenged not 
only by the lengthy budget cycle but also by an interagency structure 
that does not incentivize whole-of-government approaches, even though 
we know they are usually the most effective. The fact is that many of 
the security challenges we see today can most effectively be addressed 
if we improve partner governance, justice sector capacity, border 
security, and basic functioning. This requires civilians at DOD and the 
interagency working with the military as seamlessly as possible.
    We all recognize how important this is in Afghanistan to ultimately 
reaching our objectives and withdrawing from that war-torn nation 
leaving behind a government that can secure its borders, enforce the 
law, and serve the population. The concept transfers to other 
circumstances where a security situation may be ambiguous and an ounce 
of prevention is worth a pound of cure.
    To address these needs and gaps, Secretary Clinton and Secretary 
Gates developed a pilot program called the Global Security Contingency 
Fund. If enacted by Congress, the two Departments would have 3 years to 
demonstrate a new business model and provide a much-needed tool for 
responding to emergent challenges and opportunities.
    Under the Fund, the Departments of State and Defense would 
literally work side-by-side to provide security assistance to partner 
governments, including military, interior, border, maritime, and 
counterterrorism security forces, and their governing institutions. 
This new Fund also could provide assistance for the justice sector, 
rule of law, and stabilization when the capacity of civilian agencies 
is challenged by conflict or instability. A key feature of the Fund is 
that it would be operated by a small staff of State Department, USAID, 
and DOD employees working in the same office and would be accountable 
to both Departments. That staff would be supplemented by other 
interagency experts depending on the requirements that need to be met. 
The Fund would be used to meet requirements both Secretaries identify 
as critical and allow both Departments to provide funding for the work 
agreed upon. Perhaps most critical, the Fund would give the U.S. 
Government a tool to be more effective in its assistance by allowing 
for within budget cycle commitments that are responsive to fluid real-
world situations.

                             IV. CONCLUSION

    The United States is constantly striving to become more agile and 
smarter about how we create stronger partners and lasting security. 
This means having tools that are better adapted to today's security 
environment and having a strong partner in Congress to ensure that the 
tools meet America's needs. We hope that you will support the Fund and 
look forward to continuing to work with you to address today's new 
security challenges and opportunities. Thank you, again for this 
opportunity to testify about the capabilities we provide, including 
those that focus on supporting U.S. operations and those designed to 
prevent the obligation of U.S. military forces and some of the key 
capabilities we would like to have. I look forward to your questions.

    Senator Hagan. Thank you, Dr. Schear. I do want to say to 
all of you that your written statements will be included in the 
record in full.
    Now, Mr. Wechsler, for your opening statement.

STATEMENT OF WILLIAM F. WECHSLER, DEPUTY ASSISTANT SECRETARY OF 
        DEFENSE FOR COUNTERNARCOTICS AND GLOBAL THREATS

    Mr. Wechsler. Thank you very much. I'll try to be brief.
    Chairman Hagan, Senator Portman, like my colleagues, I 
really do appreciate the opportunity to be here. It's quite an 
important subject on which you called this hearing.
    I want you to know that all of our efforts working together 
really do have a significant impact on our efforts in 
Afghanistan and where we confront other transnational threats. 
My job, as you noted, is Deputy Assistant Secretary of Defense 
for Counternarcotics and Global Threats. We support the 
national counterdrug control strategy and the national security 
strategy by providing assistance to local, State, Federal, and 
foreign agencies to confront the drug trade and narcoterrorism.
    DOD supports law enforcement through detection and 
monitoring of drug trafficking, sharing information, and 
helping countries build their own capacity. Our 
counternarcotics efforts are focused on maintaining force 
readiness through drug screening for the armed services and 
outreach to DOD families and their communities.
    I give Congress credit for having had the vision to 
recognize the important role DOD can and should play to counter 
the threat of drug trafficking. This was an initiative led by 
Congress in the late 1980s and one that in many respects was 
visionary, considering the types of threats that we have 
confronted since then.
    The legislative authorities that you mentioned in your 
opening statement are absolutely critical to continuing this 
mission set for DOD. They have been adjusted slightly over the 
years as the threat itself has developed, and I look forward to 
working with you and your staff to continuing that progress in 
the years ahead.
    In Afghanistan, our efforts support the warfighter by 
building Afghan capacity through information-sharing. In many 
ways, counternarcotics authorities and funding act as a bridge 
between law enforcement efforts and more traditional military 
operations. While DOD has traditionally provided military 
support to law enforcement activities going back years, in 
Afghanistan the expertise and authorities of our law 
enforcement partners are really supporting our military 
mission. This is quite critical because the reality is that 
we're not going to win this war on the basis of legal 
authorities and expertise that exists within DOD alone. We're 
only going to win this by bringing together the whole of 
government, all of our expertise, and doing what we can do in 
DOD to support our interagency partners.
    Narcotics account for a large proportion of Afghanistan's 
economy and contribute to insecurity, corruption, poor 
governance, and stagnation of economic development. 
Approximately 84 percent of all Afghanistan's poppy production 
is concentrated in the south and southwest provinces, areas 
under primary Taliban control. Our revised counternarcotics 
strategy for Afghanistan is incorporated into the overall 
counterinsurgency strategy and places greater emphasis on 
interdiction efforts, those joint military-law enforcement 
operations, and on alternative livelihoods.
    Closer to home, as was mentioned by Senator Portman, Mexico 
continues to confront escalating drug-fueled violence, 
particularly along its northern border with the United States. 
Our counternarcotics support to Mexico is implemented primarily 
through U.S. Northern Command and includes subject matter 
exchanges, training, equipment, and information-sharing. Most 
of DOD cooperation with Mexico falls under our counternarcotics 
program.
    When I entered office we were spending very close to zero 
in this area and now we are allocating over $50 million every 
year in this area. I would consider this to be one of those 
emerging issues that you discussed.
    Central America as well continues to face an increasing 
pressure from drug trafficking and related violent crime, 
largely as a result of the progress that has been made by the 
governments of Mexico and Colombia in confronting these 
organizations. Colombia is a special case, as was mentioned by 
Senator Portman, in my mind indeed perhaps the greatest success 
of U.S. national security policy in the last 10 years, a 
bipartisan success, a very cost-effective success, a 
counterinsurgency success, and one from which I believe a great 
many important lessons can be drawn for our wider efforts 
around the world.
    I recently traveled to West Africa, another emerging area. 
to get a first-hand look at the region where weak governance is 
increasingly being exploited by drug traffickers as they target 
the lucrative and growing European market for cocaine. This 
trend has a number of important national security implications, 
such as undermining governance and stability in the region and 
providing a funding stream to western hemisphere criminal 
organizations that traffic drugs to the United States. This 
will be a subject for the G-8 under French leadership, after 
which the Lisbon Conference. We're doing an awful lot more in 
this area compared to what we had been doing in years past.
    The globalization of the legitimate economy has benefited 
the illicit economy in many of the same ways. Today nearly 
every country in the world now suffers to some degree from the 
illicit, illegal drug trade. Make no mistake, the drug trade is 
by far and away the largest illegal activity that happens 
around the world. Indeed, the networks that are built on the 
foundation of the drug trade around the world are the very same 
networks that all sorts of other transnational threats sit 
upon, use, and employ. We have to be able to go against this 
criminal nexus in order to go against the other aspects of the 
transnational crime.
    Indeed, we see this, the TCOs themselves, diversifying into 
other criminal activities. One of the issues that we need to 
work on together with you is the fact that our bureaucracies, 
our legal authorities, are all designed--many of them are 
designed on single-issue threats when in fact the threat that 
we're facing around the world is a nexus of all these threats 
that come together. That's what we see out there in the world 
and that's what we have to build our bureaucracies and our 
legal authorities around.
    Our counternarcotics activities in DOD employ two principal 
force multipliers to make the best use of finite resources 
available, and we are aware of the finite resources that are 
available. We're proud to say that I believe that if you go 
back over the decades in the DOD counternarcotics program what 
you'll see is it's one of the most cost-effective programs that 
we have.
    Our two principal force multipliers are: first and 
foremost, building partner capacity among our international 
partners, so we enhance their ability to work with their U.S. 
counterparts to maximize the value of taxpayer dollars as a 
force multiplier.
    Second, we stress intelligent and information-driven 
operations. Targeting based on cued intelligence is much more 
cost-effective than trying to patrol vast areas of air or 
maritime or other assets. Part of this queued intelligence is 
something we're spending an awful lot more time on and 
hopefully will be able to talk about more today, our counter-
threat finance efforts, because it's the money, as you 
mentioned, Madam Chairman, that is really driving a lot of 
these transnational threats.
    It's important to recognize, just to conclude, that when we 
discuss the transnational nature of this threat that does also 
include criminal activities that take place inside the United 
States as well. For instance, the influence of Mexican TCOs 
extends well beyond the Southwest border to cities across the 
country, including Atlanta, Chicago, and Detroit. All of your 
constituencies are confronted by this threat.
    Unfortunately, coordination of domestic and international 
activities can be especially challenging inside the executive 
branch. Once again, here DOD can play an important supporting 
role to facilitate coordination and information-sharing 
throughout mechanisms such as a Joint Interagency Task Force 
South in Key West, which I believe is really one of the best 
models of interagency coordination in the last couple of 
decades.
    Thank you very much for the opportunity to testify. I 
welcome your questions.
    [The prepared statement of Mr. Wechsler follows:]

             Prepared Statement by Hon. William F. Wechsler

    Chairman Hagan, Senator Portman, and other distinguished members of 
the subcommittee, I appreciate this opportunity to discuss the 
Department's counternarcotics (CN) efforts alongside my colleagues 
Deputy Assistant Secretary of Defense (DASD) Reid and DASD Schear. I am 
convinced that the complementary efforts across Special Operations/Low-
Intensity Conflict and Interdependent Capabilities (SO/LIC&IC) are 
having a significant impact on our efforts in Afghanistan and Pakistan 
and on a wide range of other transnational threats around the world.
    Before discussing some of the latest trends we are seeing in the 
threat of transnational organized crime, I would like to provide you 
with a brief overview of our organization, strategy, budget, and 
programs.

          COUNTERNARCOTICS AND GLOBAL THREATS PROGRAM OVERVIEW

    The Department of Defense (DOD) supports the administration's 
National Drug Control Strategy by providing assistance to local, State, 
Federal, and foreign agencies to confront the drug trade and narco-
terrorism. DOD support for law enforcement includes detecting and 
monitoring drug trafficking, sharing information, and helping countries 
build their capacity to confront drug trafficking. DOD counternarcotics 
efforts are also focused on maintaining force readiness through demand 
reduction programs for the armed services.
    Through its combatant commands, the military departments, and the 
defense agencies, DOD provides unique military platforms, personnel, 
systems, and capabilities that support Federal law enforcement agencies 
and foreign security forces involved in counternarcotics missions. The 
DOD counternarcotics mission targets those terrorist groups worldwide 
that use narcotics trafficking to support terrorist activities by 
deploying counternarcotics assets, in cooperation with foreign 
governments, in regions where terrorists benefit from illicit drug 
revenue or use drug smuggling systems.
    The Office of DASD for Counternarcotics and Global Threats (CN&GT) 
is the single focal point for DOD's CN activities, reporting to the 
Assistant Secretary of Defense for Special Operations/Low-Intensity 
Conflict and Interdependent Capabilities and the Under Secretary of 
Defense for Policy. The office of the DASD(CN&GT) was established to 
ensure that DOD develops and implements a focused counternarcotics 
program with clear priorities and measured results. Consistent with 
applicable laws, authorities, regulations, and funding, the office 
ensures that sufficient resources are allocated to the counternarcotics 
mission to achieve high-impact results.
    All DOD counternarcotics programs, with the exception of Active 
Duty military pay and Service operations tempo, are funded through the 
DOD Counternarcotics Central Transfer Account (CTA). The CTA was 
established by the fiscal year 1989 Defense Appropriations Act and 
designed to allow for maximum flexibility to respond to ever-changing 
drug trafficking patterns. In fiscal year 2012, the Department has 
requested $1.16 billion for CN efforts through the CTA. Of this total, 
approximately 13 percent would go to support demand reduction, 20 
percent to support domestic law enforcement assistance, 18 percent to 
support intelligence and technology programs, and 48 percent to support 
international counternarcotics activities.
    We take pride in our efforts to reduce drug abuse in the Armed 
Forces and Defense workforce and in providing outreach to DOD families 
and their communities. The DOD role in illegal drug demand reduction 
concentrates principally on eliminating drug abuse in the U.S. Armed 
Forces and Defense civilian workforce as well as reaching out to DOD 
families and their communities to reduce drug abuse. To address rising 
prescription drug abuse rates, DOD plans to implement recommendations 
from the Chairman of the Joint Chiefs of Staff for its Drug Demand 
Reduction Program to expand testing to include commonly abused 
prescription drugs, establish random unannounced drug testing in-
theater, establish mobile collection teams, complete the prescription 
drug verification portal, and make drug prosecution statistics part of 
readiness reporting. The National Guard, acting under the authority of 
the State and territorial governors, also plays an especially important 
role through community outreach and helping at-risk youth resist drug-
related temptation. These programs are consistent with the President's 
National Drug Control Strategy, which points out:

          The demand for drugs can be further decreased by 
        comprehensive, evidence-based prevention programs focused on 
        the adolescent years, which science confirms is the peak period 
        for substance use initiation and escalation into addiction. We 
        have a shared responsibility to educate our young people about 
        the risks of drug use, and we must do so not only at home, but 
        also in schools, sports leagues, faith communities, places of 
        work, and other settings and activities that attract youth.

    We are in the final stages of developing a DOD Counternarcotics and 
Global Threats Strategy that will more clearly align our efforts with 
President's National Security Strategy, the National Drug Control 
Strategy, as well as with the Quadrennial Defense Review's four 
priority objectives: (1) Prevail in Today's Wars, (2) Prevent and Deter 
Conflict, (3) Prepare to Defeat Adversaries and succeed in a wide range 
of contingencies, and (4) Preserve and Enhance the All-Volunteer Force. 
This Strategy will be based on national-level guidance and will 
establish an integrated set of strategic goals and objectives to 
address the national security implications of drug trafficking and 
other forms of organized crime and to help prioritize programs and 
activities. The Strategy will outline where Defense capabilities can be 
brought to bear in support of a whole-of-government approach to address 
this national security concern. I would welcome the opportunity to 
brief you or your staff on the Strategy as soon as it is made 
available.

         EFFORTS IN U.S. CENTRAL COMMAND AREA OF RESPONSIBILITY

    In Afghanistan, DOD's counternarcotics efforts are focused on 
building Afghan capacity, through information sharing, training and 
equipping, and infrastructure. While DOD has provided military support, 
as needed, to counternarcotics law enforcement activities, in 
Afghanistan the opposite is also true. In Afghanistan, the expertise 
and authorities of our law enforcement partners also contributes to 
advancing essential national security objectives. While relatively 
little of the heroin produced in Afghanistan is ultimately bound for 
the United States today, U.S. law enforcement agencies such as the Drug 
Enforcement Agency have been at the forefront of our counternarcotics 
efforts in support of broader U.S. national security interests.
    Narcotics account for a large proportion of Afghanistan's economy, 
and they contribute to insecurity, corruption, poor governance, and 
stagnation of economic development. It is essential to address the drug 
trade and its effects in order to conduct a successful counter-
insurgency campaign. Approximately 84 percent of all Afghanistan's 
poppy production is concentrated in the south and southwestern 
provinces. These areas are primarily controlled by the Taliban, which 
benefits financially from this trade.
    Building on what worked in Colombia, while recognizing regional 
differences, our revised counternarcotics strategy for Afghanistan 
emphasizes support for a ``whole-of-government'' approach that is 
incorporated into the overall stabilization strategy and places greater 
emphasis on interdiction and agriculture and rural development. In 
2010, Afghan National Security Forces conducted approximately 300 
operations supported by DOD, primarily in the south. These operations 
led to the destruction of approximately 55 tons of opium, 2 tons of 
morphine, 12 tons of heroin, 74 tons of hashish, 34 tons of chemicals 
used to produce heroin, and numerous weapons and munitions. In Pakistan 
and Central Asia, DOD counternarcotics activities focus on containing 
the flow of narcotics emanating from Afghanistan by supporting improved 
border security and interdiction capacity and improved information 
sharing.
    CN&GT's efforts in the region complement other SO/LIC&IC activities 
to support the warfighter. In many ways, CN authorities and funding act 
as a bridge between law enforcement efforts and more traditional 
military operations. For instance, CN&GT programs also support counter-
narcoterrorism training provided by U.S. Special Operations Forces in 
the region that directly support counter-terrorism (CT) and 
counterinsurgency (COIN) objectives. In fiscal year 2009, CN&GT 
provided counternarcotics-funded helicopters in support of broader CT/
COIN objectives in Pakistan. CN&GT also joins the Department of 
Homeland Security (CBP/ICE) in providing critical support for Operation 
Global Shield, a World Customs Organization (WCO) effort to combat the 
illicit transport and use of precursor chemicals by terrorist and other 
criminal organizations some of which are used to manufacture improvised 
explosive devices (IEDs).
    Where Partnership Strategy and Security Operations' Ministry of 
Defense Advisors (MODA) program provides support to the Ministry of 
Defense, CN&GT efforts are focused on building capacity of law 
enforcement units within the Ministry of Interior such as the 
Counternarcotics Police of Afghanistan (CNPA), the National 
Interdiction Unit (NIU), the Sensitive Investigative Unit (SIU), and 
Aviation Interdiction Unit (AIU).
    CN efforts in the U.S. Central Command area of responsibility 
complement counter-terrorism, DOD's partnership strategy, and stability 
operations. All three of these pillars need to be coordinated for 
greater effect. Often, as in the case of Pakistan, CN efforts allow DOD 
to establish a base for follow-on CT/COIN and stability operations. In 
2006, CN funding was used to begin building-up Pakistan's border 
security forces in the Federally Administered Tribal Areas region based 
on the amount of drugs transiting this region headed to the Makron 
Coast from Afghanistan. The drug trade is inherently associated with 
creating instability and is often a localized funding source for 
insurgent and criminal groups.
    CN&GT coordinates with SO/CT on 1206 reporting requirements. This 
annual review of CT funding by CN experts helps to eliminate overlaps 
and identify areas for improved coordination. Leveraging the expertise 
of the Counter-Narcoterrorism Technology Program Office and its 
relationship with CN&GT, SO/CT was able to procure a utility aircraft 
for Yemeni security forces with Section 1206 funding at the end of 
fiscal year 2010.
    Emerging Threats
    Closer to home, Mexico continues to confront escalating drug-fueled 
violence particularly along its northern border with the U.S. Gunmen 
associated with drug trafficking organizations routinely carry out 
sophisticated attacks against Mexican law enforcement and military 
personnel. The Department of Defense's counternarcotics support to 
Mexico is implemented primarily through U.S. Northern Command 
(NORTHCOM)and includes training, equipment, and information sharing as 
well as indirect support to units of the Mexican armed forces with 
counter-narcoterrorism missions. We are also working with U.S. Southern 
Command (SOUTHCOM) and NORTHCOM to develop a joint security effort in 
the border region of Mexico, Guatemala, and Belize. Most of DOD's 
cooperation with Mexico falls under the Department's counternarcotics 
program, and we expect to allocate approximately $51 million in fiscal 
year 2011 to support Mexico. This allocation is a dramatic increase 
from previous funding levels for Mexico. Before 2009, for example, 
funding for Mexico was closer to $3 million a year.
    Central America continues to face increasing pressure from drug 
trafficking and related violent crime, largely as a result of the 
progress that has been made by the Governments of Mexico and Colombia 
in confronting these organizations. A Congressional Research Service 
report published this March illustrated this graphically by mentioning 
that, despite the incredible drug-fueled violence in Mexico, the 
homicide rate per 100,000 inhabitants for all Central American nations 
is significantly higher (with the exception of Costa Rica). These 
trends are directly attributable to illicit trafficking of all forms of 
contraband such as drugs, weapons, bulk cash, counterfeit and stolen 
goods, and persons. These law enforcement issues have important 
ramifications for the national security of Mexico, the Nations of 
Central America, and the United States. The Central American Citizen 
Security Partnership, announced by President Obama in El Salvador last 
month, seeks to ``address the social and economic forces that drive 
young people toward criminality.'' The implication for DOD is that we 
will work even harder to broaden and deepen our interagency and 
international partnership approach and take a holistic view of 
security. As always, DOD will play a supporting role to the overall 
strategy, led by the White House and the State Department, avoiding any 
over-emphasis on military responses.
    I recently traveled to West Africa to get a first-hand look at a 
region where weak governance is increasingly being exploited by drug 
traffickers as they target the lucrative and growing European market 
for cocaine. This trend has a number of important national security 
implications, such as undermining governance and stability in the 
region and providing a funding stream to Western Hemisphere criminal 
organizations that traffic drugs to the United States.
    Drug trafficking and other forms of organized crime have become a 
truly global phenomenon. The globalization of the legitimate economy 
has benefitted the illicit economy in many of the same ways. Today, 
nearly every country in the world now suffers to some degree from 
illegal drug consumption, production, or drug-related corruption and 
violence. Where once DOD's counternarcotics efforts were focused in the 
Western Hemisphere, today we are supporting counternarcotics activities 
worldwide--most notably in Afghanistan and with its neighbors, but also 
in places such as West Africa and Central and Southeast Asia.
    Transnational criminal organizations (TCO), are becoming 
increasingly networked as they form relationships with each other and 
at times with insurgent or terrorist groups. These relationships range 
from tactical, episodic interactions at one end of the spectrum, to 
full narcoterrorism on the other. This ``threat networking'' also 
undermines legitimate institutions in ways that create opportunities 
for other threats. TCOs are increasingly diversifying into other forms 
of criminal activity in order to spread risk and maximize potential 
profit. In some regions, for example, drug trafficking TCOs also engage 
in kidnapping, armed robbery, extortion, financial crime and other 
activities.
    It is important to note that DOD counternarcotics support 
activities are carried out at the request of and in coordination with 
U.S. or foreign law enforcement officials. DOD support includes 
training, equipment, information sharing, communications, intelligence 
analysis, and other cooperation. I give Congress the credit for having 
had the vision to recognize the important role DOD can and should play 
to counter the threat of drug trafficking, and particularly in 
supporting broader law enforcement efforts.
    DOD counternarcotics activities employ two principal ``force 
multipliers'' to make the best use of finite resources available. These 
are particularly important in the current fiscal environment. First, we 
emphasize networked partnership, both with other countries and among 
U.S. institutions. Through building capacity among our international 
partners, we enhance their ability to work with their U.S. counterparts 
and maximize the value of taxpayer dollars.
    Second, we stress intelligence and information-driven operations. 
For example, DOD increasingly provides detection, monitoring, and law 
enforcement ``end game'' support, based on ``cued'' intelligence. Such 
targeting is more cost-effective than trying to patrol vast areas with 
limited air, maritime, or other assets.
    It is important to recognize that when we discuss the transnational 
nature of this threat, this includes criminal activities that take 
place outside as well as within the United States. For instance, the 
influence of Mexican TCOs extends well beyond the Southwest border to 
cities across the country such as Atlanta, Chicago, and Detroit. 
Unfortunately, coordination of domestic and international activities 
can be especially challenging. Such coordination is, however, also 
increasingly important in an age when criminal globalization, threat 
networking, and diversification are making distance and borders less 
important. In this regard, DOD can play an important role in 
facilitating coordination and information sharing through mechanisms 
such as Joint Task Force-North in El Paso and Joint Interagency Task 
Force-South in Key West--both of which are models of interagency and 
international cooperation.

                               CONCLUSION

    The transnational illicit drug trade is a multi-faceted national 
security concern for the United States. The drug trade is a powerful 
corrosive force that weakens the rule of law in affected countries, 
preventing governments from effectively addressing other transnational 
threats, such as terrorism, insurgency, organized crime, weapons 
trafficking, money laundering, human trafficking, and piracy. Many of 
the global and regional terrorists who threaten interests of the United 
States finance their activities with the proceeds from narcotics 
trafficking. The inability of many nations to police themselves 
effectively and to work with their neighbors to ensure regional 
security represents a challenge to global security. Extremists and 
international criminal networks frequently exploit local geographical, 
political, or social conditions to establish safe havens from which 
they can operate with impunity.
    Thank you for the opportunity to testify. I welcome your questions 
and comments.

    Senator Hagan. Thank you. Thank you, Mr. Reid, Dr. Schear, 
and Mr. Wechsler.
    We will now have 8 minutes to do questions. Mr. Wechsler, 
counter-threat finance activities, which you've just been 
discussing, fall into your portfolio. I understand that your 
office has been active in setting up threat finance cells in 
Afghanistan and Iraq. A number of administration officials have 
indicated, however, that the most significant source of money 
funding terrorism comes from our Gulf States. What is your 
organization doing to identify and counter the flow of money 
from these nations? I hear there's actually some points of the 
year called the ``funding season.''
    Mr. Wechsler. You're indeed correct, Madam Chairman. One of 
the challenges in this area is exactly what you said, that the 
fundraising networks are global in nature. So when we create 
mechanisms to facilitate coordination in Iraq and in 
Afghanistan, those aren't enough. We need to go outside of 
those areas to really deal with it.
    It's very important to recognize the work that we have done 
inside those war zones in order to collect the right kind of 
information, in order to bring it together, to map the 
networks, to identify the key nodes, and then, most 
importantly, to identify the key aspect of U.S. power that is 
most relevant for attacking that particular node. Sometimes it 
may be military activities--our friends in the Special Forces. 
Sometimes it will be a law enforcement operation. Sometimes it 
will be a host country law enforcement operation. Sometimes it 
will be an influence operation. Sometimes a Treasury 
designation. Sometimes diplomatic activity.
    We have to have the mechanisms that can make those 
decisions, and that's what we're building up in the war zones.
    Outside the war zones, you take one of these action arms 
completely off the table as far as DOD, so we need to rely on 
our interagency partners. But even there, there are roles that 
DOD can do because, in some cases our interagency partners, 
according to the tasks that they've been given by Congress, 
don't necessarily see it directly in their interest.
    Just as an example, the folks at the Drug Enforcement 
Agency (DEA) do an absolutely fantastic job at meeting their 
mission of keeping drugs out of the United States. Very little 
of the drugs that come out of Afghanistan and go through the 
Gulf and are part of those networks that end up funding our 
enemies come to the United States. So if you just look at their 
mission set, they wouldn't have a lot of people in the Gulf. 
Indeed, when I went out there last January they had, DEA, had 
one person in Cairo that covers 14 countries and the Gulf.
    So what we said is: We have a mission and we need your 
authorities. So what they have done, the Immigration and 
Customs Enforcement and, most recently, the Federal Bureau of 
Investigation, have gotten together and come up with a plan to 
have greater staffing in the Gulf, so that they can use their 
authorities to go after these financial networks with those 
host countries. We in DOD can support them with resources, but 
also with planning and analytical skills. So that's how we go 
about dealing with that problem.
    Senator Hagan. Do you actually pay the Treasury for their 
personnel and providing them with intelligence?
    Mr. Wechsler. We do, not in providing them directly with 
intelligence, but we do make sure that we can provide the kind 
of resources that are necessary, whether that is physical space 
in buildings and in computers and those kind of tools that they 
use. In some cases we provide resources for TDY and travel and 
efforts like that. There are limitations on exactly what we're 
able to pay for legally and we don't go across those lines. But 
we want to make sure that in this relatively small amount of 
money that we can provide, which is hugely cost-effective for 
us to have Treasury as part of the war effort, that that's not 
the reason why we fail in this area.
    Senator Hagan. Thank you.
    Mr. Reid, let me ask you a question on Afghanistan 
counterterrorism operations. According to published reports, 
the tempo of counterterrorism operations in Afghanistan by U.S. 
and the Afghan SOFs has increased dramatically in recent months 
and demonstrated significant results. General Rodriguez stated 
that the Afghan people are playing an interestingly important 
role in the success of these operations by helping to provide 
significantly more tips because they see the Afghan National 
Security Forces (ANSF) out among them more than they ever had 
because of the increase in the number.
    Do you agree with General Rodriguez that the increased 
presence of ANSF has resulted in better intelligence because 
the population is more likely to come forward with information?
    Mr. Reid. Thank you, Madam Chair. In short, yes, I do agree 
with that assessment, and we are into a period now where it's 
logical we would see an increase in the pace of activity, given 
our uplift in forces as the President authorized in the last 
review and the weather, climate factors in Afghanistan in the 
so-called spring and summer fighting season kicking off. So 
there is a logical increase.
    With respect to the support of the population, again 
fundamental to our strategy is to put the Afghan forces in the 
lead. As we build toward a responsible transition, we will see 
more and more of Afghan forces in the lead. That does engender 
greater support by the local populace. We see this in our 
village stability operations, in our Afghan Local Police (ALP) 
Program, which has taken off rapidly, is building up beyond 
5,000 forces that are involved in the ALP. It's a village 
security, non-Kabul-driven local governance, local security 
apparatus that fits in with the ANSF in the big picture, but on 
the village level it is their own actions to push back on 
Taliban influence. This creates an information network. It 
creates an operational capacity that spreads the reach of the 
Afghan National Army and the Afghan National Police to achieve 
this exact effect, which is a shifting of public sentiment 
towards an anti-Taliban position that is vital to the success 
in the counterinsurgency.
    Senator Hagan. I was in Afghanistan in January and had an 
opportunity to go to the training center there for the ANSF and 
was quite impressed with the group that we saw.
    There's also reportedly 85 percent, I think what you're 
talking about, of counterterrorism operations that take place 
without a shot being fired. In light of disagreement between 
NATO and the Afghan Government over civilian casualties, what 
actions have been taken by the counterterrorism forces to avoid 
civilian casualties in Afghanistan? Do you believe it is 
accurate to say that 85 percent of these counterterrorism 
operations are conducted successfully without a shot being 
fired?
    Mr. Reid. That's true, and I believe that came across at a 
briefing and we went back and said, is that a footnote anecdote 
or is that supportable? The facts are--and it's a difference, 
and I'm sure in previous times--you've been down at Fort Bragg 
and seen the counterterrorism demonstrations with the 
explosions and the breaching and everything. It's still a very 
valuable skill.
    But what we have learned in this war, and particularly in 
these type of operations, is just going out there and calling 
them out is effective, and that's what you've seen. That's what 
we talk about, without shots being fired.
    It's also been optimized in Afghanistan by the use of the 
Afghan forces as well, so now they have their own folks calling 
them out. They know what happens if they don't come out, so 
they tend to do that.
    With respect to civilian casualties, clearly just a 
horrible, horrible incident when it does occur. We've taken 
many steps to minimize this with our strike policies, our call 
for fire policies, our verifications of the targets. It is an 
ugly, unfortunate aspect of warfare, and among the population, 
that I would say we will never completely eliminate, but the 
target control, fire control systems, have been strengthened to 
the point where we have greatly reduced them, and we will 
continue to do so.
    Senator Hagan. Thank you. Senator Portman.
    Senator Portman. Thank you, Madam Chair.
    Thank you for your testimony, gentlemen. You raise so many 
issues and there are lots to get further information on. I 
would say that, based on your responses to the chair's 
questions, your two worlds kind of coincide on the issue of 
counter-drug programs and narcotics, because I assume you would 
agree that not just with regard to the Taliban, but generally 
with regard to terrorist groups, narcotics often plays a role 
in terms of the funding.
    Do you have any sense of what part of the Taliban's 
resources, for instance, come from the trafficking of 
narcotics?
    Mr. Wechsler. Senator, I've seen a lot of estimates that 
try to get to those exact percentages and I wouldn't stand 
behind any of them. But what I can say is that it is without 
question that a very significant proportion of the Taliban's 
resources come from the narcotics trade and various elements of 
the narcotics trade. Sometimes it is direct involvement. 
Sometimes it is taxing it. Sometimes it is facilitating it. 
Sometimes it's using the drug trafficking organizations 
themselves as mechanisms to move people, IEDs, other materials, 
into war zones. There is a mutually supportive relationship in 
many places that requires us to take down those networks.
    Senator Portman. The Inspector General for Afghanistan 
Reconstruction tells us that we have spent as American 
taxpayers $1.5 billion between 2002 and last year on 
counterdrug activities in Afghanistan alone, $1.5 billion. This 
year's budget request from the President I see includes nearly 
$400 million in the overseas contingency operations area for 
these same efforts.
    You've talked a little about this, but what's our objective 
and is it working? That's a lot of money and there's still a 
lot of trafficking.
    Mr. Wechsler. Yes. The objective is--there are short-term 
objectives and long-term objectives. The long-term objectives 
are counternarcotics objectives, that we want to return 
Afghanistan to what it was in the 70s when it was not the 
world's leading source of opium.
    The short-term objectives, though, are integrated into our 
counterinsurgency objectives, and those are not 
counternarcotics for counternarcotics' sake directed, but they 
are counternarcotics in order to help break the nexus of the 
Taliban and the drug trafficking organizations. It's 
interdiction-related and it's also to support the individual 
farmers.
    You may recall that a couple of years ago the U.S. 
Government--mostly DOS, not DOD--spent an awful lot of money on 
eradication programs. What we've done is we've halted those 
efforts and said that if there are going to be eradication 
programs, they're going to be governor, local governor-led 
eradication programs, because what we found is that in many 
cases those were not only not productive, but they were 
counterproductive. What you ended up doing was making enemies 
out of all the farmers that have lost their livelihood, not 
impacted the Taliban's finance, and just created more recruits 
for them.
    So what we are doing instead of targeting the farmers, 
we're targeting the illicit networks behind the Taliban and the 
drug trafficking organizations. To that respect, they have been 
quite effective. Just a couple of things--and they've really 
been effective in this year as the capacities that we built 
over time, including Afghan capacities, it must be stressed, 
have really come into, working together with our military 
capacities.
    So in 2010, for instance, ANSF conducted 298 DOD-supported 
CN interdiction operations. The majority of these operations 
were in the south, resulting in the destruction of 56 tons of 
opium, 2 tons of morphine, 11 tons of heroin, and 74 tons of 
hashish. These are incredible numbers. It's an amazing amount, 
and every one of those are things that are taken away from our 
enemy, and we're starting to see evidence that it is having an 
effect on them at a strategic level.
    Senator Portman. I would just make an editorial comment. 
You talked earlier about your work and it's very important and 
I appreciate what you do, Mr. Wechsler. But you focused all on 
the supply side and not on the demand side, and you should take 
credit for some of the work that the Guard, the Reserves, and 
some of your active duty are doing on the demand side, too. 
Ultimately that's going to be the way to get at this in my 
view. So tons of narcotics we're talking about apprehending or 
finding in the Taliban context, that's terrific news. I hope 
they're not all back next year. As long as there's a market 
that seems to materialize. I understand most of that opium goes 
to Europe, but in terms of what you do here in this country I 
think it's incredibly important vis-a-vis Mexico and other 
problems. So add your demand side accolades to what your team 
is doing.
    Just quickly on U.S. Southern Command (SOUTHCOM). You 
talked about the interagency coordination and you talked about 
Colombia as being an example. You said that you thought that 
what I said about it earlier was accurate, that it's an example 
where something worked. Can I ask you something a little off 
DOD's radar screen, but something very topical for us. Recently 
General Fraser, SOUTHCOM commander, talked about the potential 
trade-opening agreement with Colombia as ``a very positive, 
beneficial aspect for our cooperation because of the growing 
capacity to support the capabilities of the armed forces and 
law enforcement.'' Do you see a connection between us finally 
agreeing with Colombia and moving forward on this trade-opening 
agreement, which as you know was negotiated with President 
Uribe 4\1/2\ years ago, as being beneficial to I guess all of 
your objectives with regard to fighting the narcotics trade in 
Colombia and with regard to the other geopolitical benefits of 
a strong ally in Latin America?
    Mr. Wechsler. I do indeed, Senator. It's important to 
recognize how far Colombia has come. I remember I was working 
at the White House at the end of the Clinton administration. 
I'll always remember this number: In 1999 two-thirds of the 
Colombian public believed that the FARC was going to take 
Bogota. That's incredible. Two-thirds of the people in 
Afghanistan do not believe that the Taliban is going to take 
Kabul right now. That's where Colombia was.
    In 10 years time, they have gone from a major exporter of 
insecurity in the region to a major exporter of security in the 
region, helping the Mexicans, and helping their Central 
American partners. They have a new government that still has a 
war that they're fighting. That must be stressed. It has not 
been won yet. There's been great progress, but it's not been 
won.
    They are looking to the United States to try to understand 
what the relationship continues to be, and a key part of that 
relationship is going to be the free trade agreement.
    Senator Portman. Do you think it would strengthen President 
Santos' hand vis-a-vis the FARC and other illicit organizations 
operating in Colombia?
    Mr. Wechsler. I think it will strengthen the hand of 
President Santos and everybody else who, in Colombia, who is 
talking about a strong Colombian-U.S. relationship.
    Senator Portman. I don't know how much time I have, Madam 
Chairman. My clock's not working, which is really a dangerous 
thing for a Senator.
    Senator Hagan. One more question.
    Senator Portman. Dr. Schear, thank you for your testimony. 
You talked about coalition-building. I loved your quote. You 
said it requires some heavy lifting, literally and 
figuratively, right? So we do have some capabilities that other 
countries don't have.
    We hear a lot about the close air support in Libya, for 
instance, being essential to continuing to make progress and 
that when we pulled out and NATO took the lead we lost some of 
that capability. How do you respond to that?
    Dr. Schear. Sir, I wouldn't dispute the point, but I would 
probably defer to my colleagues who are more in the----
    Senator Portman. You're the coalitions guy, though.
    Dr. Schear. I'm the coalitions guy, and we're seized with 
the opportunity to build coalitions to find the best fit. In a 
case such as Libya, as you quite rightly infer, there are a 
range of missions and missions like close air support probably 
are somewhat more on the high end of capacity and issues of 
discriminating targets from surrounding civilian areas is a big 
challenge.
    Senator Portman. Just quickly, a follow-on question. Japan: 
Are we doing everything that we can be doing and have we 
responded to everything the Japanese have asked us to do?
    Dr. Schear. We have made an enormously positive 
contribution to the response to a very complex situation, which 
continues to unfold, I have to say. The Fukushima Daiichi 
reactor facility is stabilizing, but I would say Japan has 
certainly got a ways to go before we can put that fully behind 
them.
    Senator Portman. Do you feel like we're responding to the 
requests from the Japanese Government?
    Dr. Schear. Yes, we are. We have an incredible team out 
there, U.S. Forces Japan supported by PACOM, with more than 20 
ships and 14,000 service personnel engaged, with many aircraft 
providing lift into the areas. Our foreign consequence 
management capabilities are being deployed out there for both 
training and direct response purposes.
    Senator Portman. Our UAVs are being used, I understand?
    Dr. Schear. UAVs are part of the repertoire. We're also 
conscious of the fact we have a force protection requirement, 
given the numbers of service personnel and American citizens in 
the Honshu, northern areas of Japan. So we're very cognizant of 
that.
    But I would say thus far we've been doing a fairly strong 
response in a very positive way, sir.
    Senator Portman. Thank you, Madam Chair.
    Senator Hagan. Senator Brown.
    Senator Brown. Thank you, Madam Chair.
    When I went to Afghanistan I was amazed. A quarter mile 
outside the forward operating base you have farmers with poppy 
plants right there, and we're flying over them every single 
day. They're up waving at us. The whole eradication thing, I 
get it, but the cost-benefit analysis--we lose a farmer, and 
the amount of money that's being derived, just the numbers that 
you just said of the actual product that we've destroyed, it's 
mind-boggling.
    I mean, I'm hopeful that there's a way to strike a good 
balance so we don't have to have our pilots flying out and 
seeing all the poppy plants that are just there and the farmers 
waving at us.
    That being said, I wanted to shift gears a little bit, 
because that was kind of the nature of what the chairman and 
the ranking member were talking about. But according to Iranian 
state-owned press--and this will be to Mr. Reid--the commander 
of the Islamic Revolutionary Guard Corps (IRGC) indicated that 
the IRGC units in his mission would undergo a structural change 
or reform to align with recent regional developments. Have you 
noticed or anticipate a change in regional strategy to take 
advantage of the instability in the region?
    Mr. Reid. I think the details of a good response to you, 
Senator, would probably be better in a closed conversation.
    Senator Brown. Great. Let's do that, then. We'll make a 
point to do that.
    Mr. Reid. Yes, sir.
    Senator Brown. So noted. Thank you.
    I'll just then follow up. What's your assessment then--and 
it can be to Dr. Schear as well. There's been a lot of 
investment in training and equipping of Iraqi special 
operations forces. These forces have been effective in planning 
and carrying out operations against al Qaeda in Iraq. What's 
your assessment on the capability of the Iraqi SOF and how will 
this significant progress be affected if all the U.S. military 
forces are withdrawn from Iraq by the end of the year?
    Mr. Reid. We think the Iraqi special forces were an early 
sign of our success in training the Iraqi military and they 
were very responsive and engaged from early on in the conflict. 
The organizations have matured over the years and they are 
currently and have been for some time now sufficiently 
planning, leading, and conducting effective counterterrorism 
operations in Iraq, albeit however with continued U.S. support.
    Looking forward, of course, some details to be filled in 
about next year in Iraq and what our capabilities will be, but 
I can say that we are planning an Office of Security 
Cooperation in Iraq that will have room within that for 
advising and assisting and equipping functions, as other 
security cooperation offices do, and we will build upon that as 
a basis for continued assistance and oversight of Iraqi 
capabilities, including the SOFs.
    Senator Brown. So do you think the Iraqi Government will 
request a limited presence beyond next year aside from that?
    Mr. Reid. I think it's to be determined what President 
Maliki will ask for. We hear reports and discussions of 
different things being considered, but I think that remains to 
be seen, Senator.
    Senator Brown. If we in fact leave altogether, what do you 
think the likelihood of them to be able to maintain stability 
is? Low, medium, high? Do you have any sense on that?
    Mr. Reid. Well, I think the evidence is they're currently 
doing the bulk of the security and we're confident that they 
can shoulder the load going forward. But again, we do intend to 
have a robust security cooperation office in U.S. Embassy 
Baghdad.
    Senator Brown. Mr. Wechsler, the National Guard plays an 
important role in the conduct of DOD counterdrug activities. 
How is the National Guard being utilized in ongoing and planned 
DOD counterdrug programs, number one? Number two, any 
additional requests for authority in terms of rules of 
engagement, or rules of interdiction at all?
    Mr. Wechsler. The National Guard has done an extremely good 
job through the State plan process at supporting State and 
local law enforcement under the direction of the governors. I 
don't foresee any change in legal authorities required because 
they do have the legal authorities to provide that support.
    What I am hopeful for is as we develop--as the Department 
of Justice and the Department of Homeland Security develop 
greater mechanisms and strategies to combat the efforts inside 
the United States that I was discussing previously that relate 
to the threats that are outside the United States, that our 
National Guard efforts can be increasingly deployed against 
those problem sets.
    Senator Brown. Mr. Reid, I have a question about Somalia 
that I think is probably a closed session one as well, if we 
could maybe deal with that at some point and I'll have Bo on my 
staff connect with you. But talking about al Qaeda's ability to 
use 21st century technology to spread its message and recruit 
terrorist candidates, what's DOD doing to counter that 
propaganda effort? Not only that, but other organizations. What 
are you trying to do to that kind of combat?
    Mr. Reid. Thank you, Senator. We do have a wide range of 
programs in this area in DOD. We work very closely with our DOS 
colleagues and their global strategic communications effort. I 
agree with you, the details of some of those we should probably 
talk about in a closed session.
    Senator Brown. Great, great. Thank you.
    Thank you, Madam Chair.
    Senator Hagan. Senator Brown, Senator Portman and I both 
are interested in having a closed session. So when you look at 
the title of this committee, being the ``Emerging Threats and 
Capabilities,'' I think we obviously will ask for a closed 
session, and we'll try to schedule that together.
    I might ask a few more questions and then Senator Portman. 
I want to go back to Libya. Mr. Reid, how would you 
characterize the situation in Libya? Given your 
responsibilities for unconventional warfare, have you had any 
involvement in assessing the training and equipping 
requirements of the Libyan rebels? Just sort of a series of 
questions and thoughts on Libya.
    Mr. Reid. I'll take the first part. It's a little bit 
easier to talk open here, just based on my own experience and 
assessment. Obviously, as an opposition movement they are 
dealing with an uphill battle with a longstanding oppressive 
regime that makes little distinctions about attacking 
civilians, civilian targets. So a very difficult situation for 
any opposition.
    Again just speaking in the abstract, they have some 
advantages based on the geography of the situation and they 
have shown great strength and motivation as a group. Difficult 
for them. Again, if you look at this in the context of history, 
you would probably have wanted to start off with a much longer 
lead of developing your uprising. This sort of was spontaneous 
to some extent based on events in the region. So I think that 
clearly posed some challenges for the group.
    With respect to the details of things, of course, as a 
Defense official and working with our special operations, 
clearly we have no U.S. forces on the ground in Libya and the 
strength of the U.S. support to the opposition, as noted by 
Senator Portman, was through the air and now continued by our 
NATO partners.
    I would just go back and say, with respect to the 
differences in U.S. air power and that posed by the current 
effort, not to take anything away from our NATO partners, but 
we've been saying for quite a while the reason our enemies seek 
to avoid direct confrontation is because of the overwhelming 
firepower of the U.S. military and I think that's what you saw 
happening. I wouldn't recommend anybody mess with the U.S. Navy 
or the U.S. Air Force in that type of environment, because 
their capabilities are clearly overpowering and precise.
    Going forward, obviously we have some nascent engagements 
on the diplomatic side. The United States continues to support 
the NATO effort, and what you see on a day-to-day basis is a 
back and forth now where neither side seems to be able to 
dominate the other. There's been a shifting back and forth 
between Ajdabiya and Misurata. Brega in the middle seems to be 
a balance point. When the rebels--when the opposition gets the 
Brega, the government kind of gets on its heels, and then they 
regroup and come back. It's just a day-by-day situation right 
now.
    Senator Hagan. There's been discussion about arming the 
rebels or not arming the rebels. Certainly I think a lot of 
people are concerned about exactly who the rebels are. What are 
your thoughts on that?
    Mr. Reid. I think that's a great point, and we would always 
have to be careful in any situation that we knew upfront 
clearly who we're dealing with, and it has been much discussed 
by the Secretary of State and others that we're in that process 
right now of trying to get a further understanding before we 
take further steps.
    Senator Hagan. Mr. Wechsler, on counter-piracy efforts off 
Somalia: Despite a significant and concerted international 
effort which includes various U.S. agencies and the U.S. 
military, piracy in the northwestern Indian Ocean and the 
approaches to the vital sea lanes through the Gulf of Aden 
continues largely unabated. The tragic deaths of the four 
Americans recently aboard the sailing vessel Quest was yet 
another vivid reminder of how dangerous these waters have 
become and the need to find ways to bring the piracy under 
control and hopefully defeat it.
    We're interested in your assessment of the overall counter-
piracy efforts to date and what changes you think are necessary 
in our policies and approaches to better drive the pirates out 
of business?
    Mr. Wechsler. Sure, thank you. The solution set for this 
problem--first I want to say, your characterization of the 
problem is exactly correct. It's been growing and left unabated 
it will continue to grow.
    Senator Hagan. How many ships are under hold right now, do 
you know?
    Mr. Wechsler. I don't know, but we can get you the answer 
to that, because it does change from time to time.
    [The information referred to follows:]

    As of today (April 12, 2011), 26 vessels are currently being held--
25 of them for ransom--along with 542 crewmembers.

    Mr. Wechsler. The solution will not be found on sea. The 
solution to this problem, as has almost always historically 
been the case for piracy, will take place on land. The area 
that the pirates cover would not effectively be patrolled by 
all of the ships of all of the navies of all of the countries 
of the world, it is that vast. It cannot be patrolled in this 
way.
    But that is not to say that there aren't more things that 
can be done at sea. One of the clearest conclusions from the 
last couple of years about this is that the ships that abide by 
all of the best practices and then those who go beyond the best 
practices, they are the ones that are not successfully pirated.
    Indeed, one of the most controversial elements is the 
suggestion that many have made inside the United States that 
all these ships carry armed personnel on them to protect 
themselves against pirates. We see consistently that those with 
armed personnel on side, not military personnel but privately 
held armed personnel, do not get pirated. Then of course, if 
you combine that with other best practices, such as traveling 
fast, traveling high, traveling in bad weather, having citadels 
that can protect you and control the ship and have radio 
equipment, having barbed wire on the sides, if you follow these 
practices you are not taken has been our history.
    Senator Hagan. What was the part about the bad weather? I'm 
sorry?
    Mr. Wechsler. The pirates are in small ships that cannot 
sail in bad weather. So if you are in a large ship and can go 
in bad weather, you successfully avoid pirates.
    But there's a whole series of these practices, and the vast 
majority of ships that are taken are not abiding by these 
practices. So that is the number one thing that we can do on 
the water.
    Senator Hagan. Thank you. Senator Portman.
    Senator Portman. Mr. Reid, I don't want to get you in 
trouble, so I'm sure you'll monitor yourself here. I just have 
to follow up on your Libya comment and the fact that we do have 
certain capabilities that other countries don't have, including 
our NATO allies, as much as we appreciate them. Close air 
support was something I asked about earlier. Forgetting the 
decision to engage, once we did engage it seems like our close 
air support, A-10s, AC-130s, our ability to, as you say, 
inflict damage in a way that makes our enemies concerned about 
taking us on, that was largely lost, as I understand it, when 
the command was shifted to NATO. Is that accurate?
    Mr. Reid. I apologize, Senator. I'm not sure I understood 
the question.
    Senator Portman. Well, my question is whether those unique 
capabilities that our Air Force has as compared to France and 
Britain and other NATO partners--it seems to me that was lost, 
that capability, when the command shifted. Is that accurate?
    Mr. Reid. I apologize again, but I think I'm out of facts 
here for you.
    Senator Portman. That's fine. I don't want to put you in a 
situation, I really don't. But this is the concern that has 
been expressed by many of us, that once you engage in order to 
continue to make progress you have to continue to have that 
capability you talked about earlier, and it seems as though our 
NATO allies have not been able to make the same progress, and 
in fact there have been some reversals. Today I'm understanding 
once again there is some threat to some of the cities that the 
rebels previously had held.
    So anyway, I won't push you on it except to say that that's 
something that I think ought to be a subject for your group and 
others to look at.
    Can I ask you about your thoughts on how what's going on, 
the upheaval, the Arab spring, from again the eastern Med all 
the way around North Africa and certainly the Arabian 
Peninsula, how that's affected our fight against terrorism, 
specifically al Qaeda? Has it made it more difficult for us? Do 
you see any evidence of al Qaeda taking advantage of the 
situation? I guess specifically, in Libya, do you see al Qaeda 
taking advantage of the anti-Qadhafi efforts that are underway?
    Mr. Reid. Thank you, Senator. I think it's a great question 
and one that we have considered in many different fora. What's 
most remarkable to me about the situation which you're 
referring to is that al Qaeda has not found this to be a 
springboard to increased resonance. I think it was Denis 
McDonough that said this in a speech, that al Qaeda's number 
two, Zawahiri, spent time in prison, exiled from his homeland, 
dedicated his entire life to changing the government in Egypt, 
and what he was incapable of doing the popular uprising did in 
a very unorganized manner in a period of weeks, less than a 
month.
    It's a very powerful statement to consider, and what it 
points to is the inability of the al Qaeda narrative to 
resonate anywhere, including where we might have feared it 
would resonate the most, which is in Arab countries, and the 
facts don't support that. Al Qaeda has not found the uprising 
in the Middle East or in Africa to be a springboard into 
anything and they are largely on the sidelines, which is good.
    Of course, with instability comes opportunity. As a special 
operator myself, I know that, and they know that as well and 
they certainly would like to try. You can see signs, and we can 
give you details in a separate session, but you can see efforts 
they make, and we can pick up on this. But they're largely 
ineffective.
    The Libya question can probably be more precisely scoped 
dealing with the free access to weaponry than is the case with 
Qadhafi's losing control of certain weapons and material, and 
that has concerned us and there are some separate activities to 
deal with those as well.
    But throughout the region there is a great concern about 
this very question, and again none of these countries want an 
al Qaeda-dominated society or an al Qaeda-dominated government, 
and I think that's what you see happening.
    Now again, as you mentioned, Senator, no one can predict 
from day to day, week to week, what's happening with some of 
these places. But I think it's fair to say thus far this has 
not created a wellspring of pro-al Qaeda sentiment in any of 
the locations, and in fact the opposite being the case, that 
the forces of democracy and self-determination are much more 
powerful in these places where this has played out.
    Senator Portman. Yemen is a place where there's a lot of 
concern right now, specifically concern about al Qaeda in the 
Arabian Peninsula taking advantage of that unrest. But even 
there, you don't see al Qaeda making gains?
    Mr. Reid. Certainly in the remote areas they've had some 
tactical success, and I think you could attribute much of that 
to the diversion of military capabilities to Sana'a in the role 
of regime protection, which is certainly a cause of concern for 
us. It's also reflective of the problems that we are trying to 
deal with in Yemen, which is extending the sufficiency and the 
mandate of the Sana'a-based security forces in the provinces, 
the opposite direction.
    So as much as we have tried to work with the Yemeni armed 
forces to establish a greater foothold in the tribal regions, 
we were not to that point when this particular scenario 
developed. So I think you see some shifting back. But I predict 
they would be short-lived gains and when they get through this 
political crisis--and there will be some resolution at some 
point--we believe again that the will of the security forces 
and the will of the population of the Yemeni people is against 
a strong al Qaeda presence.
    They certainly have exploited the safe haven areas, the 
very remote regions, much similar in ways to what you see in 
the Federally Administered Tribal Areas, they have never been 
fully controlled by a central government, and they certainly 
are opportunistic right now. But I believe that the security 
mechanism will get its feet back under it when we get through 
this political crisis that they're going through right now.
    Senator Portman. That was a positive assessment; I 
appreciate it. I hope that you're right in terms of Yemen.
    In terms of Pakistan and Afghanistan, there has been very 
little positive news. Yet we do hear some rumors about rifts 
developing between the leadership in Pakistan, Taliban 
leadership particularly, and the fighters who are actually in 
the fight in Afghanistan. I don't know if you can comment on 
this in the open record, but there is a report this morning, 
for instance, that 15 members of the Taliban, including an 
alleged provincial leader, defected to the Afghan Government in 
the Kandahar Province. I don't know if you're aware of those 
reports or if you think they're accurate or not.
    My bigger question would be, is this a trend? Do you see 
the possibility of more defections, and do you see that, again 
this rumored delinkage between some of the leadership between 
Pakistan and fighters on the ground?
    Mr. Reid. I'd say two things about that. First of all, as 
we mentioned earlier, they are just now beginning to feel the 
full weight of the fully resourced counterinsurgency campaign 
that the President committed to last year as we brought our 
forces in over the winter and as we intensified our effort to 
expand the ANSF. The Taliban is really right now--here we are 
in April--feeling what the summer's going to look like and it's 
not going to be a pleasant summer.
    There will be violence in Afghanistan over the summer and 
there will be----
    Senator Portman. You don't expect the normal resurgence 
that happens in the summer?
    Mr. Reid. No, I do not, based on the resourcing and the 
forces there. I think the signals you're seeing of 
reintegration, reconciliation movements within these 
populations of Taliban is exactly the effect that we intend to 
create, and we've opened up those opportunities. We've expanded 
the security forces, trying to bring people over to the other 
side.
    Recall too, the history of 2001. We didn't defeat the 
Taliban in Afghanistan through total overwhelming firepower. We 
created a situation where those fighters realized that it was 
not productive to be on the losing side and they changed sides, 
and many of them fled across the border. Many of them stayed 
and took up the other side. So there is a reconcilable 
population that we know about. It's clearly there, and we're 
appealing to it and you're starting to see these shifts. As the 
strategy plays out over the summer, I believe you'll see more 
of that and we will be on track, as General Petraeus recently 
testified and Secretary Flournoy, with this transition process 
that we're involved in right now.
    Senator Portman. Thank you.
    My time's expired, but I want to thank all three of you and 
I look forward to further conversations.
    Senator Hagan. I might ask one or two questions, and also 
if you have any more Senator Portman.
    On the DRC, during the Senate Armed Services Committee 
hearing regarding AFRICOM last week, General Ham indicated that 
his command has had limited success in working with the 
security forces in the DRC. He cited issues of vetting, human 
rights abuses, and the absence of a plan for sustained 
engagement. I would like to have any of you who would want to 
speak on this question have an opportunity to answer, as you 
all have unique areas and tools to engage in a place like the 
DRC. How could the United States build a strong and enduring 
engagement strategy in this country, or is it better not to 
engage in a country like the DRC because of corruption and 
other longstanding issues?
    Dr. Schear. Madam Chair, you're absolutely right. It's a 
major challenge, both conceptually and practically. The armed 
forces of the DRC include a range of formerly warring rebel 
groups and disparate factions. Trying to integrate them and 
right-size that organization and subject it to legitimate 
command and control is a big challenge, and I underscore 
General Ham's frustrations. He's reflecting on behalf of 
AFRICOM that this has proved a challenge, both with respect to 
gaining full partnerships with the government, working 
effectively with other countries, including within the U.N. 
grouping that has certain security duties, especially in the 
east, and finding out what the best fit would be in terms of 
both funding and authorities to achieve a desirable effect.
    This is pushing a big boulder up a hill, quite frankly. DRC 
is a huge country, riven by violence since the mid-1990s.
    Senator Hagan. So much of that directed against women.
    Dr. Schear. Absolutely. This has been a very intense focus 
for our interagency colleagues writ large, and finding the best 
mix of training, understanding both the culture and the 
operational imperatives which gives rise to such awful violence 
is part of it, and then figuring out exactly what level of 
training could be delivered, imparted, if you will, to 
Congolese service personnel and their institutional overseers, 
is a huge challenge.
    I can't offer you any panaceas or any solutions here, other 
than to say it's a source of very active concern for us.
    Senator Hagan. Mr. Reid or Mr. Wechsler?
    Mr. Reid. I would just add, and actually borrow off of Dr. 
Schear's opening comments, because if it came to me and my 
office to deploy special operators to the Congo for a short-
term engagement we would immediately start looking at 
authorities and resources, and that's what we do. What I have 
is really confined into support to special operations and 
support to counterterrorism.
    What Jim talked about opening up here with the global 
contingency fund is a perfect example, as he just talked about, 
where this isn't all just a Defense problem, we need multiple 
vectors of security assistance, reform applications to a DRC 
situation. To do that effectively, we need a flexible authority 
to work within and not something that's boxed into a very tight 
requirement, that's only good for that year of execution, and 
these other things.
    This is why we're all jealous of Will here with the 1004 
authority. It's multi-year, you can do other things with it. 
We'd love to have something like that to deal with these kinds 
of problems.
    So, not making any excuse, we can do certain things on the 
margins anywhere in the world and, given the right factors, we 
can surge into anything. But we know--and I've been on many 
deployments into Africa--where we get in there and get it 
wrong, it's not going to fix anything.
    It isn't always led with special operators or it isn't 
always led with military forces, but a really tight package of 
the right mix of interagency. I think that's where we are with 
this other authority.
    Thank you.
    Mr. Wechsler. I'd just add one thing. It's a little outside 
my lane, but, given the other conversations that you've had; I 
was at the National Security Council working on peacekeeping 
operations when late President Kabila was marching down from 
Kisingani to take out the Mobutu regime. The Mobutu regime was 
one of the more brutal in the world at the time and we were 
very happy for that to go.
    But at the same time, what happened since wasn't a period 
of happiness for the people in that area. As we encounter these 
volatile regions of the world, we always need to remember that 
just getting rid of somebody bad isn't the end of the story, 
and we have to make sure that we, as Secretary Reid was talking 
about, understand who we're dealing with on the other side and 
what the next steps are before we take action.
    Senator Hagan. I want to follow up on the pooled fund 
initiative and have a couple of questions on that. Are you 
confident--this is for whomever again wants to answer this. Are 
you confident that DOS is committed to making this initiative 
work jointly? Do you have any concerns that the joint 
arrangement would be too unwieldy? Are there benefits to having 
a joint arrangement that offset the procedural challenges of 
implementing this program jointly?
    Then do you have any concern that this initiative is too 
much of a militarization of foreign policy?
    Dr. Schear. Madam Chair, by way of a quick set of 
responses, we think the pooled initiative actually is a good 
blending of the two Departments' equities. It reflects the 
DOS's overall leading role in the provision of foreign 
assistance, but it would be well lashed up with DOD's special 
concerns about security and defense policy, especially in 
volatile transnational threat-riven areas. So we think it would 
be a good balance.
    We think this proposal would help us in a very agile 
fashion respond to emergent challenges within a budget year of 
execution. We are not proposing to expand the amount of 
resources going into countries that are already claiming very 
large amounts of U.S. foreign assistance, but it would help us 
navigate between and among funding streams in an agile way.
    We think, further, it would incentivize interagency 
cooperation. If we have a joint team working together in a top-
down fashion, we wouldn't be just depending on nominations 
coming up the chain and taking a fair amount of time to work 
themselves out. We would reflect the top-level priorities, but 
we would seek the advice and the input of the field both at the 
embassy country team and at the combatant commands.
    So it wouldn't just be the 3,000-mile screwdriver. We would 
be looking for input. But we think that, because both 
secretaries and their leadership teams are committed, that we 
have a good chance. We absolutely believe the DOS is strongly 
behind this. It will be a work in progress. We'll have to give 
you updates, if we're fortunate enough to have the opportunity 
to start this pilot, to work with Members of Congress on an 
energetic engagement so we can consult with you and get 
feedback.
    But generally speaking, I think we would view this as a 
very good opportunity to show how we can work collegially with 
another very important department.
    Thank you.
    Senator Hagan. I had one other question and then I'll turn 
it over to Senator Portman. That is, you mentioned, Dr. Schear, 
about the humanitarian aid to Haiti during the earthquake and 
then obviously Japan. What is going on in Haiti right now? How 
involved are we?
    Dr. Schear. SOUTHCOM continues to have a coordination cell 
there resident. Very keenly aware that Haiti, with its large 
displaced population still living essentially in tent cities in 
and around Port au Prince, is very vulnerable.
    Senator Hagan. I did have an opportunity to go there 
recently.
    Dr. Schear. So you've seen.
    Senator Hagan. About 800,000 people in these tent cities.
    Dr. Schear. Yes.
    Senator Hagan. It was an incredible sight to see.
    Dr. Schear. Tragically, we'd have to say that more than a 
year after the earthquake Haiti is getting back to abnormal. 
This is not a situation which would enable that country to 
withstand another major hurricane hit. We were very fortunate 
in the last season that we didn't have such a direct hit. But 
we're very concerned about it.
    Our USAID colleagues continue to be engaged. We nudge them 
along occasionally on specific areas. But the key issue is 
government rebuilding, and this is an internal challenge for 
the Haitians. The tragedy was that the Government of Haiti took 
a huge hit with that earthquake, and getting them back in the 
wake of an election finally, with a result that we hope will 
lend itself to further development, would get that country back 
on its feet.
    I continue to be impressed, as I suspect you were too, by 
the ingenuity and creativity of individual Haitians. It's just 
remarkable how well they can cope. But as a society and 
certainly as a government, they've had big challenges. So we 
remain attentive to their needs and are watching very carefully 
to ensure that we can react in an expeditious way if there's a 
further natural disaster.
    Senator Hagan. Senator Portman.
    Senator Portman. I promise this will be my last round and 
we'll let you guys go.
    On this idea of the global security contingency fund, it's 
certainly something we might be willing to take a look at. As I 
said at the outset, we are working today within very different 
budget constraints even than a few years ago. The deficit is 10 
times bigger than it was 4 years ago, if you think about that, 
and we must adjust accordingly. So it's our ability to project 
force and it's our ability to play an active role even where 
we're not directly involved as a military, but where the DOS, 
USAID, and others are involved.
    So as you're talking about this contingency fund I assume 
you're talking about taking funds out of other areas, both DOD 
and DOS. Of course, DOS would say that DOD has all the money, 
which I used to hear at the Office of Management and Budget 
quite a bit. But what is your proposal there, Dr. Schear? Where 
do the funds come from?
    Dr. Schear. Under the terms of the proposal that we're 
putting forward, we would be requesting $50 million in actually 
DOS appropriation and transfer authority for both Departments 
to transfer up to an additional $450 million to cover urgent 
needs.
    Now, given your background, you well know that $450 million 
would be a very large lift indeed, certainly for State, and I 
will say also for DOD in the current budget climate. This is 
not a proposal which is designed to spend a lot of money. We 
are not going to try and spend up to any given threshold. It's 
just to meet emergent requirements in a way that we think could 
actually promote cost efficiencies. If we can transfer money 
across funding streams in a way that better targets a specific 
potential need, we don't have to come for niche authorities in 
special cases or to otherwise find less optimal ways to fund 
something.
    But we will be looking hard within our own Defense-wide 
funding for available resources as and when emergent needs come 
up. This is clearly something on our radar. Our Secretary, our 
Comptroller and policy offices are all scrutinizing this very 
carefully.
    Senator Portman. I'm sure they are, given the Secretary's 
commitment to finding additional savings in the area of tens of 
billions of dollars. This is less than that, but it's also--if 
you want a little unsolicited advice, that's going to be worth 
what you pay for it, it has to be, because there are 
efficiencies specifically that DOS and DOD are now expending 
funds that would not have to be spent because of the ability to 
coordinate better and to be more preventive perhaps and more 
involved in, as the Secretary talks about, soft power from the 
DOD perspective.
    So we'll be eager to see the request, but also the analysis 
as to what its impact would be on the budgets going forward.
    Quickly with regard to Mexico, obviously a huge concern 
here in this country, as it should be. I think--Mr. Wechsler, 
about 35,000 people or so have now died just in the Calderon 
administration time period, and the brutality of the cartels is 
breathtaking.
    My question is, what is your assessment? I think I heard 
earlier--Dr. Schear, did you say we are spending $50 million a 
year, or Mr. Wechsler? How much are we spending? Is that the 
actual total amount of our expenditures, including some of the 
funding that's going through other channels than the DOS? Is it 
working, and what are we doing that's effective and what should 
we be doing that we're not doing?
    Mr. Wechsler. Any discussion of Mexico has to begin, 
Senator, with an acknowledgment of the real strength and 
commitment of the Calderon administration in taking on this 
fight and taking the fight to the TCOs in a way that hadn't 
been done previously. There are elements of the fight that 
they've been doing that have been quite successful and there 
are elements of their fight that have been less successful, as 
President Calderon himself says quite clearly.
    The U.S. Government writ large effort has been under the 
Merida Initiative, designed at the end of the Bush 
administration to do a 3-year DOS-led, $1.3 billion program for 
Mexican support. I should note that it differs in one important 
respect from Plan Colombia, that in Plan Colombia it was a 
fully whole-of-government integrated plan, including DOD as a 
support organization. This was not the case with Merida. So our 
efforts that we are doing, which was the $50 million that I was 
referring to, are being designed to complement these efforts 
that are DOS-led.
    Everything that DOD does, which is not in any way the lead 
for the U.S. Government, nor should it be, is done at the 
request of the Mexican Government. That's important to stress. 
We do absolutely nothing that is not at the request of the 
Mexican Government. A great deal of the work that we do are 
supporting civilian agencies as well as military organizations.
    Senator Portman. On the funding for a second, adding these 
numbers together, it looks like we're talking roughly $500 
million when you add the DOD 50 plus roughly a third of the 
1.3. Is that roughly what we're spending annually during this 
time period of the Merida commitment?
    Mr. Wechsler. There is a commitment--to be very blunt about 
it, the first 2 years of the Merida commitment, DOS was unable 
to expend the money during those years at a high enough level. 
So this year the President has, and the Secretary of State, 
have committed to delivering $500 million of DOS Merida funds 
in this calendar year, which will be a wonderfully helpful 
thing for the Mexicans.
    At the same time, what we have done in these efficiencies 
efforts that you describe is try to scrub as much of our CN 
accounts and to close down programs that are not unsuccessful, 
but are just less high on the priority list, in order to shift 
money towards Mexico, and doing that in this year and going 
forward across the Future Years Defense Program. Indeed, when I 
took on this job one of my very first meetings was to have a 
budget meeting, and I decided that we were only spending $3 
million out of our budget on Mexico and that the U.S. 
Government as a whole was spending very little on the area of 
southern Mexico and northern Guatemala and Belize, which is a 
really----
    Senator Portman. Northern triangle.
    Mr. Wechsler. Exactly. So we put forward a proposal to 
increase the amount of money, and Congress thus far has 
approved it, to increase the amount of money that we were 
spending in that area, because that seemed to be an 
underresourced area.
    Senator Portman. By the way, in that area apparently 
incredible violence. One of your commanders recently said that 
outside of a war zone it was the most dangerous place he can 
imagine.
    Is that all about traffickers fighting for position coming 
up from further in the south? Or what is it about the northern 
triangle area that has become so dangerous?
    Mr. Wechsler. It's a lack of full government control.
    Senator Portman. This would be parts of Guatemala, El 
Salvador, Honduras, Southern Mexico, I take it?
    Mr. Wechsler. Exactly. It is in part a problem of those 
countries themselves and their security control over there. But 
what they are also being affected by is the Mexican TCOs that 
are moving south. The Zetas, which are the most violent of and 
have really moved the overall level of violence to a great 
degree, abetted by the other TCOs in Mexico, they have moved 
south into Guatemala and are contributing to the spike in 
violence that we see there as well.
    In part they're doing that as a result of the success that 
President Calderon has had, but in part it's also just moving 
to get greater control over different legs in the value-added 
change from the farmer to our streets in America.
    Senator Portman. How about Panama? Where does Panama fit in 
this? We also are working on a trade-opening agreement with 
Panama, and it has been a great partner on security and I 
understand they have a good cooperative arrangement with us at 
every level, including DOD.
    Mr. Wechsler. They do indeed, although it needs to be said 
that they're not--they have challenges themselves, challenges 
that we need to work with them on. But there is a great level 
of cooperation to work on those challenges, particularly in 
individual areas.
    Senator Portman. Can I get you on the record on that trade-
opening agreement also? Would that help by establishing a 
better commercial relationship with Panama to strengthen their 
hand in dealing with narcotraffickers and others who might use 
that as a financial haven?
    Mr. Wechsler. Anything that would help, that would 
encourage, as this would, to encourage the Panamanians to make 
further improvements on their anti-money-laundering regime and 
their ability to go after the money, which is one of the 
predominant challenges that exists in that country.
    Senator Portman. Thank you, Madam Chair.
    Senator Hagan. Mr. Reid, Dr. Schear, and Mr. Wechsler, 
thank you so much for your testimony today, your preparation, 
the job that you're doing. I know that these are very difficult 
times for so many places around the world and I really do 
appreciate what you're doing.
    I do want to say that we're going to keep the record open 
for any colleagues that may have questions for the record, 
until the close of business day on Friday. Also, we will be 
having a closed session and staff will coordinate that schedule 
with you.
    With that, this subcommittee meeting is adjourned. Thank 
you.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kay R. Hagan

                DOD POLICY ON BUILDING PARTNER CAPACITY

    1. Senator Hagan. Mr. Reid, Dr. Schear, and Mr. Wechsler, a number 
of the emerging, transnational threats the United States now faces are 
rooted in states with weak governments or under-governed spaces, such 
as Pakistan, Yemen, Somalia, and elsewhere, whose governments lack 
sufficient capacity to exercise governance and provide security 
throughout their territory. While security assistance has traditionally 
been a Department of State (DOS) function through such programs as 
Foreign Military Financing (FMF) and the International Military 
Education and Training (IMET) program, in the last several years the 
Department of Defense (DOD) has sought, and Congress has provided, a 
number of new authorities for building our partners' capacities to meet 
threats within their territories. Given the nature of the extremist 
threats emerging in a number of weak states, how important in your view 
are efforts to build the capacities of partner nations to provide 
security and conduct counterterrorism and stabilization operations?
    Mr. Reid, Dr. Schear, and Mr. Wechsler. In the decades to come, the 
most lethal threats to the United States' safety and security are 
likely to emanate from states that cannot adequately govern themselves 
or secure their own territory. Dealing with such fractured or failing 
states is, in many ways, the main security challenge of our time. The 
United States recognizes that the security sectors of at-risk countries 
are really systems of systems tying together the military, the police, 
the justice system, and other governance and oversight mechanisms. As 
such, building a partner's overall governance and security capacity is 
a shared responsibility across multiple agencies and departments of the 
U.S. Government, including DOD--and one that requires flexible, 
responsive tools that provide incentives for cooperation. In 
particular, section 1206 train and equip authority, and sections 1004, 
1033, and other DOD counternarcotics authorities continue to be 
critical tools to meet DOD's building partner capacity needs.
    In fiscal year 2012, the administration is seeking a new authority 
called the Global Security Contingency Fund (GSCF) to respond more 
effectively to emergent challenges and opportunities such as these. The 
GSCF would allow DOD and DOS to provide assistance to security forces 
as well as rule of law, judicial sector, and stabilization assistance 
when civilians are challenged by a lack of security, and where the 
provision of assistance can help prevent instability, or advance 
regional security. Programs under this fund would be jointly formulated 
by the DOS and DOD and would require approval by both Departments prior 
to implementation. Through the GSCF, we aim to combine the strengths of 
both Departments, and to call upon the expertise of the U.S. Agency for 
International Development and other departments and agencies to devise 
the most effective assistance programs possible to meet a particular 
strategic need.

    2. Senator Hagan. Mr. Reid, Dr. Shear, and Mr. Wechsler, do you 
believe that building the capacity of foreign security forces is a core 
function of DOD?
    Mr. Reid, Dr. Schear, and Mr. Wechsler. Yes. Arguably the most 
important military component in overseas operations is not the fighting 
we do ourselves, but how well we enable and empower our partners to 
defend and govern themselves. The standing up and mentoring of 
indigenous army and police--once the province of Special Operations 
Forces (SOF)--is now a key mission for the military as a whole. As the 
2010 Quadrennial Defense Review (QDR) concluded, the United States is 
likely to face future scenarios requiring a similar tool kit of 
capabilities as that being implemented in current operations, albeit on 
a smaller scale. In these situations, the effectiveness and credibility 
of the United States will only be as good as the effectiveness, 
credibility, and sustainability of its local partners. This strategic 
reality demands that the U.S. Government get better at building partner 
capacity--helping other countries defend themselves or, if necessary, 
fight alongside U.S. forces by providing partner forces with equipment, 
training, or other forms of support.
    The President and Secretary of Defense have directed Combatant 
Commanders to address security challenges in their regions, and DOD 
assigns to them responsibilities that require building partner 
capacity. Such efforts also can generate substantial dividends for U.S. 
security outside major warfighting venues. In Colombia, for example, a 
robust U.S. capacity-building effort, backed by bipartisan 
congressional support, has weakened antigovernment insurgents, helped 
free captive Americans, and promoted stability in our own hemisphere. 
In turn, Colombia is partnering with the United States to provide 
training to other countries; with cultural advantages they are also 
effective at capacity building.
    Improving how the United States builds partner capacity is an 
essential national security requirement that will endure for the 
foreseeable future. This is a cost-effective effort that requires 
focused, efficient, predictable funding and adequate authorities to 
provide the right training and equipment at the right time to the right 
partner nation's forces. When DOD applies its resources to build 
partner capacity in a manner that complements the efforts of the State 
Department and other interagency counterparts, experience has 
demonstrated that this is a valuable return on investment for the 
American taxpayer and a worthwhile mission for DOD. Given the 
importance of this issue to the United States and its partners and 
allies, the solution requires a whole-of-government approach.

    3. Senator Hagan. Mr. Reid, Dr. Schear, and Mr. Wechsler, what 
should be the respective roles of DOD and DOS in building partner 
capacities?
    Mr. Reid, Dr. Schear, and Mr. Wechsler. One of the most important 
lessons of the wars in Iraq and Afghanistan is that military success is 
not sufficient to win: economic development, institution-building and 
the rule of law, promoting internal reconciliation, good governance, 
providing basic services to the people, training and equipping 
indigenous military and police forces, strategic communications, and 
more--these, along with security, are essential ingredients for long-
term success. For this reason, building a partner's overall governance 
and security capacity is a shared responsibility across multiple 
agencies and departments of the U.S. national security apparatus--and 
one that requires flexible, responsive tools that provide incentives 
for cooperation. Our execution of and any government decision regarding 
building partner capacity should reinforce DOS's leading role in 
crafting and conducting U.S. foreign policy, including the provision of 
foreign assistance, of which building security capacity is a key part. 
Proper coordination procedures ensure that urgent requirements for 
military capacity building do not undermine the United States' 
overarching foreign policy priorities.
    That said, DOD brings important expertise and capability for 
building partner capacity, such as building up the operational capacity 
of partner nations by training and equipping troops and mentoring them 
in the field, building the institutional capacity of ministries of 
defense, and providing military-unique support for counternarcotics.
    Consistent with DOD and DOS's shared responsibility to build 
partner capacity, for fiscal year 2012, DOD and DOS propose to create a 
GSCF that would provide security and rule of law assistance when 
civilians are challenged by a lack of security, and where the provision 
of such assistance could help prevent instability, or advance regional 
security. The GSCF would create a more robust capability to respond to 
crises, emergent challenges, and new opportunities across a range of 
assistance types to a range of entities in the security sector. This 
proposal also would pilot a new business model for addressing security 
challenges by incentivizing collaboration and multiplying the 
effectiveness of U.S. Government security sector capabilities. Programs 
under this fund would be jointly formulated by DOS and DOD and would 
require approval by both departments prior to implementation.

    4. Senator Hagan. Mr. Reid, Dr. Schear, and Mr. Wechsler, in your 
view, are there areas where DOD has an advantage over DOS in delivering 
capacity-building assistance?
    Mr. Reid, Dr. Schear, and Mr. Wechsler. We should continue to 
reinforce DOS's lead role in crafting and conducting U.S. foreign 
policy, including foreign assistance, of which building security 
capacity is a key part. Proper coordination and concurrence procedures 
ensure that urgent security capacity building requirements do not 
undermine the United States' overarching foreign policy priorities.
    That said, DOD has an advantage over DOS in providing certain 
capacity-building assistance, such as building the operational capacity 
of partner nations by training and equipping troops and mentoring them 
in the field, building the institutional capacity of ministries of 
defense, and providing military-unique support for counternarcotics. 
DOD should take a lead role, subject to the procedures noted above, in 
building partner security capacity in areas such as disrupting and 
defeating transnational threats, supporting self-defense, and 
contributing to coalition operations, although DOD should continue to 
draw upon DOS and other departments and agencies' expertise to support 
and synchronize such building partner capacity efforts.
    The DOD-DOS fiscal year 2012 proposal to create a GSCF could help 
both departments, with the input of all relevant U.S. departments and 
agencies, develop innovative, effective assistance programs to provide 
assistance across multiple security sectors and implement such programs 
by leveraging the expertise of relevant U.S. departments and agencies.

    5. Senator Hagan. Mr. Reid, Dr. Schear, and Mr. Wechsler, are there 
areas where DOS should take the lead with DOD in support?
    Mr. Reid, Dr. Schear, and Mr. Wechsler. Our execution of, and any 
government decision regarding, building partner capacity should 
reinforce the DOS's leading role in crafting and conducting U.S. 
foreign policy, including the provision of foreign assistance, of which 
building security capacity is a key part. Proper coordination 
procedures ensure that urgent requirements for military capacity 
building do not undermine the United States' overarching foreign policy 
priorities.
    DOS should continue to lead in efforts to build partner capacity in 
a number of areas, such as improving governance, bolstering 
development, strengthening legitimate and effective public safety and 
justice, and promoting universal values, although DOS should continue 
to draw upon DOD and other departments and agencies' expertise to 
support and synchronize such building partner capacity efforts.
    We also need to move beyond the old debates about what is in DOD's 
``lane,'' what is in DOS's ``lane,'' and so on. Instead, we should 
focus on the mission as a whole and how the U.S. Government can best 
achieve our national objectives--how we can most effectively leverage 
existing capabilities, resources, and expertise to achieve those 
objectives, while simultaneously seeking new and more effective ways to 
build partner capacity in the longer term.
    Again, the DOD-DOS proposal to create a GSCF in fiscal year 2012 
would provide the two departments with the flexibility to leverage the 
expertise of DOS, DOD, or any other U.S. department or agency to 
provide a certain type of assistance.

                  SECTION 1206 TRAIN-AND-EQUIP PROGRAM

    6. Senator Hagan. Mr. Reid, in response to DOD's request for 
additional authority to respond to urgent and emerging security threats 
from ungoverned spaces, Congress established in 2006 the section 1206 
train-and-equip program as a pilot program. The 1206 program currently 
allows the Secretary of Defense, with the concurrence of the Secretary 
of State, to spend up to $350 million per year to build the capacity of 
partner nations' military forces to conduct counterterrorism operations 
or to conduct stability operations in conjunction with U.S. forces. 
What is your assessment of the section 1206 dual-key process requiring 
joint DOS and DOD approval of programs?
    Mr. Reid. Program development and collaboration in the field 
between the Chief of Mission and the combatant commander is the first 
step in a rigorous inter-departmental process to target our section 
1206 assistance toward appropriate military units within a country. 
This collaboration is continued between DOD and DOS in Washington. We 
have established a process where each regional and functional office in 
DOS and DOD prioritizes projects according to that office's expertise. 
This ``wisdom of crowds'' approach ensures the highest priority 
proposals rise to the top, while giving both sides a veto if particular 
projects run counter to particular mission objectives.
    We believe the dual-key process makes section 1206 programs 
stronger and more effective and has yielded significant dividends in 
the form of high-quality programs.

    7. Senator Hagan. Mr. Reid, how well is that DOD-DOS coordination 
working?
    Mr. Reid. We believe the dual-key process makes section 1206 
programs stronger and more effective, and has yielded significant 
dividends in the form of high-quality programs. The process is not 
without occasional friction, but the vast majority of section 1206 
programs are formulated and approved without contention.

    8. Senator Hagan. Mr. Reid, is this a model for other security 
assistance programs in your view?
    Mr. Reid. Yes. Section 1206 has proven to be an effective authority 
for conducting security cooperation in response to a changed security 
environment in the wake of September 11. The dual-key concurrence 
mechanism is a particularly important feature of section 1206 that 
drives deliberate coordination between departments in the executive 
branch, optimizing the value of our assistance programs to foreign 
partners. The lessons we've learned through our experience in 
developing, vetting, and implementing section 1206 programs help us as 
we look for ways to improve our support to partners in combating 
terrorism and contributing to multinational stability operations 
efforts. These lessons are also relevant as the administration looks to 
develop new security sector assistance tools to address emerging 
problems that bear on U.S. security, such as the GSCF. Although the 
GSCF differs from section 1206 in its top-down driven project 
nomination and broad focus on security sector issues writ large, it 
builds on the fundamental principle of joint formulation and 
concurrence reflected in section 1206.

    9. Senator Hagan. Mr. Reid, some foreign policy experts have 
criticized the DOD section 1206 train-and-equip program as duplicating 
existing DOS security assistance authorities such as FMF and 
contributing to a militarization of U.S. foreign policy. How do you 
respond to the criticism that DOD's section 1206 authority duplicates 
traditional DOS authorities like the FMF program?
    Mr. Reid. The FMF program is a critical tool for executing our 
foreign policy; it is key to improving bilateral relationships, 
encouraging behavior in the U.S. interest, increasing access and 
influence, and building capacity where host-nation and U.S. interests 
align. Because many countries rely on FMF as a major resource for their 
military procurement budgets, the allocation of these resources is 
affected by host-nation preferences and political engagement. Secretary 
Gates has argued consistently for increased funding for Title 22 
programs--including FMF--because our diplomats need additional 
resources to advance U.S. interests. Such funding, however, does not 
address all the combatant commanders' need for tools to build capable, 
reliable, and interoperable partners as they prepare for--and seek to 
minimize the necessity for--high priority missions in their areas of 
responsibility (AORs).
    On the other hand, we use the section 1206 authority as a 
responsive and agile tool to meet urgent and emergent threats and 
opportunities to build tangible partner capacity. It is not viewed as a 
political tool to satisfy the desires of foreign governments, but 
rather as a strategic way to address critical counterterrorism needs as 
identified by the U.S. Government inside current budget cycles. There 
has been no attempt to ensure that all regions are provided assistance 
under this authority--or that all elements of a foreign military are 
provided with equipment. To the contrary, section 1206 programs are 
targeted at countries--and particular military units within countries-
where focused training and equipment will have the most significant 
impact in achieving the objectives of the section 1206 authority. 
Building partner capacity meets a vital and enduring military 
requirement and we have been careful to avoid using section 1206 as a 
tool of international politics precisely because military rather than 
political needs define the appropriateness of funding particular 
activities.

    10. Senator Hagan. Mr. Reid, what safeguards are built into the 
1206 program to prevent such duplication?
    Mr. Reid. Each program proposal is jointly formulated by DOD and 
DOS representatives in the field, and the submissions must describe why 
the identified requirement should not be addressed using traditional 
security assistance tools. Upon receipt of the proposals, they are 
reviewed and evaluated by regional and functional offices across both 
Departments; a critical part of that evaluation is a determination of 
whether the use of other tools--such as FMF, counternarcotics, or 
cooperative threat reduction authorities--are more appropriate for a 
particular requirement.
    This ``wisdom of crowds'' approach ensures the highest priority 
proposals rise to the top, while giving both sides a veto if particular 
projects run counter to particular mission objectives. The process 
culminates with the approval by the Secretary of Defense and the 
concurrence of the Secretary of State.

    11. Senator Hagan. Mr. Reid, the 1206 program was designed to 
provide a more flexible means to respond to emerging threats that may 
not have been anticipated as part of the budget preparation cycle. Yet, 
our ability to deliver equipment still lags behind, often taking 12 to 
18 months after a 1206 assistance program is proposed, vetted, and 
approved. How successful has the 1206 program been in delivering 
equipment and training in response to emerging threats in a timelier 
manner than traditional security assistance under FMF?
    Mr. Reid. The flexibility of the section 1206 authority comes from 
the speed and agility of its decisionmaking cycle. Each and every 
section 1206 program is identified, vetted, and executed in a single 
fiscal year. Put more simply, the authority allows the U.S. Government 
to act in months rather than years.
    In addition, we are always looking for ways to improve delivery 
timelines. Based on lessons learned from previous years, and best 
practices established though the provision of equipment under other DOD 
authorities, we notified Congress earlier this year of our intent to 
use $12 million in fiscal year 2011 section 1206 funding to ensure 
section 1206 equipment is delivered as quickly as possible. 
Specifically, these funds will be used in section 1206 programs to 
provide pre-shipment consolidation and premium transportation services 
in order to help expedite the provision of section 1206 equipment to 
recipient units.

    12. Senator Hagan. Mr. Reid, what remains the main impediment under 
the 1206 program to delivering equipment when it is needed?
    Mr. Reid. Meeting urgent and emerging requirements within the 
existing contracting system and on the acquisition timelines of the 
defense industrial base can be challenging. We continue to work with 
our partners in the acquisition and contract community to find ways to 
expedite the provision of section 1206 equipment.
    We are working to increase the speed, agility, and responsiveness 
of the FMS system. One such initiative is to recapitalize the Special 
Defense Acquisition Fund (SDAF) to reduce the amount of time that 
partner countries have to wait to receive urgently needed defense 
articles. Initially authorized in 1981, the fund provides the DOD with 
a means to procure defense articles in anticipation of their future 
transfer to foreign countries and international organizations. The DOD 
will use the fund to purchase items that have long procurement lead-
times and will likely be needed by partner countries during future 
contingencies. The SDAF will allow the U.S. Government to deliver the 
urgently needed items in less time than would otherwise be possible. In 
addition, the fund will help to maintain the readiness of U.S. forces 
since it will reduce the need to divert critical assets from U.S. 
service inventories to fulfill urgent foreign requirements. The 
administration is requesting obligation authorization from Congress to 
recapitalize the fund beginning in fiscal year 2012.

    13. Senator Hagan. Mr. Reid, one criticism of the section 1206 
train-and-equip program is that assistance is provided to address 
emerging threats without sufficient assurances that the program will be 
sustained over time. Because the vast majority of 1206 programs are 
with lower income countries, sustainment of these programs may have to 
be incorporated into FMF funding plans for subsequent years. How do you 
address concerns over the sustainment of 1206 programs if the recipient 
country lacks the resources to sustain the programs on its own?
    Mr. Reid. We have articulated a clear approach to sustainment in 
the past: Section 1206 authority could be used to begin critical 
programs, after which we would work with host nations to identify 
national funds or, failing that, include sustainment requirements in 
FMF requests. Our annual guidance, issued jointly by DOD and DOS to our 
combatant commands and embassies, stipulates that Security Assistance 
Officers and the U.S. Embassy Country Teams identify the appropriate 
approach for sustainment in each country. We have at times reduced 
proposed programs when the size of the request would be difficult for 
the host nation to sustain. We also seek to mitigate risk-of-
sustainment problems by including in section 1206 programs 2-year spare 
parts packages and training to operate and sustain equipment, including 
train-the-trainer support. This approach supports effective near-term 
use of the equipment and also helps minimize out-year costs. For 
longer-term funding, this approach relies either on the host nation to 
commit funds or on Congress appropriating the administration's FMF 
funding requests.

    14. Senator Hagan. Mr. Reid, once a 1206 program has provided 
equipment or training in response to an emerging threat, when should 
that security assistance be handed off to more traditional security 
assistance programs like FMF?
    Mr. Reid. We have articulated a clear approach to sustainment in 
the past: Section 1206 authority could be used to begin critical 
programs, after which we would work with host nations to identify 
national funds or, failing that, include sustainment requirements in 
FMF requests. Our annual guidance, issued jointly by DOD and DOS to our 
combatant commands and embassies, stipulates that Security Assistance 
Officers and the U.S. Embassy Country Teams identify the appropriate 
approach for sustainment in each country. We have at times reduced 
proposed programs when the size of the request would be difficult for 
the host nation to sustain. We also seek to mitigate risk-of-
sustainment problems by including in section 1206 programs 2-year spare 
parts packages and training to operate and sustain equipment, including 
train-the-trainer support. This approach supports effective near-term 
use of the equipment and also helps minimize out-year costs. For 
longer-term funding, this approach relies either on the host nation to 
commit funds or on Congress appropriating the administration's full FMF 
funding request.

    15. Senator Hagan. Mr. Reid, what criteria do you use to determine 
when a program should graduate out of the section 1206 program?
    Mr. Reid. We use section 1206 authority to begin critical programs, 
after which time we work with host nations to identify national funds 
or, failing that, include sustainment requirements in FMF requests. 
This means we usually do not provide section 1206 to build a specific 
capacity for more than 3 years. Such a window of time allows us to work 
with host nations to identify national funds or, failing that, include 
sustainment requirements in FMF requests. Although the urgency of a 
particular threat may alter this calculus, we understand the view of 
Congress--and this committee in particular--is that section 1206 is not 
a substitute for traditional security assistance authorities such as 
FMF.

    16. Senator Hagan. Mr. Reid, has DOD developed plans for monitoring 
the outcomes of these projects, as recommended by a 2010 Government 
Accountability Office study?
    Mr. Reid. Yes. As more section 1206 programs reach maturity, DOD is 
initiating a more formal assessment effort. Such an effort will be 
built on information collected in the program proposal process, which 
includes baseline information, expected program milestones, and 
quantitative and qualitative metrics to measure the program's 
effectiveness. As a first step in assessing section 1206 programs, DOD 
contracted for the RAND Corporation to identify key stakeholders, their 
roles, and sources of data in support of a comprehensive assessment of 
the programs. Part of this step involves determining DOD's capacity to 
implement an integrated assessment framework developed by RAND's 
National Defense Research Institute (NDRI) in 2009. This integrated 
framework includes preparatory elements, such as developing assessment 
guidance, designing processes, and providing training, as well as the 
actual conduct of assessments and the analysis of their results. The 
capacity to implement such a framework includes, for example, 
stakeholders at every level of a program who have access to data that 
would support assessments, guidance to establish processes and to 
govern the conduct of assessments, and the assessment skills possessed 
by personnel within the stakeholder organizations. Determining this 
capacity will enable the development of a framework to assess specific 
programmatic efforts within the section 1206. This study is near 
completion, and its conclusions will provide a foundation for a more 
comprehensive assessment of individual programs from across different 
fiscal years that DOD intends to begin in late fiscal year 2011.

       PERSONNEL SUPPORT TO UNITED NATIONS PEACEKEEPING MISSIONS

    17. Senator Hagan. Dr. Schear, today, the United States has 
military officers serving within the United Nations (U.N.) peacekeeping 
missions in Haiti, Liberia, and a few other peacekeeping missions. Many 
of our partners in NATO also have officers deployed in support of these 
missions. Can you discuss the pros and cons of these personnel 
contributions?
    Dr. Schear. The primary benefit of current U.S. military 
contributions is the ability to improve the operational effectiveness 
and management of their missions by filling key staff positions, and 
the resulting insight into the mission that U.S. military participation 
provides for U.S. Government policymakers. When evaluating whether or 
not to provide staff officers to a U.N. peacekeeping operation, the 
primary criteria include whether the country involved is a U.S. 
Government policy priority, and whether the position to be filled can 
affect the operational effectiveness and management of the mission.
    The challenge to U.S. participation is the potential strain on high 
demand/low density skill sets required for staff officers (i.e., 
intelligence, logistics, civil affairs (CA), et cetera) and ensuring 
adequate force protection for military personnel. The use of both 
Active Duty and Reserve component personnel helps to alleviate the 
strain on specific skill sets while providing a broader pool of 
candidates. The Department ensures that adequate force-protection 
(secure housing, availability of sidearms, etc.) and appropriate legal 
(Status of Forces Agreements or comparable legal safeguards) measures 
are in place to protect U.S. military personnel assigned to U.N. 
missions.

    18. Senator Hagan. Dr. Schear, what would be the pros and cons of 
the United States providing additional contributions to U.N. 
peacekeeping missions?
    Dr. Schear. Providing additional contributions to U.N. peacekeeping 
missions would provide a number of benefits.

        <bullet> Increased U.S. contributions would provide additional 
        expertise and capabilities in support of U.N. peacekeeping 
        missions, help ensure the success of the mission, and support 
        stability in the affected country or region. For those missions 
        of particular interest to the United States, successful 
        peacekeeping operations reduce the risk of costlier U.S. 
        involvement in the event of renewed or continued conflict.
        <bullet> Increased U.S. contributions would also send a 
        political message both to host nations and U.N. member states 
        that the United States values and supports international 
        peacekeeping. With respect to the specific peacekeeping 
        mission, the increased contributions would indicate that the 
        United States views that mission as a priority.
        <bullet> Increased U.S. contributions could also encourage 
        other nations to contribute (or increase their contributions) 
        to peacekeeping operations.

    Any decision to increase U.S. contributions--specifically in terms 
of U.S. military personnel--must take into account, however, the impact 
on the force. The U.S. military is stretched thin from extensive 
deployments over the past decade. U.S. military personnel need time off 
from multiple deployments, and the demand for some skill sets typically 
exceeds the available capacity. The provision of large numbers of U.S. 
personnel will be unfeasible in the near future in light of the 
existing operational demands. However, the United States can continue 
to place U.S. officers in key staff positions that can help improve the 
performance of the mission, and can look to opportunities where U.S. 
forces can contribute to the success of peacekeeping missions in other 
ways (such as U.S. support for MINUSTAH in the wake of the Haiti 
earthquake).

    19. Senator Hagan. Dr. Schear, what would be the pros and cons of 
personnel contributions to the U.N. peacekeeping mission in the 
Democratic Republic of the Congo?
    Dr. Schear. The United States has two military personnel deployed 
to the U.N. Stabilization Mission in the Democratic Republic of the 
Congo (MONUSCO), one deployed to Kinshasa, and one deployed to Goma. 
Both are military intelligence officers serving in the mission G2 
(information) division. These two officers are filling a critical 
demand, for which U.S. assistance was specifically requested. The most 
significant benefit of these officers' presence is their positive 
impact on the way the mission collects, organizes, and analyzes 
information, and their ability to draw on analytical support from 
AFRICOM as appropriate. Improving the mission's information 
capabilities supports the mission's operational and strategic planning, 
particularly regarding MONUSCO efforts to counter the Lord's Resistance 
Army.
    Increasing the U.S. military contributions to MONUSCO could improve 
the mission's operational capacity and would be in line with U.S. 
Government policy priorities in the region. The MONUSCO military staff 
currently has a full complement of officers, but DOD would consider 
positions that come available (when countries decide that they will no 
longer fill certain positions) in areas such as planning, operations, 
logistics, CA and military justice.
    The challenge to U.S. participation is the potential strain on high 
demand/low density skill sets required for staff officers (i.e., 
intelligence, logistics, CA, et cetera), and ensuring adequate force 
protection for military personnel. Additionally, certain positions in 
this mission require French language capability, which limits the 
number of potential candidates within the U.S. military. The MONUSCO 
area of responsibility is a particularly challenging environment for 
force protection given the periodic attacks on MONUSCO troops, and 
sensitivities regarding the carrying of sidearms (sidearms are not 
allowed in many areas in Kinshasa and Goma). However, MONUSCO has 
implemented thorough security procedures to ensure the safety of its 
officers, and DOD reviews the specific security concerns at each duty 
location to ensure appropriate force-protection measures are in place.

              INTELLIGENCE SUPPORT FOR INDIRECT ACTIVITIES

    20. Senator Hagan. Mr. Reid, some observers contend that the 
national intelligence agencies focus their assistance on SOFs in 
Afghanistan engaged in direct action, or kill/capture operations, 
against terrorists and insurgents. As a consequence, it is alleged, 
general purpose forces and SOFs engaged in indirect activities 
including foreign internal defense and population protection, like 
village stability operations, receive less intelligence support. Do you 
believe the Intelligence Community (IC) is adequately focused on 
supporting both direct and indirect lines of operation in Afghanistan 
and elsewhere?
    Mr. Reid. Yes. Over the last several years, the Department has 
worked to drastically increase intelligence support to warfighters 
across the board. In response to combat commanders' requests for 
greater numbers of data-collecting systems, the Department created the 
Intelligence, Surveillance, and Reconnaissance (ISR) Task Force to 
rapidly field ISR platforms. Through such efforts, the Department has 
expanded Predator/Reaper orbits and upgraded the capabilities of our 
airborne ISR systems, making a dramatic impact on the battlefield. Over 
the past year, the IC has also provided significant support to the 
surge of troops to Afghanistan through Attack the IED Network (AtN) 
capabilities, addressing the leading cause of casualties to U.S. and 
coalition partners. These capabilities include adding a significant 
number of intelligence analyst, C-IED enablers, and Persistent 
Surveillance systems to enable both general purpose and special 
operating forces understand and attack IED networks.
    As mobilizing the local population in rural areas for village 
stability operations has become an increasingly critical element of our 
strategy in Afghanistan, the IC has also put greater emphasis on 
developing a comprehensive understanding of the socio-cultural 
environments within which terrorist networks and insurgent forces 
operate. Stability Operations Information Centers in Afghanistan are 
now generating comprehensive District Assessment reports and the ISR 
Task Force and the U.S. Central Command are working to develop an 
integrated information sharing environment to support indirect lines of 
operation in Afghanistan. In March 2010, USD(I) commissioned the 
Intelligence Task Force of the Defense Science Board to evaluate how 
intelligence can most effectively support counterinsurgency operations. 
The Board is currently compiling its findings and recommendations and 
is scheduled to complete its work by the end of calendar year 2011.

                                SOMALIA

    21. Senator Hagan. Mr. Reid and Dr. Shear, during his testimony 
before the Senate Armed Services Committee on April 7, General Carter 
Ham, the Commander of U.S. Africa Command (AFRICOM), suggested that DOD 
needed to take a more regional approach to address the threat emanating 
from Somalia. This would seem to indicate that more work should be done 
with Somalia's neighbors--Kenya, Ethiopia, and Djibouti--and perhaps 
with the sub-regional governments in Somalia. If General Ham approached 
your office indicating that he needed more support to counter the 
growing terrorist threat in Somalia, what tools and authorities would 
you propose using to help him address the situation through a regional 
framework?
    Mr. Reid and Dr. Schear. General Ham has already begun to pursue a 
number of promising initiatives, utilizing various tools and resources 
for the challenges he faces. For capacity building, section 1206, 
complemented by smaller programs such as IMET and the Combating 
Terrorism Fellowship Program (CTFP) allow AFRICOM to build regional CT 
capabilities and relationships with key leaders in the international CT 
community. Section 1208 provides resources for U.S.-partner combined CT 
operations. AFRICOM is also increasing its operational collaboration 
with regional partners to monitor and counter terrorist threats. 
Persistent relationships with regional governments, complemented by 
episodic mil-mil engagements (e.g., Joint Combined Exchange Training 
(JCET)) have helped develop a level of interoperability that is 
improving our ability to jointly combat terrorism. Finally, AFRICOM, 
OSD, and the Joint Staff continue to work with State and other 
interagency partners to develop an integrated CT strategy that 
coordinates and leverages our various CT authorities and resources in 
East Africa. AFRICOM has begun assisting the State Department with 
identifying its security assistance priorities, and the Command 
recently began supporting State-led training for the African Union 
Mission in Somalia.

    22. Senator Hagan. Mr. Reid and Dr. Schear, Somalia is a unique 
problem set as it is a failed state. Is DOD's security assistance 
program equipped to address the threats emanating from Somalia?
    Mr. Reid and Dr. Schear. Our security assistance authorities are 
not ideal for addressing threats emanating from failed states. Most of 
our security assistance tools require us to work with national military 
forces, which is not possible in a failed state that the U.S. 
Government does not recognize as a sovereign nation.
    Given these challenges, we take a regional approach to countering 
the threats emanating from Somalia. Section 1206 authority allows us to 
build CT capacity in East African states to prevent the threat from 
spilling out of Somalia. The section 1208 authority is available for 
working with regional partners to conduct U.S.-led CT operations. Other 
authorities, such as JCET and IMET, allow us to build relationships 
with East African CT authorities. The State Department's Peacekeeping 
Operations funding is somewhat more flexible and can be used to support 
Somalia's Transitional Federal Government (TFG). Where appropriate, DOD 
advises and coordinates with State on these programs assisting 
entities, including the African Union Mission in Somalia and the TFG, 
inside Somalia. Finally, we're increasingly collaborating with other 
nations, such as the United Kingdom, which have different security 
assistance authorities, to support Somaliland and other subnational 
entities.

                MILITARY INFORMATION SUPPORT OPERATIONS

    23. Senator Hagan. Mr. Reid, al Qaeda and affiliated violent 
extremist groups work hard to appeal to local populations. The 
composition and size of these groups in comparison to the U.S. 
Government permits them to make and implement policy decisions very 
quickly. Do you believe DOD and other agencies within the U.S. 
Government are appropriately organized to respond effectively to the 
messaging and influence efforts of al Qaeda and other affiliated 
terrorist groups?
    Mr. Reid. DOD MISO and influence programs and activities are 
tailored for each audience they address. Depending upon the unit or the 
organization being supported, MISO units are trained to develop 
activities and products to influence the behavior of a single 
individual or larger target audience. DOD adjusts its MISO units in 
size and composition to the operation they must support based on 
approved DOD programs and coordinated with the Interagency as required.

    24. Senator Hagan. Mr. Reid, what do you believe is the appropriate 
role for Military Information Support Teams (MIST) in relation to these 
activities?
    Mr. Reid. A MIST supports the achievement of military objectives in 
both war and peace while working together with a country team and Chief 
of Mission in any country where it works. While a MIST often works from 
the U.S. Embassy, its role therein is to support the achievement of 
objectives laid out by the combatant command and its subordinate 
component commands. There are many instances in which MISTs work 
collaboratively with the Embassy staff because mission objectives 
overlap.

         SPECIAL OPERATIONS FORCES IN SUPPORT OF COUNTRY TEAMS

    25. Senator Hagan. Mr. Reid, I understand that U.S. Special 
Operations Command (SOCOM) deploys personnel to work with country teams 
in many priority countries where we are not in a shooting conflict, but 
rather trying to stop the spread of extremist ideology. Please describe 
the value you believe these special operations personnel bring to the 
work of country teams. What is done to make sure the goals of special 
operations personnel deployed to these countries are aligned with those 
of the ambassadors they are working with?
    Mr. Reid. DOD, including SOCOM, leverages long-established 
processes and mechanisms for planning, de-confliction, and partnered 
efforts to enhance mutually supporting objectives with our interagency 
partners. DOD extensively coordinates its efforts to combat terrorism 
with the National Security Staff, Chiefs of Mission, Chiefs of Station, 
relevant departments and agencies, and field activities to enable the 
broadest interagency collaboration consistent with maintaining the 
security of our efforts. We recognize that this is a constant process 
that requires regular and routine interface at multiple levels within 
the respective organizations. We have made wide use of the Joint-
Interagency Task Force model to bring our interagency colleagues into a 
collaborative planning and execution forum, and vigilantly look for 
ways to share best practices and make adjustments to the process.

    26. Senator Hagan. Mr. Reid, given the high demand for special 
operations personnel around the world, how is the decision made by 
SOCOM and the Geographic Combatant Commanders (GCC) to deploy a special 
operations team to a certain country and is that decision reevaluated 
over time?
    Mr. Reid. The decision to deploy special operations personnel in 
support of country teams around the world is the result of 
collaborative process undertaken between GCCs, country teams, SOCOM, 
and DOD. Based on the President's National Security Strategy and the 
Secretary of Defense's National Defense Strategy and Guidance for 
Employment of the Force, the GCC draft Theater Campaign Plans to 
accomplish U.S. policy goals and regional/country objectives. GCCs 
develop requests for forces to conduct engagements in support of their 
regional strategy, which are submitted to the Joint Staff for 
validation. The Joint Staff assesses each request against priority 
countries and strategic risks, and then tasks SOCOM with developing 
sourcing solutions for validated requirements which are ultimately 
approved by the Secretary and published annually in the Department-wide 
Global Force Management Allocation Plan.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

        BUILDING PARTNERSHIP CAPACITY--NATIONAL LAW ENFORCEMENT

    27. Senator Reed. Mr. Reid and Dr. Schear, over the past 5 years, 
DOD has constituted a capability to train-and-equip foreign militaries. 
Correspondingly, the DOS's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) has a number of programs targeted at capacity 
building of their national law enforcement partners, but much of this 
capacity building is done by contractors. DOD has expressed interest in 
engaging with national law enforcement units focused on 
counterterrorism, but, with the exception of counternarcotics training, 
legal constraints prevent DOD from engaging in this activity. Do you 
believe there should be more emphasis on building the capacity of our 
partner's national law enforcement entities?
    Mr. Reid and Dr. Schear. Yes. One of the most important lessons 
from our experience in Iraq, Afghanistan, and elsewhere has been the 
decisive role reconstruction, development, and governance plays in any 
meaningful, long-term success. We need partners and allies who can 
effectively secure their own borders, work with us to address 
transnational threats like terrorism, and provide legitimate and 
effective security and governance to their populations.
    Although we only play a supporting role to the lead law enforcement 
agencies, we anticipate requirements to build the capacity of partner 
nations' law enforcement entities will continue to increase, and we 
should improve interagency planning, coordination, and capacity to meet 
such requirements. DOD Counternarcotics programs have developed a 
successful model for supporting international law enforcement partners 
in cooperation with DOS/INL, Department of Justice (DOJ), Department of 
Homeland Security (DHS), and key agencies such as the Drug Enforcement 
Agency (DEA) and FBI.
    Again, the DOD-DOS proposal to create a GSCF in fiscal year 2012 
could yield more effective programs for building law enforcement 
capacity and integrating law enforcement capacity in a broader security 
sector framework in a given country. The GSCF would provide the two 
departments with the flexibility to leverage the expertise of DOS, DOD, 
or any other U.S. department or agency to provide assistance for 
militaries and other security forces as well as rule of law, judicial 
sector, and stabilization assistance when civilians are challenged by a 
lack of security. The GSCF would create a more robust capability to 
respond to crises, emergent challenges, and new opportunities across a 
range of assistance types to a range of entities in the security 
sector. This proposal also would pilot a new business model for 
addressing security challenges by incentivizing collaboration and 
multiplying the effectiveness of U.S. Government security sector 
investments.

    28. Senator Reed. Mr. Reid and Dr. Schear, what is your view of 
giving the Federal Bureau of Investigation (FBI) or DEA the mandate and 
funding to engage in these sorts of activities? Should DOD be engaged 
in this mission?
    Mr. Reid and Dr. Schear. Building a partner's overall governance 
and security capacity is a shared responsibility across multiple 
agencies and departments of the U.S. Government--and one that requires 
flexible, responsive tools that provide incentives for cooperation. 
Indeed one of the most important lessons of the wars in Iraq and 
Afghanistan is that military success is not sufficient to win: economic 
development, institution-building and the rule of law, promoting 
internal reconciliation, good governance, providing basic services to 
the people, training and equipping indigenous military and police 
forces, strategic communications, and more--these, along with security, 
are essential ingredients for long-term success.
    Currently DOD cooperates with DEA and FBI (and other departments 
and agencies) to help build partner capacity for counternarcotics, and 
with FBI for counterterrorism and counter-WMD programs. Although we 
only play a supporting role to the lead law enforcement agencies, we 
anticipate requirements to build the capacity of partner nations' law 
enforcement entities will continue to increase, and we should improve 
interagency planning, coordination, and capacity to meet such 
requirements. DOD should absolutely remain engaged in this activity, 
and we support additional funding for the DOS, which also provides 
funding for law enforcement and judicial sector programs executed by 
DOJ, DHS, and other departments and agencies.

    29. Senator Reed. Mr. Reid and Dr. Schear, what is DOD's view of 
this missing capacity to train law enforcement/gendarmerie training 
capability? Are there specific areas where DOD is interested in 
engaging?
    Mr. Reid and Dr. Schear. Building local capacity for law 
enforcement is critical for transitioning from counterinsurgency and 
counter terrorism operations to law enforcement activities. As such, 
our own government's civilian capacity to assist developing nations is 
critical to advancing U.S. security interests. Other agencies must be 
given the resources needed to engage effectively around the globe. 
DOD's efforts need to be complemented by other agencies with different 
core competencies to assist developing partners as they create 
effective and accountable government institutions.
    Although we only play a supporting role to the lead law enforcement 
agencies, we anticipate requirements to build the capacity of partner 
nations' law enforcement entities including gendarmerie will continue 
to increase, and we should improve interagency planning, coordination, 
and capacity to meet such requirements. DOD Counternarcotics programs 
have developed a successful model for providing training, equipping, 
and other support to international law enforcement partners (including 
foreign police, border guards, coast guards, etc.) in cooperation with 
DOS/INL, DOJ, DHS, and key agencies such as DEA and FBI.

    30. Senator Reed. Mr. Reid, the previous Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict, Mike 
Vickers, advocated for DOD to support more robustly other departments 
and agencies of government in countering the message of violent 
extremists through information operations and strategic communications 
programs. How do you foresee DOD increasing its support of DOS and/or 
the Central Intelligence Agency (CIA)?
    Mr. Reid. The global media environment we are now in makes 
cooperation and collaboration among different departments and agencies 
critical to ensure consistency and efficacy of the U.S. global message. 
DOD supports these interagency strategic communication efforts by 
making our capabilities available to support other departments and 
agencies and by maintaining operational transparency. DOD maintains 
unique capabilities to reach audiences in denied areas, as well as to 
promulgate information that supports military objectives and, where 
appropriate, that contributes to the communication strategies of the 
larger U.S. Government. DOD information activities, such as MISO and 
public affairs, are coordinated with other agencies as appropriate. 
When executed outside areas of military conflict, these activities 
undergo review by the country teams, which include CIA and State 
Department representatives. DOD also works closely with State's Office 
of the Coordinator for Counterterrorism and Bureau of Intelligence and 
Research, and supports the newly established Center for Strategic 
Counterterrorism Communications.

    31. Senator Reed. Mr. Reid, do you believe DOD has the authority 
for expanded support operations?
    Mr. Reid. Yes, our extant authorities, which allow us to ensure 
regional stability and security through our combatant commands, grant 
authority to provide expanded support where and when required. We will 
continue to leverage long-established processes and mechanisms for 
planning, de-confliction, and partnered efforts to enhance mutually 
supporting objectives with our interagency partners.

                         INFORMATION OPERATIONS

    32. Senator Reed. Mr. Reid, I want to ask about information 
operations. In your view, has DOD done enough to explain the measures 
of effectiveness for these programs?
    Mr. Reid. DOD's efforts to develop measures of effectiveness have 
not, in the past, received the level of effort necessary, and we are 
taking steps to correct that. One of the missions of the re-organized 
Joint IO Warfare Center will be to develop these assessments in support 
of COCOM missions. We also work closely with other departments and 
agencies that are challenged with developing measures of effectiveness 
for their own information programs.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                     SPECIAL OPERATIONS ACTIVITIES

    33. Senator Chambliss. Mr. Reid, section 167, title 10, U.S.C. 
defines 10 activities as special operations activities insofar as each 
relates to special operations. While there is a catchall proviso listed 
as well, designating such other activities, as may be specified by the 
President or the Secretary of Defense as special operations activities, 
given the 2006 realignment of all Reserve Civil Affairs and 
Psychological Operations (PSYOP)/MISO forces from SOCOM where they 
supported both the general purpose force and SOFs, to the U.S. Army 
Reserve Command (USARC), where they now primarily support the general 
purpose force. Should CA and PSYOP have remained on this list of 
special operations activities?
    Mr. Reid. The 2006 realignment migrated Reserve component U.S. 
Civil Affairs and Psychological Operations (USACAPOC) forces from the 
U.S. Army Special Operations Command (USASOC) to the USARC. It did not 
change longstanding force apportionment, training, and operational 
support relationships. U.S. Army Reserve (USAR) CA Brigades and PSYOP/
Military Information Support to Operations (MISO) Groups and Companies 
continue to support general purpose force Corps, Joint Task Forces, and 
Brigade Combat Teams (BCT). USAR CA Battalions continue to support 
General Purpose Force (GPF) Divisions as well as each Special Forces 
Group. The USAR PSYOP/MISO force now provides exclusive support to the 
GPF, while the active Component PSYOP/MISO force continues to support 
GPF and SOF.
    Over the course of our engagement in Iraq and Afghanistan, the 
responsibilities of general purpose forces for population-centric 
operations have expanded. Accordingly, CA units now provide significant 
support to both special and conventional operations at the tactical, 
operational, and strategic levels. Nevertheless, CA can be considered a 
special operations activity when Active component Civil Affairs Forces 
assigned to USASOC are conducting special operations as section 167, 
title 10, U.S.C. suggests.

    34. Senator Chambliss. Mr. Reid, given this change of command and 
control, how do you reconcile the fact that Reserve component CA and 
PSYOP/MISO soldiers continue to perform what is technically defined as 
a Special Operations activities without commensurate authorities, 
training, equipping, or funding every time they deploy in support of 
combat operations in Iraq, Afghanistan, and the Horn of Africa? What 
can be done to clarify this statutory discrepancy?
    Mr. Reid. As section 167, title 10, U.S.C. suggests, CA and PSYOP/
MISO are special operations activities insofar as they relate to 
special operations. Reserve component CA and PSYOP/MISO are not SOFs, 
so there is no discrepancy.
    Nevertheless, the majority of Army CA and PSYOP/MISO forces are 
Reserve component forces and have operated in direct support of general 
purpose forces during full spectrum operations. In acknowledgement of 
this fact, the Secretary of the Army (Office of the Assistant Secretary 
Army for Manpower and Reserve Affairs) is conducting analysis of 
options to address responsibilities for the training and equipping of 
CA forces. These options include possible amendment of Title 10 U.S.C., 
section 3013(c) to add lead agent responsibility for both CA and 
Military Government to the Secretary of the Army's enumerated 
responsibilities. This analysis seeks to alleviate the burden on the 
special operations community to perform operational responsibilities 
for GPF CA that would normally be performed by a Service headquarters.
    The Army's review of CA is being carried over into the SOCOM (the 
Joint Proponent for MISO) discussions regarding the PSYOP/MISO force. 
As SOCOM looks at efficiencies and the future role of MISO, it is 
working to determine the most effective method for providing continued 
whole-of-DOD support. ASD(SO/LIC), in partnership with SOCOM, expects 
to produce a comprehensive MISO report over the coming year that 
provides a strategy proposal for the future MISO force.

                         CIVIL AFFAIRS CAPACITY

    35. Senator Chambliss. Mr. Reid, in your written statement to the 
committee you mention creating additional CA and PSYOP/MISO units in 
order to provide additional support for SOFs and the regular Army. 
While Active and Reserve component CA and PSYOP/MISO forces are 
certainly in high demand with lower than average dwell times, TRADOC 
has clearly documented gaps--language skills, cultural acumen, 
functional specialty, and planning expertise--in CA capabilities that 
remain unresolved today. When coupled with a lack of habitual 
relationships with BCTs and SOFs alike, is creating additional CA and 
PSYOP/MISO capacity the proper way to solve a capability shortfall?
    Mr. Reid. The current operational tempo to support requirements in 
the CENTCOM Area of Operations has impacted sustainment of CA existing 
habitual, regionally-oriented relationships with BCTs and SOF. DOD has 
recognized this problem and has invested substantially in CA growth 
over the past several years in order to address some of these gaps. 
Army CA is programmed to grow to 187 CA companies (25 SOF, 30 Active 
component (AC), 132 Reserve Component (RC)) by fiscal year 2013; up 
from 76 CA companies (6 SOF, 70 RC) in fiscal year 2006. This increased 
CA capacity will regenerate and enhance these habitual relationships 
with BCTs and Special Operations units, thus improving the capability 
shortfalls described. Additionally, a SOCOM/JFCOM co-sponsored 
Capabilities Based Assessment of CA identified similar gaps at the 
operational and strategic level. Detailed solution recommendations are 
being forwarded for consideration to the Chairman of the Joint Chiefs 
of Staff and the Army.
    The same language and cultural concerns have been cited for the 
Active component (AC) PSYOP/MISO support to SOF and the combatant 
commands. As such, the SOCOM Commander has proposed an internal 
adjustment to reorganize the AC MISO force, the details of which are 
still under consideration within DOD.

    36. Senator Chambliss. Mr. Reid, would embedding CA within Army 
BCTs help resolve some or all of these capabilities gaps while also 
conserving resources during an era of increasingly constrained budgets?
    Mr. Reid. While we may gain tactical and operational benefit from 
assigning CA companies to BCTs, there are currently not enough CA 
companies in the current force structure to make this possible. By 
contrast, the assignment of General Purpose Force CA Battalions and 
their organic companies from the newly authorized Active component 85th 
CA Brigade to the respective Army Service components of the geographic 
combatant commands allows greater operational flexibility for the 
combatant command commander and the Army Service component commander to 
allocate CA forces to accomplish Theater Security Cooperation and civil 
military engagement missions.

    37. Senator Chambliss. Mr. Reid, in these tight financial times 
where we seek efficiencies wherever we can find them, is creating 
additional CA and PSYOP/MISO force structure the best use of taxpayer 
funds?
    Mr. Reid. Ineffective governance can create areas of instability 
for terrorists and insurgents to exploit and for violent ideologies to 
spread. Assessments of the future security environment demand that the 
United States retain and enhance capabilities for succeeding against 
these kinds of challenges. Current programmed growth within DOD's CA 
and MISO communities has been based on existing non-OIF/OEF 
requirements to support the execution of each Combatant Command's 
Theater Security Cooperation Plans. Current and already programmed CA 
force structure posses sufficient capacity to meet requirements for 
execution of current Theater Security Cooperation Plan requirements.

    38. Senator Chambliss. Mr. Reid, in your view, is CA an Army or a 
SOF capability?
    Mr. Reid. CA is a capability that supports both conventional and 
SOF. As part of DOD's overall rebalancing effort, the responsibilities 
of conventional forces for population-centric operations have greatly 
expanded. General Purpose Forces' access to and integration with CA 
units is an important part of that overall strategic shift. Between 
fiscal years 2001 and 2015, the CA community will have grown from 5,149 
manpower authorizations to 11,702 personnel. This investment includes a 
significant growth within the Active component, both for General 
Purpose Forces and SOF, from 208 manpower authorizations in fiscal year 
2001 to 3,224 authorizations in fiscal year 2015. SOCOM and the Army 
are currently undertaking an examination of this evolution to determine 
if CA has moved beyond a purely SOF capability. The results of this 
examination will properly align the CA force to continue to provide the 
required support to both communities.

    PSYCHOLOGICAL OPERATIONS/MILITARY INFORMATION SUPPORT OPERATIONS

    39. Senator Chambliss. Mr. Reid, given the importance of PSYOP and 
Information Operations and the well-publicized challenges we have in 
executing these responsibilities in comparison to al Qaeda, the fact 
that we have not selected a PSYOP/MISO officer as a general officer and 
empowered him/her to lead our information efforts overseas puzzles me. 
Special Forces are a critical enabler and they have general officer 
billets. Would not the selection of someone who has devoted his/her 
life to the profession of persuading, informing, and/or influencing 
foreign target audiences overseas assist us in improving our 
performance in this critical aspect of our efforts overseas?
    Mr. Reid. The MISO community remains small and segmented by 
component within the Army, which houses the majority of MISO forces. 
Though still an exception, the Army recently promoted an information 
operations officer to brigadier general. This officer commanded the 
first Information Operations Command and now serves in the U.S. Cyber 
Command as an operations officer. In addition, the SOCOM Commander has 
submitted a Force Design Update requesting the establishment of a MISO 
Command. As the request is processed through the Army Force Management 
process, the Army will decide if a general officer is appropriate to 
lead this new command.

    40. Senator Chambliss. Mr. Reid, why are there no general officer 
billets in PSYOP/MISO?
    Mr. Reid. The MISO community remains small and segmented by 
component within the Army, which houses the majority of MISO forces. 
Though still an exception, the Army recently promoted an Information 
Operations officer to Brigadier General. This officer commanded the 
first Information Operations Command and now serves in the U.S. Cyber 
Command as an operations officer. In addition, the SOCOM Commander has 
submitted a Force Design Update requesting the establishment of a 
MISOC. As the request is processed through the Army Force Management 
process, the Army will decide if a general officer is appropriate to 
lead this new command.

                         INFORMATION DOMINANCE

    41. Senator Chambliss. Mr. Reid, shortly after their most recent 
attempts to cripple international commerce by bringing down a 
commercial aircraft enroute to America, al Qaeda was publishing their 
efforts worldwide via their English-language online magazine, Inspire. 
Too recent a change in strategy to have received much attention yet, 
this dangerous new pronouncement is noteworthy precisely because it was 
made publicly. More importantly, al Qaeda used this forum to announce a 
marked shift from historically accepted terrorist dynamics to a clear-
cut strategy of attrition designed to economically cripple the west.
    ``Moving away from the expensive and carefully coordinated attacks 
of September 11 on New York and the 7/7 London bombs, al Qaeda in Yemen 
says it is now going to focus on smaller, cheaper strikes in an effort 
to bleed the enemy to death through a strategy of a thousand cuts. One 
article enlightens readers on how two Nokia mobiles, two HP printers, 
cheap explosives and 3 months' work for a team of less than six, has 
forced Barack Obama to frantically pump dollars into airport security, 
further weakening the American economy. The publication says the 
technical know-how of making parcel bombs will be disseminated to 
militants in countries with looser security restrictions than in Yemen. 
Is al Qaeda's dominance in the information arena an emerging threat to 
our collective national security? If so, given the statutory and 
regulatory limitations on U.S. strategic communications efforts, how 
can we counter their efforts in this domain?
    Mr. Reid. The information domain is global in scope and our enemies 
will attempt to use this domain to achieve a comparative advantage. DOD 
cannot be the sole responder to violent extremist activity in this 
domain, and hence we work diligently with DOS and the IC to combat the 
spread of propaganda, including the information in Inspire magazine. It 
is also important that we not bring more attention to these efforts 
simply by reacting to every piece of information that becomes 
available. Doing so can inadvertently provide such announcements with a 
wider audience. It may be appropriate to review and, where necessary, 
update statutes written for a time when information was not as readily 
and instantly available.

                     CIVIL AFFAIRS IN QDR STRATEGY

    42. Senator Chambliss. Dr. Schear, the 2010 QDR reinforced the 
focus on stability operations as an integral and co-equal element of 
full spectrum operations. As such, the role of CA forces as subject-
matter experts for key stability tasks was elevated in two directives 
included in the Rebalancing-the-Force section of the QDR and identified 
as enhancements to the capabilities of the U.S. Armed Forces. The first 
directive--expand CA capacity--provides resources and potential, 
creates opportunity, and presents challenges. The second directive--
``increase counterinsurgency, stability operations, and 
counterterrorism competency in general purpose forces''--is an 
important implied task for CA that presents its own opportunities and 
challenges. How do you reconcile the elevated status of stability 
operations, and by extension the importance of CA, within the 2010 QDR 
with the well-documented current gaps in CA capabilities? Do we have 
the forces we need in this area, or is this an area we still need to 
grow?
    Dr. Schear. SOCOM and the Army have determined that current and 
already programmed CA force structure possess sufficient capacity to 
meet the requirements of current operations within CENTCOM AOR and the 
COCOM generated demand signal for execution of current Theater Security 
Cooperation (TSC) requirements. The capability shortfalls within the CA 
force are being addressed in detail by the respective services and 
SOCOM and solution sets are being provided through the CA Capabilities 
Based Assessment. Implementation of those solutions, by the services, 
will eliminate much of the existing capability gaps. The Department has 
the correct force capacity to meet current requirements, and should 
resist the temptation to create a ``new capability or increase 
capacity'' when simply enhancing capabilities within current force 
structure, through additional, enhanced, or new training; structure and 
manning updates; and progressive equipping coupled with continued 
evolution of the roles, missions, and responsibilities of the current 
CA force, will suffice.

                  COUNTERNARCOTICS AND GLOBAL THREATS

    43. Senator Chambliss. Mr. Wechsler, regarding the threat of 
Transnational Criminal Organizations (TCO), you comment in your written 
statement that, `` It is important to recognize that when we discuss 
the transnational nature of this threat, this includes criminal 
activities that take place outside as well as within the United States. 
For instance, the influence of Mexican TCOs extends well beyond the 
southwest border to cities across the country such as Atlanta, Chicago, 
and Detroit. Unfortunately, coordination of domestic and international 
activities can be especially challenging.'' You go on to comment that, 
``DOD can play an important role in facilitating coordination and 
information sharing through mechanisms such as Joint Task Force-North 
in El Paso and Joint Interagency Task Force-South in Key West--both of 
which are models of interagency and international cooperation. This 
issue of information sharing has always concerned me because too often 
there have been unnecessary barriers to organizations within the U.S. 
Government receiving information crucial to their mission that another 
organization in the U.S. Government already has. My question for you 
regarding this issue is, are there barriers that are unnecessary, and 
are you able to give and receive information with domestic agencies and 
across DOD and the IC that you need to in order to best accomplish your 
mission, and for the other agencies involved to best accomplish their 
mission?
    Mr. Wechsler. DOD develops, analyzes, and shares counternarcotics-
related information to the full extent permitted by law with other U.S. 
Federal partners, as well as with State and local authorities and 
foreign counterparts, utilizing a flexible web of agreements and task 
forces. This may include DOD providing information to other U.S. 
agencies, which then share the information with third parties under 
those agencies' legal authorities and arrangements. Generally speaking, 
these arrangements work well, in part because U.S. and foreign 
authorities have been cooperating against transnational drug 
trafficking for many years. The DOD counternarcotics program supports 
several activities to facilitate information-sharing, including (but 
not limited to):

        <bullet> Anti-Drug Network, which provides classified computer 
        links among Federal and State law enforcement agencies, as well 
        as secure but unclassified connections among Federal, State, 
        local, regional, tribal and foreign drug trafficking 
        interdiction mission partners;
        <bullet> Intelligence and information analysis and 
        dissemination training programs;
        <bullet> Multi-discipline intelligence analysis and linguistic 
        support to other agencies;
        <bullet> The Joint Narcotics Analysis Center in Afghanistan;
        <bullet> Tactical Analysis Teams (TATs) supporting U.S. 
        Embassies in 18 countries; and
        <bullet> Cooperating Nations Information Exchange System 
        (CNIES) enabling graphical display of sanitized aerial and 
        maritime radar tracking information among U.S. and foreign 
        partners.

    44. Senator Chambliss. Mr. Wechsler, is there any assistance that 
Congress may be able to provide?
    Mr. Wechsler. I appreciate the question, Senator, and the 
longstanding support the Congress has provided for the Department's 
counternarcotics efforts. In the current challenging fiscal 
environment, we understand that we are constantly competing for finite 
Federal resources and believe we are providing excellent value for the 
American taxpayer.
    More specifically, several of the Department's key counternarcotics 
authorities will expire at the end of fiscal year 2011. These 
authorities include: (1) Section 1004 of the National Defense 
Authorization Act (NDAA) of Fiscal Year 1991, as amended, our 
foundational authority to provide critical counterdrug support to 
State, local, Federal, and foreign law enforcement partners; (2) 
Section 1021 of the NDAA of Fiscal Year 2005, as amended, which 
authorizes support for Colombia's unified counterdrug and 
counterterrorism campaign; and (3) Section 1022 of the NDAA of Fiscal 
Year 2004, as amended, which allows counterdrug funds to be used to 
support counterterrorism activities worldwide. Over the years, these 
authorities have been critical to the progress we have made in 
detecting and monitoring drug trafficking through the Caribbean and 
building counternarcotics capacity in Colombia and elsewhere in the 
Western Hemisphere. Sections 1004 and 1022 are particularly important 
to our efforts to confront narcotics production and trafficking in 
Afghanistan--a key source of revenue for the Taliban. We look forward 
to working with the committee to ensure these unique and flexible tools 
are reauthorized in the NDAA for Fiscal Year 2012.

                            COUNTERNARCOTICS

    45. Senator Chambliss. Mr. Wechsler, the twin border cities of 
Ciudad Juarez and El Paso, TX, are a primary crossing point for drugs 
smuggled into the United States. Control of drug routes in Chihuahua, 
the State along New Mexico and West Texas where Juarez is located, is 
vital to the continued growth of drug cartel operations. In recent 
testimony before the House Armed Services Committee, Admiral Winnefeld, 
Commander, U.S. Northern Command (NORTHCOM), stated that: ``criminal 
groups have killed more than 35,000 people since December 2006.'' While 
some experts believe that drug violence will remain a significant 
problem on both sides of the border for years to come, other U.S. 
authorities now believe, based on information from confidential 
informants with direct ties to Mexican drug gangs and other 
intelligence, that Mexico's most powerful kingpin--Joaquin ``El Chapo'' 
Guzman--and the Sinaloa cartel is winning Mexico's drug war, edging out 
the rival Juarez gang for control over the coveted trafficking routes 
through Juarez. While that is one assessment, what is your assessment 
of the status of the drug war between these rival drug cartels and, 
more to the point, what else can we do to help stem the flow of drugs, 
people, weapons, and money across our southern border?
    Mr. Wechsler. Ciudad Juarez has suffered especially high rates of 
violence in part because it is contested among several TCOs, 
principally the Sinaloa Cartel, the Juarez Cartel (aka Vicente Carrillo 
Fuentes Organization) and the Zetas as well as less-sophisticated 
actors such as the Barrio Azteca gang. I would hesitate to say who is 
winning or losing this struggle, except to make the point that all 
Mexicans ultimately lose, not only when criminal organizations fight 
one another but also if any criminal organization is able to gain 
effective dominance over an area. I therefore applaud the courageous 
efforts of the Mexican authorities to build rule of law throughout the 
country, including in some of the most difficult locations.
    The United States should certainly do more, in my opinion, to 
provide training, equipment, and information to help Mexican efforts. 
In particular, the United States can share some of its experience, and 
that of other countries, in coordinating all aspects of national power 
(including law enforcement, defense, intelligence, judicial, and 
economic development efforts) to build campaigns to dismantle 
transnationally-networked adversaries. In doing so, however, U.S. 
authorities are careful to bear in mind that the situations in places 
like Ciudad Juarez are very different from places where the United 
States has been more directly involved. We must, therefore, adapt 
lessons learned elsewhere, not try to adopt them outright. The United 
States should also redouble its efforts to reduce the flow of both 
firearms and drug money from the United States to Mexico, as well as to 
diminish U.S. consumption of illegal drugs.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn

                                 MEXICO

    46. Senator Cornyn. Mr. Wechsler, in your prepared testimony, you 
note that DOD, SOUTHCOM, and NORTHCOM are working to develop a joint 
security effort in the border region of Mexico, Guatemala, and Belize. 
Please provide further details on this effort.
    Mr. Wechsler. Starting in 2009, DOD realized that as Colombia and 
Mexico brought more effective pressure on TCOs, the TCOs would disperse 
into even more vulnerable countries in Central America. Powerful TCOs 
interact with less sophisticated, but large-scale, street and prison 
gangs, some of which maintain international networks, including in the 
United States. An estimated 96 percent of cocaine that departs South 
America for the United States first arrives in Central America, before 
continuing through Mexico. Although Central American countries differ 
significantly, weak rule of law and severe social inequality can 
engender environments in which TCOs can operate with varying degrees of 
``impunity.'' Violence in the region, which has long been high, has 
increased dramatically in recent years.
    DOD, therefore, worked with authorities from Mexico, Guatemala, and 
Belize, as well as from several U.S. agencies, to design a set of 
programs that are starting in 2011. In the meanwhile, the U.S. and 
Central American Governments launched broader security cooperation 
efforts, notably the Central American Regional Security Initiative 
(CARSI), which the DOD counternarcotics program complements. The goals 
of the U.S.-fostered effort are to help Mexico, Guatemala, and Belize 
strengthen governmental control over remote border regions, improve 
land, sea, and air domain awareness and response capabilities and 
support regional security cooperation efforts. The program puts a 
particular emphasis on helping the three countries improve controls 
over their littoral waters, where most drug trafficking takes place. 
Support includes patrol boats, night vision equipment, communications 
equipment, maritime sensors, and associated training. DOD will also 
provide infrastructure support in Guatemala and Belize. Specifically, 
the DOD counternarcotics Mexico-Guatemala-Belize Border Region Program 
helps:

        <bullet> Improve regional border (including airspace and 
        maritime) security through training, equipment, information 
        sharing, and infrastructure;
        <bullet> Enhance drug smuggling interdiction capacity and 
        capabilities by helping improve mobility and training for 
        partner country interdiction forces, including for combined 
        operations with the United States and/or each other;
        <bullet> Improve regional sea, air, and land domain awareness 
        by developing intelligence, command, and control capabilities 
        to integrate maritime and air operations. This emphasizes 
        leveraging Joint Interagency Task Force-South operations; and
        <bullet> Foster partnerships, including complementing the 
        Merida Initiative and CARSI.

    47. Senator Cornyn. Mr. Wechsler, what disparities have you found 
between the current counter-trafficking approaches and capabilities of 
NORTHCOM and SOUTHCOM?
    Mr. Wechsler. NORTHCOM and SOUTHCOM's respective geographic areas 
of responsibility are very different in nature, since NORTHCOM covers 
the United States, as well as Mexico, the Bahamas, and Canada, while 
SOUTHCOM covers 31 fellow American countries and 10 territories. DOD's 
counternarcotics (CN) and related support to law enforcement agencies 
within the United States are governed by significantly different legal 
authorities, as well as policy directives, as compared to DOD's 
security cooperation with foreign countries. Nevertheless, NORTHCOM and 
SOUTHCOM work very closely with each other to ensure that no ``seam'' 
emerges between their efforts, highlighted by implementation of a 
special Mexico, Guatemala, Belize Border Region counternarcotics 
program (see question #46.)
    NORTHCOM's role in supporting the CN efforts of U.S. Federal, state 
and local law enforcement agencies is carried out principally via Joint 
Task Force-North (JTF-North). JTF-North provides active duty military 
support to law enforcement agencies to detect, monitor and support the 
interdiction of suspected transnational threats within and along the 
approaches to the continental United States. This includes fusing and 
disseminating intelligence, contributing to a common operational 
picture, coordinating support to other agencies, and supporting 
NORTHCOM's cooperation with Mexico. Support mission categories include: 
operational, intelligence, engineering and training. (The National 
Guard also provides support to counterdrug law enforcement in the 
United States. See question #58.) NORTHCOM's roles in supporting 
Mexican security forces' counterdrug efforts include training, 
equipment, and information sharing, and concentrate on helping Mexican 
forces improve their tactical and operational proficiency, as well as 
their air mobility, maritime law enforcement, communications, and 
reconnaissance capacities. This includes an emphasis on intelligence-
driven and interagency operations as well as incorporating principles 
of respect for human rights. (See question #46)
    SOUTHCOM's efforts against drug trafficking and associated 
transnational crime span a much greater geographic range, and vary 
greatly in intensity from country to country. Some countries, such as 
Colombia and Peru, continue to make admirable efforts to suppress drug 
production and trafficking, while other countries' efforts (such as 
those of Venezuela) have been disappointing in recent years. SOUTHCOM 
(and its component Joint Interagency Task Force-South) conduct 
substantial missions to detect and monitor drug trafficking, as well as 
to support law enforcement interdiction of smuggling. Counterdrug 
Forward Operating Locations in the Netherlands Antilles and El Salvador 
provide critical support in these efforts. SOUTHCOM information-sharing 
programs include the CNIES which shares radar track information among 
participating countries, and the TAT program, which provides DOD 
counterdrug intelligence analysts to support U.S. Embassies abroad. 
SOUTHCOM counternarcotics partner capacity building efforts include 
training in areas such as special operations, riverine and maritime 
operations, leadership, maintenance, planning and other areas. SOUTHCOM 
provides infrastructure and equipment to a variety of countries in the 
Americas for counternarcotics purposes. Other categories of support to 
U.S. and foreign counterdrug efforts in SOUTHCOM's area of 
responsibility include airlift, engineering, and communications.

    48. Senator Cornyn. Mr. Wechsler, in your testimony, you also state 
that DOD's counternarcotics program expects to allocate approximately 
$51 million in fiscal year 2011 to support Mexico, representing a 
dramatic increase over previous funding levels, which were closer to $3 
million per year prior to 2009. Please elaborate on what this 
additional funding will be used for.
    Mr. Wechsler. DOD CN support to Mexican security forces includes 
training, equipment, infrastructure, and information sharing and 
concentrates on helping Mexican forces improve their tactical and 
operational proficiency, as well as their air mobility, maritime law 
enforcement, communications, and reconnaissance capacities. DOD CN 
support includes an emphasis on intelligence-driven and interagency 
operations as well as incorporating principles of respect for human 
rights.
    Training examples include: air operations, safety, resources 
management, maintenance, and mission planning; helicopter pilot 
training (including at an expanded school in Colombia); transnational/
regional security issues; rule of law, human rights, and discipline of 
military operations; tactics for urban and night operations; counter-
improvised explosive device techniques; force protection during 
operations, as well as at staging and garrison locations; logistics/
resources management; maritime, littoral, riverine, and amphibious 
operations, communications and planning; ship maintenance and repair; 
search-and-rescue, medical and lifesaving; non-commissioned officer 
leadership; intelligence and operational planning; and unmanned aerial 
systems employment.
    Equipment provided includes: aircraft avionics, sensor upgrades, 
maintenance consumables, spare parts; helicopter repair and mission 
system upgrades; aviation and surface night vision devices; non-
intrusive cargo inspection detectors; unattended ground sensor systems; 
tactical, secure, GPS-equipped hand-held and vehicle-mounted radios; 
point-to-point communications network consisting of microwave links, 
towers, encryption equipment, and associated components; and maritime 
automated information system transponders.
    DOD CN operates or supports U.S. intelligence, radar, 
communications, computer network, transportation, counterdrug detection 
and monitoring, training, technology development, liaison, headquarters 
support, and related activities, portions of which may be considered 
indirect support to Mexico. This includes the work of Joint Task Force-
North, which supports U.S. drug law enforcement agencies in the United 
States.

                                SOMALIA

    49. Senator Cornyn. Mr. Reid, some analysts speculate that 
successfully denying al Qaeda a safe haven in Afghanistan and Pakistan 
might simply result in a relocation and reorganization of al Qaeda 
leadership. In your prepared testimony, you note al-Shabaab's 
increasing affiliation with al Qaeda. Reports indicate that al-Shabaab 
now controls much of southern and central Somalia. Please elaborate on 
the nature and scope of this threat and on al Qaeda's influence in the 
region.
    Mr. Reid. The relationship between al-Shabaab and al Qaeda is 
complicated. We see increasing connections between al-Shabaab and al 
Qaeda's Pakistan-based leadership, but also divisions between al-
Shabaab and the remnants of the al Qaeda in East Africa cell. Parts of 
al-Shabaab are committed to international terrorism while other parts 
are regionally-aligned, clan-based militias that have been co-opted or 
coerced into al-Shabaab's ranks. Regardless of the specifics of the 
organizational relationship between al-Shabaab and al Qaeda, we're very 
concerned about al-Shabaab's increasing interest in external attacks 
and desire to leverage Somali diaspora communities.
    We also remain concerned that if al-Shabaab were to take over 
Somalia, al Qaeda could try to use it as a safe haven and staging base 
in a key strategic area of the world. An al-Shabaab-led Somalia would 
also pose a regional threat and perpetuate the instability and 
humanitarian crises that have wracked the region for the past 2 
decades.

    50. Senator Cornyn. Mr. Reid, what factors make Somalia a 
particularly attractive place for al Qaeda to operate?
    Mr. Reid. Somalia's lack of governance and relatively sparse 
population make it appealing as a safe haven. However, Somalis' 
historic distrust of outsiders could undermine al Qaeda's ability to 
hide among the population. Its location along key shipping routes could 
make Somalia a key staging area for transnational terrorist attacks. 
But its long coast line could also allow the U.S. and allied nations to 
conduct sea-based CT operations virtually anywhere in Somalia. We 
continue to work with our interagency partners to create some 
governance and security capacity in Somalia, bolster the ability of 
neighboring countries to counter the threat, and prevent al Qaeda from 
establishing a strong foothold there.

    51. Senator Cornyn. Mr. Reid, in your opinion, if al Qaeda is 
effectively denied safe haven in Afghanistan and Pakistan, what is the 
likelihood that they would relocate their leadership to Somalia?
    Mr. Reid. There are a number of places where al Qaeda could 
relocate, including Somalia. However, it would take al Qaeda some time 
to establish the same operational infrastructure there and to 
effectively hide among a population that has traditionally been very 
resistant to outsiders. I defer to my colleagues in the IC for a more 
thorough assessment of the likelihood of al Qaeda relocating its 
leadership to Somalia.

                                 LIBYA

    52. Senator Cornyn. Mr. Reid, Colonel Moammar Qadhafi recently 
promised to carry out terrorist attacks against civilian ships and 
airliners. If Qadhafi is allowed to remain in power, do you believe he 
will make good on these threats?
    Mr. Reid. In the complex security environment we are in, we cannot 
afford to discount any leader's threats. Colonel Qaddafi has a history 
of conducting terrorist attacks against Western states and could do so 
again.

    53. Senator Cornyn. Mr. Reid, al Qaeda and its affiliates have 
found safe havens around the world in failed or failing states. If the 
situation in Libya becomes a protracted stalemate between Qadhafi and 
rebel forces, what is the likelihood that al Qaeda or a like-minded 
terrorist organization will establish itself somewhere in Libya?
    Mr. Reid. Although we continue to monitor the actions of al Qaeda 
and affiliated groups in Libya, the generally reformist, pro-democracy 
orientation of the opposition movement is at odds with the aims of al 
Qaeda. Further, for all of its shortcomings, the Qaddafi regime has 
proven effective in countering al Qaeda and affiliated groups. Far more 
concerning is the possibility that al Qaeda and its affiliates will 
exploit the current instability to obtain advanced Libyan military 
weaponry, such as surface-to-air missiles.

                   AL QAEDA IN THE ARABIAN PENINSULA

    54. Senator Cornyn. Mr. Reid, the anti-government movement in Yemen 
to force President Saleh from power has further destabilized that 
country. At the same time, al Qaeda in the Arabian Peninsula (AQAP) 
remains a serious threat and has recently demonstrated its intent and 
its capabilities. What is your assessment of the current anti-
government movement in Yemen and its impact on AQAP's reach, 
operations, and capabilities?
    Mr. Reid. The political instability in Yemen has allowed AQAP to 
increase its operating space and to make some tactical gains in the 
tribal areas--in several cases seizing and holding territory now 
outside of Republic of Yemen Government control. Despite AQAP's limited 
gains, it remains distant from, and largely counter to, the current 
anti-government movement in Yemen. AQAP has not made any significant 
gains in the urban areas nor has it been able to translate this into a 
broader strategic success in Yemen or beyond.

    55. Senator Cornyn. Mr. Reid, although AQAP primarily targeted 
western interests in Yemen, its attempted Christmas Day bombing of a 
Detroit-bound airliner in 2009 and the failed October 2010 parcel plot 
indicates that it has international aspirations. What is your 
assessment of al Qaeda's current goals and objectives?
    Mr. Reid. AQAP is intensely focused on conducting a near-term 
attack against the United States, and poses an immediate terrorist 
threat to U.S. interests and the Homeland. The Christmas Day bombing of 
the Detroit-bound airliner in 2009 and the failed package bombing 
attempt in October 2010 are the more recent attempts by al Qaeda to 
attack the U.S. Homeland. Despite recent setbacks, al Qaeda and its 
affiliate AQAP are still actively plotting attacks, with the principal 
aim of successfully striking the U.S. Homeland.
    The rise of these affiliate organizations in the Arabian Peninsula 
and elsewhere is of great concern, and highlights the importance of not 
only disrupting al Qaeda's attacks against the United States and our 
allies and partners, but also countering al Qaeda's ideology, 
messaging, and resonance as well. Hence, both are administration 
priorities.

                           LASHKAR-E-TAYYIBA

    56. Senator Cornyn. Mr. Reid, PACOM Commander Admiral Robert 
Willard testified before this committee that Lashkar-e-Tayyiba (LeT) 
has ``spread their influence internationally and are no longer solely 
focused in South Asia and on India.'' He went on to say that LeT has 
declared jihad on America and has even carried out attacks on U.S. 
forces in Afghanistan. What is your assessment of the threat LeT poses 
to the United States and our interests?
    Mr. Reid. Since its inception in the late 1980s, LeT has focused 
its efforts primarily on combating India over the contested Jammu and 
Kashmir regions. Like other militant groups however, there is evidence 
that LeT has broadened its interests and could represent an emerging 
threat to the West, particularly in Europe, as well as the broader 
South Asia region. At this time however, we do not fully understand the 
extent of the network's aspirations.
    Regarding LeT's activities against Coalition Forces in Afghanistan, 
we assess that these activities are likely done to gain both tactical 
experience and legitimacy, to forge relationships with key insurgent 
groups there, and to meet the group's goal of defending Islam from 
perceived Western aggression. LeT's presence in Afghanistan has not 
gone unnoticed. COMISAF is fully aware of the LeT threat and is 
addressing it proportionately and responsibly. The DOD continues to 
monitor LeT's potential for expanded operations that may target the 
U.S. and our interests. We will continue to address this potential 
threat as it presents itself and will remain supportive of broader U.S. 
Government efforts to examine and combat LeT.

    57. Senator Cornyn. Mr. Reid, what is the current relationship 
between LeT and the Government of Pakistan as a whole, between LeT and 
Pakistan's military, and between LeT and Pakistan's Inter-Services 
Intelligence?
    Mr. Reid. Pakistan continues to view India as its greatest security 
threat and, given India's military dominance in the region, may view 
militant groups, like LeT as useful proxies to bridge the military 
capability gap between it and its eastern neighbor. There are 
widespread allegations that Pakistan's Inter-Services Intelligence may 
maintain a limited relationship with elements of LeT to both, provide 
Pakistan with an asymmetric capability which would offset the 
aforementioned gaps, and to moderate LeT's activities. However, our 
insight into the details of the alleged relationship is minimal and 
often fraught with contradictory information.

             NATIONAL GUARD JOINT COUNTER-DRUG TASK FORCES

    58. Senator Cornyn. Mr. Wechsler, the NDAA for Fiscal Year 1989 
authorizes the National Guard to provide support to law enforcement 
counter-drug operations. The Texas National Guard Joint Counter-Drug 
Task Force (JCDTF) has provided support to local, State, and Federal 
law enforcement agencies for over 21 years, and it does extremely 
important work along the Texas-Mexico border. Although the Texas-Mexico 
border is over 1,250 miles long, comprising about 65 percent of the 
overall U.S.-Mexico land border, the Texas National Guard JCDTF 
receives only 10 percent of the Federal budget for Counterdrug State 
Plans. In spite of this, the Texas National Guard JCDTF's operations 
have resulted in over $54 billion in assisted seizures. In your 
opinion, how important are the National Guard's JCDTF programs, and 
what critical capabilities do they bring to the table to help our 
Nation counter illicit trafficking?
    Mr. Wechsler. Helping protect the U.S. border region with Mexico is 
my top domestic priority, both with respect to National Guard programs 
and Title 10 military support to law enforcement agencies, since the 
border region is the principal theater through which illegal drugs 
enter our country. We have to recognize, however, that TCOs operate 
throughout the United States and that the worst violence associated 
with such crime is generally not concentrated in the border region. In 
fact, criminals with ties to Mexican TCOs operate in an estimated 235 
U.S. cities. In view of these realities, the need to put scarce 
resources toward the greatest threat, and the need to measure the 
effects of our efforts, the National Guard Counterdrug Program has 
developed a Threat Based Resourcing Plan to support law enforcement 
counternarcotics operations in all States.
    I consider each State's JCDTF to be extremely important. In fact, 
the States can support one another in part through the networkable body 
of capabilities the National Guard Counterdrug Program provides from 
DOD's authorized mission list. How each State Governor meets specific 
capability needs in counternarcotics activities varies considerably, 
and flexibility as a hallmark of the National Guard Counterdrug 
Program.
    The authorized mission categories for the National Guard 
Counterdrug Program are:

    1.  Program management;
    2.  Technical support (subcategories include: linguist support, 
investigative case and analyst support, operational/investigative case 
support, communications support, engineer support, and subsurface diver 
support);
    3.  General support (including cannabis suppression and 
transportation);
    4.  Reconnaissance/observation (ground and aerial); and
    5.  Illegal drug demand reduction support.

    [Whereupon, at 4:14 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
